<html>
<title> - IMPLEMENTING THE CHILD CARE DEVELOPMENT BLOCK GRANT ACT OF 2014: PERSPECTIVES OF STAKEHOLDERS</title>
<body><pre>[Senate Hearing 114-770]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-770

   IMPLEMENTING THE CHILD CARE DEVELOPMENT BLOCK GRANT ACT OF 2014: 
                      PERSPECTIVES OF STAKEHOLDERS

=======================================================================

                                HEARING

                                OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                                   ON

EXAMINING THE CHILD CARE DEVELOPMENT BLOCK GRANT ACT OF 2014, FOCUSING 
                    ON PERSPECTIVES OF STAKEHOLDERS

                               __________

                             JUNE 15, 2016

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions
                                
                                
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                               


      Available via the World Wide Web: http://www.gpo.gov/fdsys/



                     U.S. GOVERNMENT PUBLISHING OFFICE                    
20-525                       WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3255425d72514741465a575e421c515d5f1c">[email&#160;protected]</a> 


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                  LAMAR ALEXANDER, Tennessee, Chairman


MICHAEL B. ENZI, Wyoming		PATTY MURRAY, Washington
RICHARD BURR, North Carolina		BARBARA A. MIKULSKI, Maryland
JOHNNY ISAKSON, Georgia			BERNARD SANDERS (I), Vermont
RAND PAUL, Kentucky			ROBERT P. CASEY, JR., Pennsylvania
SUSAN COLLINS, Maine			AL FRANKEN, Minnesota
LISA MURKOWSKI, Alaska			MICHAEL F. BENNET, Colorado
MARK KIRK, Illinois			SHELDON WHITEHOUSE, Rhode Island
TIM SCOTT, South Carolina		TAMMY BALDWIN, Wisconsin
ORRIN G. HATCH, Utah			CHRISTOPHER S. MURPHY, Connecticut
PAT ROBERTS, Kansas			ELIZABETH WARREN, Massachusetts
BILL CASSIDY, M.D., Louisiana
           
                                                     

               David P. Cleary, Republican Staff Director

         Lindsey Ward Seidman, Republican Deputy Staff Director

                  Evan Schatz, Minority Staff Director

              John Righter, Minority Deputy Staff Director

 
                            C O N T E N T S

                               __________

                               STATEMENTS

                        WEDNESDAY, JUNE 15, 2016

                                                                   Page

                           Committee Members

Burr, Hon. Richard, a U.S. Senator from the State of North 
  Carolina, opening statement....................................     1
Mikulski, Hon. Barbara, a U.S. Senator from the State of 
  Maryland, opening statement....................................     2
Murray, Hon. Patty, a U.S. Senator from the State of Washington..    14
Alexander, Hon. Lamar, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................    16
Franken, Hon. Al, a U.S. Senator from the State of Minnesota.....    18
Isakson, Hon. Johnny, a U.S. Senator from the State of Georgia...    19
Casey, Hon. Robert P., Jr., a U.S. Senator from the State of 
  Pennsylvania...................................................    20
Scott, Hon. Tim, a U.S. Senator from the State of South Carolina.    22
Warren, Hon. Elizabeth, a U.S. Senator from the State of 
  Massachusetts..................................................    46

                            Witness-Panel I

Smith, Linda K., Deputy Assistant Secretary for Early Childhood 
  Development, U.S. Department of Health and Human Services, 
  Washington, DC.................................................     4
    Prepared statement...........................................     6

                           Witnesses-Panel II

Hoyle, Sheila, Executive Director, Southwestern Child Development 
  Commission, Webster, NC........................................    25
    Prepared statement...........................................    26
Westbrook, Le'Vaughn Johnson, Parent, Falls Church, VA...........    31
    Prepared statement...........................................    33
Williams, Margaret, Executive Director, Maryland Family Network, 
  Baltimore, MD..................................................    34
    Prepared statement...........................................    36
Jones-Taylor, Myra Ph.D., Commissioner, Connecticut Office of 
  Early Childhood, Hartford, CT..................................    37
    Prepared statement...........................................    39

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.
    Response by Linda K. Smith to questions of:
        Senator Enzi.............................................    49
        Senator Murkowski........................................    49
        Senator Scott............................................    52
        Senator Sanders..........................................    53
        Senator Bennet...........................................    57
    Response to questions of Senator Sanders by:
        Sheila Hoyle.............................................    60
        Le'Vaughn Johnson Westbrook..............................    63
        Margaret Williams........................................    64
        Myra Jones-Taylor, Ph.D..................................    67

                                 (iii)

  

 
   IMPLEMENTING THE CHILD CARE DEVELOPMENT BLOCK GRANT ACT OF 2014: 
                      PERSPECTIVES OF STAKEHOLDERS

                              ----------                              


                        WEDNESDAY, June 15, 2016

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m., in room 
SD-430, Dirksen Senate Office Building, Hon. Richard Burr 
presiding.
    Present: Senators Burr, Mikulski, Alexander, Murray, 
Isakson, Scott, Casey, Franken, Bennet, and Warren.

                   Opening Statement of Senator Burr

    Senator Burr. The Committee on Health, Education, Labor, 
and Pensions will come to order. I'd like to thank today's 
witnesses for making themselves available for this hearing, and 
I'd like to thank Chairman Alexander and Ranking Member Murray 
for letting us borrow their committee for the day and the 
opportunity to discuss child care.
    The Chairman. Let me just say while Senator Mikulski is 
still here that we didn't let you borrow the committee. The two 
Senators who have done the most work on this issue for several 
years have been Senator Burr and Senator Mikulski. The Child 
Care Development Block Grant is one of the real success stories 
for our government. It's a model for how the Federal Government 
can work with States and help Americans who deserve and need 
the help, give them choices, allow States to have a say, the 
major say, in how this is done.
    I want to thank Richard Burr and Barbara Mikulski for 
effective work on behalf of millions of American families.
    Senator Burr. Thank you for that, Mr. Chairman. I'd also 
like to thank today's Ranking Member, Barbara Mikulski, for 
agreeing to partner with me once again. I think 5 years ago, 
the two of us got together and agreed to tackle the issue of 
child care and improving the health and safety of millions of 
children and their families that use Federal child care funding 
across the Nation.
    After years of collaborating and working with early 
learning communities across the country, in 2014, we passed a 
landmark piece of legislation, the Child Care and Development 
Block Grant Act of 2014, which has ushered in a new era in 
safe, quality child care for low-income families and their 
children, allowing moms and dads to further their careers with 
the peace of mind of knowing that their loved ones are safe.
    Today's hearing is an opportunity to review how that law is 
unfolding across the Nation. If this hearing can accomplish 
only one thing, I hope it's that all levels of the 
administration, the States, child care providers, and parents 
are well aware that Congress was serious when they said 
children will be in safe settings when Federal child care 
dollars are being used.
    Child care, especially for low-income working mothers who 
need these Federal subsidies, shouldn't be about cramming as 
many children as possible into substandard care. Not one 
Senator in this body would send their child to a facility where 
convicted felons cared for their child and where basic health 
and safety measures weren't followed. It was an outrage that 
Federal dollars were going to this, and it's my strong desire 
that the implementation of this law ensures it never happens 
again.
    I'd also like to note, because this was a major concern 
voiced when we debated the law, that Congress has put its money 
where its mouth is as it relates to child care. Senator 
Mikulski has secured--by my staff's calculations, Barbara--one 
of the largest year-over-year increases in the CCDF 
discretionary account, with a $300 million increase over the 
past year for this program. I applaud Senator Mikulski for her 
work on the Appropriations Committee to make this happen.
    I'm also highly encouraged by the early work by HHS and 
look forward to hearing from Deputy Assistant Secretary Smith 
and her thoughts. For years, in her various posts, both in 
government and out, Linda has been a leader in creating safe 
environments in child care, first on military bases as well as 
in civilian care. She was an invaluable contributor to Senator 
Mikulski's and my work on CCDBG.
    I look forward, Linda, to hearing from you and your 
thoughts today.
    I also look forward to hearing from Sheila Hoyle, a fellow 
North Carolinian. She's on the front lines working with these 
families seeking quality child care. She was a contributor to 
this law and I welcome her, as I do all our witnesses today.
    I'll now turn to my partner in crime, Senator Mikulski.

                 Opening Statement of Senator Mikulski

    Senator Mikulski. Thank you very much, Senator Burr. I join 
with you in your enthusiasm to welcome our wonderful witnesses 
today, certainly Ms. Smith, who has served the Nation in terms 
of her expertise and knowledge in providing child care, both 
running a major nonprofit on information and referral and 
quality and also being one of the lead people at the Department 
of Defense in providing child care where child care is needed 
often 24/7, with all of the challenges. Some of the best 
daycare centers in the country are on military bases.
    You helped set the standard for not only what quality 
daycare should be, but also you set the standard for what a 
public official should be in terms of fulfilling a mission. We 
thank you for that.
    I know shortly we'll be hearing from our panel of other 
witnesses, and I want to give a shout-out for Margaret 
Williams, the Director of the Maryland Family Network, which is 
a nonprofit nationally known for ensuring young children and 
their families, and I'll talk more about her.
    But today is an oversight hearing on the Child Care 
Development Block Grant that Senator Burr and I led in terms of 
the reauthorization, with the help then of--very much the help 
of Senators Lamar Alexander and Patty Murray. We govern best 
when we can function bipartisanly. The first bill was under the 
presidency of George Herbert Walker Bush in 1990, and because 
of that, we laid the predicate for Federal investment, but not 
Federal micromanagement of daycare. Since then, we did this 
excellent reauthorization which was the first time it had been 
done since 1990.
    Today, Senator Burr and I are absolutely committed, with 
the concurrence of our committee on both sides of the aisle, to 
quality initiatives, that daycare be accessible, that it be 
affordable, that it be safe, and that it also help children 
learn so that they can even be more learning ready when they go 
to school.
    But quality demands continuous monitoring. When you read 
the gurus on quality, they say you have to continuously 
monitor, and this is where we are. This is not one of those 
hearings where it's a spring hazing of people who run the 
programs, but really to hear what's working and what might be 
readjusted or tweaked in a way--because at the end of the day, 
our client and our constituent is a child--working with the 
most important child care providers, parents, and then with 
those agencies.
    Child care is one of the most important decisions a parent 
will make when it comes to raising their children. But we live 
in the age of scrimp and save, where times are tough and 
budgets are tight. Day in and day out, parents across America 
struggle to not only pay their bills, but as they participate 
either in job training or the marketplace, affordable and safe 
and reliable child care is often out of their reach. In 
Maryland alone, the average cost of child care is more than 
$20,000, equaling about $400 per week. Child care is not a 
luxury. It is a necessity and should not be beyond the bounds 
of a family budget.
    But today, what we want to talk about is to see what is 
working. It's not simply enough to ensure that kids have a 
place to go. We must ensure that it's a place that nurtures 
their development, challenges their mind, and prepares them for 
school, and at the same time, that that environment is a safe 
and secure one.
    Simply put, when we looked at the CDBG of yesteryear, it 
didn't focus on certain things, particularly infants and 
toddlers, the changing nature of women in the workplace, and 
even those with irregular hours. That's why Senator Burr and I 
got together 4 years ago, holding a significant number of 
hearings, and working on the issues, emphasizing quality.
    What did we do? We required States to prioritize quality, 
required child care providers to meet health and safety 
requirements, required mandatory background checks, and we gave 
families in CCDBG more say and more reliability and 
predictability. We think we made a good start, but we don't 
want to be self-congratulatory. We want to hear from you what 
this is.
    I look forward to hearing from you and the other witnesses, 
though I must excuse myself temporarily to go to the floor to 
start the debate on the Commerce, Justice, Science, and Related 
Agencies bill.
    Senator Burr, I just want to say this. It's great working 
with you. The phrase, compassionate conservative, I think 
reflects your work here. Yes, you are conservative, and that 
means you keep an eye on the money, but you also keep an eye on 
tradition and on family and on responsibility, and you really 
were one of the spearheads in terms of background checks.
    I was happy to support you as a child welfare social 
worker, as a child abuse social worker. No child should ever be 
abused in their home or in a daycare home. It's just great 
working with you, and let's move forward to see how we can even 
do better.
    I'll be back, and I ask unanimous consent that my full 
statement go in the record.
    Senator Burr. So ordered.

    [The prepared statement of Senator Mikulski was not 
available at time of print.]

    Senator Burr. I thank you, Senator Mikulski, for your kind 
comments, but, more importantly, for your passion on this 
issue. Now you can go be the Ranking Member of Appropriations 
for a few minutes. Just remember how kind I am come the 
appropriations time, will you?
    [Laughter.]
    Senator Mikulski. Right.
    Senator Burr. Our first panel has one witness today. Linda 
Smith is Deputy Assistant Secretary for Early Childhood 
Development at HHS. Linda has responsibility for policy 
coordination, for early learning programs at HHS, including the 
Child Care and Development Block Grant. She previously served 
as the executive director for what is now called Child Care 
Aware, where she represented over 650 local agencies that 
assist parents in finding affordable quality child care.
    Prior to that, she was director of the Office of Family 
Policy for the Secretary of Defense and is widely credited with 
raising the quality and safety of military child care programs. 
She is a graduate of the University of Montana.
    Linda, we're delighted to have you today. We're delighted 
to have you at HHS, and we're clearly benefited with your 
expertise and your passion for this issue. The floor is yours.

  STATEMENT OF LINDA K. SMITH, DEPUTY ASSISTANT SECRETARY FOR 
  EARLY CHILDHOOD DEVELOPMENT, U.S. DEPARTMENT OF HEALTH AND 
                 HUMAN SERVICES, WASHINGTON, DC

    Ms. Smith. I want to thank the committee for having me 
back. Chairman Alexander, Ranking Member Murray, and the 
members of the committee, I'm pleased to be here today to 
discuss the implementation of the Child Care and Development 
Block Grant Act. I want to thank the committee, especially 
Senators Mikulski and Burr for their leadership in this 
reauthorization. As was said earlier, it marked a historical 
re-envisioning of child care in this country. We are fully 
committed to implementing the provisions of the law and look 
forward to our continued collaboration with the committee on 
this issue.
    The Child Care and Development Fund, or CCDF, is made up of 
both discretionary funds and funds provided under the Social 
Security Act. It provides subsidies to low-income families as 
well as resources to raise the quality of care for all 
children. In 2014, CCDF provided assistance to over 1.4 million 
children from 850,000 families. Over half of all children 
served are living at or below poverty.
    We have taken many steps to support States, territories, 
and tribes as they implement the new CCDBG requirements. We 
held numerous meetings with State and tribal leaders and more 
than 20 listening sessions with stakeholders. We published a 
Notice of Proposed Rulemaking in December 2015 and received 
approximately 150 public comments. We are carefully considering 
all comments as we prepare the final rule, and we expect to 
publish it this fall.
    The State CCDF plans are their application for Federal 
funding. They were submitted to us in March of this year along 
with implementation plans for how the States will meet the new 
requirements established in the law. Overall, the plans show 
that the States are making great progress in implementing the 
provisions.
    The State gave the Secretary the authority to waive 
requirements for specified reasons. States submitted their 
waiver requests to us along with their plans in March. Twenty-
four States asked for a waiver for at least one provision. The 
most common requests were for the 12-month eligibility 
requirement, graduated phase-out, health and safety training, 
and inspection requirements.
    You asked me to talk about the issues and challenges that 
States face in implementing the new law. There are four key 
areas that I want to highlight today.
    First, health and safety. Of the 24 States requesting a 
waiver, half included at least one request for an extension on 
health and safety training. In the past, health and safety 
requirements have varied greatly by State and have left 
critical gaps in care. The HHS Inspector General found that 69 
percent of child care providers in nine States had numerous 
potentially hazardous conditions that failed to meet health and 
safety requirements.
    We consider health and safety to be critical to reducing 
the risk of death or injury to a child. In addition, we know 
that free or low-cost training is available and online. Based 
on these factors, we did not approve waiver requests for health 
and safety trainings, but did approve all other requests.
    Second, background checks. States are concerned about two 
things: the National Crime Information Center check, NCIC, and 
the cross-state background checks. We are actively working with 
the Federal Bureau of Investigation on the NCIC check and are 
considering strategies that we can use to assist with the 
interstate checks that are required, especially the child abuse 
registry checks.
    Third, monitoring. Thirty-nine States are already in 
compliance with the pre-licensing and annual unannounced 
inspection requirements required for licensed CCDF providers. 
However, States that currently have many license-exempt 
providers who have not been subject to monitoring will likely 
face challenges. It should be noted that some of these include 
some of our largest States.
    Fourth, continuity of care and equal access. To achieve the 
12-month eligibility requirement without additional resources, 
some States report that they will need to reduce the number of 
children served, lower eligibility rates, or create waiting 
lists. In the past, many States have relied on the fact that 
children are churning on and off the program, and the average 
stay on subsidy was 6 months. This kept waiting lists down.
    As a result of the new requirement, the cumulative number 
of children served may go down slightly. But the point in time 
number of children should remain close to the current levels.
    Over the years, the value of the subsidy has fallen below 
what private pay parents are paying, which makes it hard for 
parents to access quality child care with their subsidies. 
Currently, nine States have reimbursement rates that fall below 
the 25th percentile of the market, and five States have not 
raised their rates in over 5 years.
    In 2014, the average subsidy paid nationally was $4,800--
and we heard earlier about the cost here in Maryland--far below 
the actual cost in most States. This means that parents may not 
really have a choice, because the value of their voucher may be 
so low that higher programs may not accept them.
    In summary, CCDF only serves 15 percent of children who are 
eligible under Federal rules. The caseload fell to its lowest 
level ever in 2014 prior to the reauthorization of CCDBG. Now, 
States are concerned that the new requirements may strain an 
already underfunded system and lead to greater caseload decline 
in the absence of increased funding.
    We have tried to address this in our budget request, and we 
greatly appreciate the $326 million included in the 2016 budget 
or appropriation. In addition, in this year's president's 
budget request, we are seeking $200 million more in 
discretionary funding and $82 billion over 10 years in 
mandatory funding to provide high-quality child care for all 
low-income children.
    We look forward to working with you to continue to 
implement the changes in the CCDBG Act and improve the child 
care programs to better meet the needs of our families. Again, 
we want to thank you for your leadership on this critical 
issue, and I would be happy to answer questions that you may 
have.
    [The prepared statement of Ms. Smith follows:]

                  Prepared Statement of Linda K. Smith

    Chairman Alexander, Ranking Member Murray, and members of the 
committee, I am pleased to discuss with you today implementation of the 
2014 reauthorization of the Child Care and Development Block (CCDBG) 
Act. It is my honor to serve as the Deputy Assistant Secretary for 
Early Childhood Development at the Administration for Children and 
Families (ACF) within the U.S. Department of Health and Human Services 
(HHS), which administers the CCDBG. Prior to joining ACF in 2011, I 
worked for nearly 10 years as the Executive Director of the National 
Association of Child Care Resource and Referral Agencies, now called 
Child Care Aware of America. I also spent a significant portion of my 
career at the U.S. Department of Defense helping to develop the 
military child care system.
    I want to thank the members of the committee, especially Senators 
Mikulski and Burr, for your leadership in reauthorizing the CCDBG Act 
in 2014. The reauthorization marked a historical re-envisioning of 
child care in this country. The Administration is grateful for your 
work to ensure that children across the country are cared for in safe 
and enriching environments. We are fully committed to implementing the 
provisions of the law, and look forward to our continued collaboration 
with the members of the committee.
    The reauthorization of the CCDBG Act in 2014 was a major step 
forward in improving the lives of children and families across the 
country. The Child Care and Development Fund (CCDF), which is comprised 
of Federal funding for child care under the CCDBG Act and the Social 
Security Act, provides both subsidies to families with low-incomes as 
well as resources to raise the quality of care for all children. In 
2014, CCDF provided child care assistance to over 1.4 million children 
from 850,000 working families and families attending school or job 
training in an average month. All of the children who receive subsidies 
are low-income, and half are living at or below poverty level. These 
children are all at risk of falling behind in school.\1\ In addition to 
funding child care subsidies, States spend almost $1 billion of CCDF 
each year in quality improvement efforts, exceeding the amount 
previously required by law.
---------------------------------------------------------------------------
    \1\ U.S. Department of Health and Human Services, The Early 
Achievement and Development Gap, Assistant Secretary for Planning and 
Evaluation Research Brief, 2014.
---------------------------------------------------------------------------
    In my testimony today, I will first provide a general overview of 
ACF's efforts to implement CCDBG reauthorization before turning to 
discuss four key areas that we will focus on to ensure States, 
territories, and tribes are successful in making lasting change for the 
better for child care in this country.
    Since the enactment of CCDBG reauthorization, we have taken several 
steps to support States, territories, and tribes as they implement the 
new requirements included in the law. Immediately after enactment, we 
launched a reauthorization web page to provide information about the 
law, including fact sheets and responses to frequently asked questions. 
This also included a dedicated email address for interested parties to 
submit questions. We held five meetings with State and territory CCDF 
administrators and a series of consultations with tribal leaders. In 
addition, ACF leadership and staff participated in more than 20 
listening sessions with approximately 675 people. We received 
approximately 650 questions and comments through the dedicated email 
address, as well as through webinars, meetings, and other listening 
sessions.
    We published a Notice of Proposed Rulemaking (NPRM) in December 
2015 that would incorporate the new statutory requirements into the 
CCDF regulations. The NPRM also responded to requests for clarification 
on statutory provisions that ACF had received in the preceding months. 
Approximately 150 public comments on the NPRM were received, including 
from Chairman Alexander, and we are carefully considering these 
comments as we prepare the final rule. We expect to publish the final 
rule by fall of this year, and provide training and technical 
assistance to States, territories, and tribes. We also plan to continue 
our ongoing communication with congressional members and staff by 
providing a briefing at the time of publication.
    Following the enactment of the law, the Office of Child Care (OCC) 
completely revised the now triennial CCDF State and Territory Plan, 
which States and territories use to apply for their CCDF funding. 
Originally, the CCDF plans were to be submitted in July 2015. However, 
in response to concerns from States and territories, OCC extended the 
deadline for the plans, which States and territories submitted in March 
2016. The plans were effective this month, and cover fiscal years 2016 
through 2018. In recognition of phased in deadlines for new 
requirements contained in the law, and the unique challenges some 
States may face during implementation, States had the opportunity to 
submit implementation plans laying out the steps they planned to take 
to meet requirements by established deadlines. Overall, the recently 
submitted Plans show that States are making great progress in 
implementing provisions of the reauthorized CCDG Act. For example, in 
2015, Washington State passed comprehensive legislation establishing 
12-month eligibility along with a new framework for improving quality.
    The CCDBG Act reauthorization gave the Secretary the option to 
exercise waiver authority to allow extensions for up to 3 years for 
specified reasons identified in the CCDBG Act. States and territories 
unable to meet the effective date of a provision needed to submit a 
waiver request with their plans in March 2016, along with an 
implementation plan outlining proposed steps they will take to meet the 
full requirements of the provision. Initial waiver requests only cover 
provisions required in calendar year 2016. For requirements with an 
effective date after 2016, such as comprehensive background checks, 
waiver requests may be submitted no later than 90 days prior to the 
effective date. Twenty-four States and territories submitted a waiver 
request for a temporary extension of at least one provision. The most 
common waiver requests were for 12-month eligibility, graduated phase-
out, health and safety topics and training, and inspection 
requirements. Of the 24 States and territories submitting waiver 
requests, half included at least one request for extension of health 
and safety training provisions.
    As I will discuss in more detail later, waiver requests for health 
and safety training were not approved as we consider health and safety 
training critical to reducing risk of injury and death of children, and 
free or low cost training, including online training, is available. All 
other temporary waiver applications were approved. However, multi-year 
requests were only approved for 1 year with an option to renew for an 
additional year. Prior to moving forward with these actions, we 
provided an advanced briefing to congressional staff. Soon we will be 
providing formal notice to members of this committee and the House 
Committee on Education and the Workforce as required by the CCDBG Act.
    The CCDBG Act provides opportunities to offer flexibility to tribes 
in certain areas where there are unique needs. The final rule will 
provide guidance to tribes on how the rule applies to them. Before 
drafting the proposed regulation, we conducted a series of tribal 
consultations to solicit tribal input. As a result, the NPRM's 
proposals were intended to increase tribal flexibility, while balancing 
the CCDF dual goals of promoting families' financial stability and 
fostering healthy child development. The final rule will address the 
extent to which the CCDBG Act will apply to tribal CCDF grantees in 
light of comments on the proposals received from tribes and tribal 
organizations. In the meantime, we are preparing tribal grantees for 
the coming changes. The CCDF Tribal Plan, which tribal grantees will 
submit this summer, includes optional questions related to 
reauthorization. While tribal grantees are not required to comply with 
many of the new provisions of the CCDBG Act pending issuance of 
regulations, a series of trainings held this spring addressed 
reauthorization and how tribal programs can start preparing for 
implementation of the upcoming final rule.
    We have heard from States, territories, tribes, and other 
stakeholders that implementing the provisions of the CCDBG Act will 
require additional financial resources. Over time, States have 
struggled and been unable to maintain the number of children and 
families served with child care subsidies, and the CCDF caseload fell 
to its lowest level ever in fiscal year 2014 prior to enactment of the 
reauthorized Act. The program only serves 15 percent of children who 
are eligible under Federal rules. States are concerned that 
implementation of some of the new requirements may strain an already 
under-funded system and lead to greater caseload decline in the absence 
of increased funding. We greatly appreciate the additional $326 million 
for CCDBG that Congress included in the fiscal year 2016 
appropriations. The President's fiscal year 2017 budget request seeks 
an additional $200 million in discretionary funds to further help 
States implement these important reforms.
    In addition, the President's request includes $82 billion in 
additional mandatory funding over 10 years to guarantee high-quality 
child care for low- and moderate-income families with children under 
the age of 4. The President's proposal includes funding to maintain 
access to children who are currently served, expand coverage to all 
low- and moderate-income working families with young children, and 
raise the quality of care for young children by closing the gap between 
the low subsidy provided in many child care programs today and the high 
cost of infant and toddler care. This proposal aligns with the newly 
added purpose of the CCDBG Act to increase the number of low-income 
children in high-quality child care settings and would help States meet 
the requirements of reauthorization while increasing the number of 
children served. Although many States have recently increased 
investments in early education, particularly by expanding State-funded 
preschool programs for 4 year-olds, there is a critical gap in access 
to high-quality early learning opportunities for infants, toddlers, and 
3-year-olds. We need to focus Federal investments on a child's most 
critical years--beginning at birth and continuing to age 5. We 
anticipate this will be helped by the new requirement for States to use 
3 percent of funds to improve care for infants and toddlers, but we 
also need to focus additional Federal efforts on the critical years 
from birth up to age 4. I would like to thank Senator Casey for his 
leadership on introducing legislation that mirrors the spirit of the 
President's proposal to expand high-quality care to all infants and 
toddlers from low-and moderate-income families.
    While the changes included in reauthorization were comprehensive, 
there are four areas in particular of the CCDBG Act where we will focus 
on moving forward with implementation of the law. These include: 
protecting the health and safety of children in child care; ensuring 
equal access to stable, high-quality child care for low-income 
children; helping parents make informed decisions; and, enhancing the 
quality of child care. In each of these areas, I will discuss 
implementation challenges based on waiver requests from States, 
comments on our proposed rule, and feedback from a range of 
stakeholders.
       protecting the health and safety of children in child care
    The law established many new requirements that will help ensure 
children are adequately protected in child care settings. These include 
health and safety requirements, training in 10 areas, a pre-licensing 
visit for child care providers seeking licensing, annual monitoring and 
inspection visits for all CCDF providers, and new background check 
requirements for all child care staff members.
    Prior to reauthorization, health and safety standards varied widely 
and left critical gaps. During reviews conducted between 2013 and 2016, 
the HHS Office of Inspector General (OIG) found that 96 percent of 
child care providers in nine States and territories had numerous 
potentially hazardous conditions that failed to meet health and safety 
requirements. These findings included fire code violations, unsanitary 
conditions, toxic chemicals accessible to children, and lack of 
supervision of children.
    For States that did not already meet the health and safety 
requirements required by the new law, most are now moving quickly to 
get these requirements in place to ensure a baseline of health and 
safety. For example, according to the recently submitted CCDF State and 
territory plans, 36 States and territories already have standards that 
address ratios and group size and 52 are in compliance with child abuse 
reporting requirements.
    ACF did not approve any waivers related to health and safety 
training because of the critical role it plays in reducing the risk of 
serious injury and death in child care settings. The law requires 
adequate training in such topics as CPR/First Aid, SIDS prevention, and 
administration of medication that are essential to ensuring that the 
child care workforce is properly prepared to care for children. In 
order to meet these important requirements, we are providing support to 
States and territories through our national technical assistance 
centers and other Federal resources.
    In addition to health and safety training, the CCDBG Act 
significantly strengthens protections for children by requiring 
monitoring of CCDF child care providers, including annual inspections. 
Research shows that unannounced visits are effective in promoting 
compliance with health and safety requirements among providers who have 
a history of low compliance with State child care regulations.\2\ 
Thirty-nine States and territories indicate that they are already in 
compliance with pre-licensing and annual unannounced inspection 
requirements for licensed CCDF providers. States that currently have 
large numbers of license-exempt child care providers, which previously 
have not been subject to monitoring, will likely face implementation 
challenges. ACF is prepared to provide technical assistance and support 
on best practices for monitoring in a cost-efficient, effective manner 
that leverages resources from partners, including State licensing and 
quality rating and improvement systems. As we anticipated, 37 States 
and territories indicate that they do not yet comply with new 
inspection requirements for license-exempt providers and have submitted 
implementation plans outlining their path to compliance.
---------------------------------------------------------------------------
    \2\ R. Fiene, Unannounced vs. announced licensing inspections in 
monitoring child care programs, Pennsylvania Office of Children, Youth 
and Families, 1996; Caring for Our Children: National health and safety 
performance standards; Guidelines for early care and education 
programs. 3d edition.
---------------------------------------------------------------------------
    States have expressed significant concerns about implementing the 
five required background check components and have indicated that they 
will not be able to meet the statutory requirements without more 
Federal direction and leadership. One particular area of concern is 
conducting a check of the National Crime Information Center (NCIC), 
which at this time is only accessible by law enforcement. We are 
working closely with the Federal Bureau of Investigation (FBI) on how 
States may use this system and meet the requirements of the law. States 
are also concerned about cross-State background checks covering a 5-
year period, with States indicating that no process currently exists 
for such cross-State checks, and asking how they should handle 
situations where another State does not respond to a request. We are 
working to address this concern by requiring States and territories to 
report to ACF the names and contact information for the offices 
handling these requests. We plan to disseminate the contact 
information. This will give us the ability to provide States with 
information to better facilitate accessing cross-State information. 
States are also concerned about interpreting results from child abuse 
and neglect registries, particularly given State variation in registry 
contents and the need for State processes for ensuring that information 
is accurate. We are working with the States and territories to ensure 
that the background check requirements of the law can be implemented by 
the statutory deadline of September 30, 2017, or a year later for 
States receiving an extension by demonstrating a good faith effort.
   providing equal access to stable, high-quality child care for low-
                            income children
    We greatly appreciate the law's focus on continuity of care for 
children receiving subsidies, and the clear requirement that eligible 
families be provided with a minimum 12 months of assistance. We know 
that stable child care environments play an important role in a child's 
development,\3\ and providing a minimum of 12 months of eligibility, a 
period of job search, and a graduated phase-out of assistance help to 
ensure that a child may continue to be served by their child care 
provider of choice without interruption. These policies also help 
parents by minimizing the amount of time they must spend complying with 
eligibility redetermination requirements or responding to requests for 
documentation to continue their assistance.
---------------------------------------------------------------------------
    \3\ Zaslow, M. et al., Quality Dosage, Features, Thresholds, and 
Features in Early Childhood Settings: A Review of the Literature, OPRE 
2011-5, 2010.
---------------------------------------------------------------------------
    To avoid disrupting work, States such as Maryland and North 
Carolina have established policies allowing families to complete 
redetermination by mail or other means. Policies such as the graduated 
phase-out also protect parents from losing assistance after receiving 
only a small raise in wages, or placing parents in the position of 
choosing not to take a raise because it would cause them to lose their 
child care subsidy. Twenty-eight States and territories have already 
implemented the graduated phase-out requirement. Some States are 
already developing two-tiered eligibility with second tiers established 
at a level high enough for families to accept significant income growth 
without having that progress undermined by losing their care.
    States have expressed concerns about the impact that 12-month 
eligibility, job search, and graduated phase-out might have on their 
caseloads. Some States have said they will likely need to reduce the 
number of children they serve, lower eligibility levels, and create or 
expand waiting lists without additional resources. Some of them 
previously had shorter eligibility periods which had the effect of 
churning families off the program, resulting in them serving more 
children for shorter periods. However, this churning often means that 
families are losing the child care subsidy they need to work, as well 
as forcing children to go in and out of care, disrupting relationships 
with caregivers and interrupting learning.
    The CCDBG Act's focus on increasing the supply of high-quality 
child care is also critical as current child care options for many low-
income families are of low quality. Over the years, the value of the 
subsidy has fallen behind what private-pay parents are paying for child 
care, which makes it hard for parents to access high-quality child care 
with their subsidies. Currently, nine States include rates that are set 
below the 25th percentile and five States have not adjusted their rates 
in over 5 years. The CCDBG Act's new requirement for States to take the 
cost of quality into account when setting payment rates is necessary to 
ensure that more low-income children are cared for in high-quality 
child care settings. The law also includes provisions about building 
supply of high-quality care for other populations. However, creating a 
high-quality child care program requires sustained investments, which 
is hard to do with a low subsidy payment that may end without much 
notice because a parent switches providers or loses their subsidy. 
Caring for certain children, such as infants and toddlers, is generally 
more expensive to provide, especially when it is higher quality. These 
limited options restrict a parent's ability to choose higher quality 
child care providers if these providers are not willing to accept the 
child care subsidy. We continue to talk with States and communities 
about how grants and contracts can be used--as one tool in a child care 
program--to help build supply of care because they provide a consistent 
payment for providers, allowing them to make longer-term investments. 
Grants or contracts may be particularly useful in underserved areas, 
such as rural communities, where relying solely on vouchers would not 
be feasible for a child care provider. While State child care programs 
will continue to offer vouchers to families to purchase care from 
willing providers, grants and contracts are an important tool for 
addressing shortages of high quality care available to low-income 
families.
    In their recent CCDF Plans, 31 States and territories indicated 
that they only use vouchers to provide child care assistance to 
families. Twenty-five States and territories reported using grants and 
contracts to increase the supply of child care, such as using contracts 
to fund programs to serve children with disabilities or other unique 
needs, targeted geographic areas, infants and toddlers, and school-age 
children. Grants and contracts also are used to provide wrap-around 
services to children enrolled in Head Start and pre-kindergarten to 
provide full-day, full-year care and to fund programs that provide 
comprehensive services. Additionally, Lead Agencies report using grants 
and contracts to fund child care programs that provide high-quality 
child care services.
    While I know this has raised concerns for some, the NPRM proposed 
to require States to use some grants or contracts, in addition to 
vouchers, to provide direct services to children. This proposal was 
meant to complement the already robust voucher system, not to displace 
it. Under the NPRM proposal, every family receiving a CCDF subsidy must 
still be offered the option of receiving a voucher, even if they have 
entered the system through a provider with a grant or contracted slot. 
We received a strong public response to this proposal, including from 
Chairman Alexander and Chairman Kline. We are carefully considering 
these comments as we draft the final rule, and assure this committee 
and the public that we are fully committed to supporting parental 
choice and ensuring that all families have access to high-quality child 
care options in their community.
                helping parents make informed decisions
    We strongly agree with Congress that, in order for the parental 
choice provisions of the law to be meaningful, parents need to have 
access to a provider's health and safety record, as well as information 
about the State's policies and procedures related to licensing, 
monitoring, and background checks. In addition, we have noted Congress 
revised the purposes of CCDBG to include ``promoting the involvement by 
parents and family members in the development of their children in 
child care settings.'' The new statutory requirements that eligible 
parents, the general public, and providers receive information about 
developmental screenings, social-emotional development, and research 
and best practices about child development help to move consumer 
education beyond just monitoring reports and into a more holistic realm 
that can help support parenting and a more enriching child care 
environment. It also recognizes that often child care providers are a 
parent's best source of information. This new approach means States are 
looking at family engagement from a variety of angles. For example, 
Tennessee is training its child care licensing staff to work with child 
care providers to help them identify and serve families experiencing 
homelessness, as well as training child care certificate staff to 
outreach to community based programs, such as family shelters, 
transitional programs, and financial assistance programs.
    HHS, in collaboration with the U.S. Department of Education, 
recently published policy statements on supporting dual language 
learners in early childhood settings, promoting family engagement, 
including children with disabilities in early childhood programs, and 
addressing suspension and expulsion in preschools. States and 
communities across the country have demonstrated leadership in 
significantly reducing, or eliminating altogether, the use of 
suspensions and expulsions in early childhood settings, which is 
consistent with our policy statement and the longstanding practice in 
Head Start settings. We also continue our work on developmental 
screenings through Birth to 5: Watch Me Thrive!. We are creating 
trainings and technical assistance to help States develop a website 
that is truly consumer-friendly. Providing parents with consumer 
education and engagement is a long-standing requirement of CCDF, so 
States and territories already had a foundation for providing this 
information, but they are still working on fully implementing the 
requirements included in the statute. According to recent CCDF plans, 
33 States and territories indicate that they already meet the 
requirement to disseminate information to parents, providers, and the 
general public.
    Some States have expressed concerns about the amount of time it can 
take to access funding for and to build new information technology 
systems in their States. In response to these concerns, the website is 
one area in which States and territories could submit implementation 
plans if they were not able to meet all the requirements by the time 
they submitted their plans. Forty-nine States and territories have 
submitted implementation plans for meeting new website requirements. We 
have also heard concerns about including license-exempt family child 
care homes on the State websites. These concerns centered on the fact 
that license-exempt, home-based providers frequently care for children 
of neighbors or friends, and may not be available to care for children 
they do not know. This is an area we addressed in the NPRM, and we are 
continuing to discuss it as we prepare the final rule.
    We are in the process of developing the national website and 
hotline required by the law. Since the law's enactment, we have been 
working with experts and stakeholders to design a national website that 
gives parents the information they need and builds on State efforts. We 
recognize the diversity of existing systems and processes, information 
technology systems' capacity, investments, and limited resources 
available to Lead Agencies and their partners. Therefore, we have held 
several listening sessions and planning meetings, and in March 2016 we 
published a request for comment in the Federal Register. We 
specifically requested comments on effective design features and easy-
to-use functions for a national website that will link to new and 
existing State and local websites. We will begin rolling out resources 
this summer, and will continue to update the committee as we move 
forward.

                  Enhancing the Quality of Child Care

    The statute's increased focus on improving the quality of child 
care and the early childhood workforce is a big step toward providing 
more low-income children with access to high-quality child care 
settings. The new law raised the minimum quality set-aside from 4 
percent to 9 percent, and added a new 3 percent quality set-aside for 
infants and toddler care. Many States were already spending more than 
the previously required 4 percent minimum on quality activities, but 
children in States less likely to invest additional funds were missing 
out on many of the innovations that could lead to better quality care. 
The newly increased set-asides--phased in over a period of 5 years--
will ensure that children across the country will benefit from these 
investments and have access to higher-quality child care options. The 
new requirements to invest in at least one of the ten quality 
activities included in the CCDBG Act, to report on what those 
activities are, and to provide measurement about the effectiveness of 
those activities are leading States and territories to examine their 
current quality frameworks. We continue to offer technical assistance 
to States, specifically to help them think about appropriate ways to 
measure their quality investments. The creation of a permanent set-
aside to increase the quality of infant and toddler care is 
particularly critical as we continue to learn more about brain 
development and the fact that earlier investments may have more 
significant impacts.\4\ Our infant and toddler child care workforce is 
less likely than our preschool and K-12 instructional staff to be well-
educated, and they are on average paid significantly less than those 
who work with preschool age children.\5\ Yesterday, as part of the 
Summit on the United State of Women, we released a report on the state 
of compensation of the early childhood workforce. The report--High-
Quality Early Learning Settings Depend on a High-Quality Workforce: Low 
Compensation Undermines Quality, and the accompanying state-by-state 
profiles, show that there is a considerable mismatch between the 
importance and complexity of teaching young children during the brain's 
most formative period and the very low wages of early childhood 
professionals, especially those working in child care. In fact, the 
median average wage for someone working in child care is below the 
cutoff of eligibility for SNAP. This is completely at-odds with what we 
know about the importance of the first few years in a child's life, 
where the quality of care provided to young children is critical in 
setting them on a path to lifetime success. Indeed, brain development 
happens most rapidly during the infant and toddler years, making it one 
of the most formative periods of development in the life course.
---------------------------------------------------------------------------
    \4\ The President's Council of Economic Advisors, The Economics of 
Early Childhood Investments, 2014.
    \5\ Number and Characteristics of Early Care and Education Teachers 
and Caregivers: Initial Findings from the National Survey of Early Care 
and Education, 2013.
---------------------------------------------------------------------------
    We have focused on improving the quality of care available to the 
youngest children, most notably through the Early Head Start-Child Care 
Partnerships (EHS-CCP). These partnerships were created to increase the 
supply of high-quality early learning opportunities and better align 
the continuum of care and development leading to preschool for infants 
and toddlers living in low-income families. These investments are now 
supporting 275 new EHS-CCP and Early Head Start expansion grantees. 
Grantees partner with more than 1,300 local child care centers and 800 
family child care programs, with additional partners coming on board 
each month. Through the partnerships, 32,000 infants and toddlers will 
receive comprehensive services, health and developmental screenings, 
and the enhanced curriculum offered through Early Head Start.
    Additionally, there are more than 5,500 children enrolled in these 
same classrooms with EHS-CCP children who are benefiting from smaller 
class sizes, specialized curriculum, and better educated and trained 
teachers. These children, though not in EHS-CCP slots, are benefiting 
from our investment in the EHS-CCP model. This dual benefit--to both 
children who are in EHS-CCP slots and their classmates who are not--
illustrates how the EHS-CCP model helps our investments go further and 
reach more children. Further, the EHS-CCP has made systemic change in 
the child care system, such that the 1,800 family and center-based 
child care partners participating in this grant program, many of whom 
were previously too poorly resourced to provide high quality care to 
the children they serve, have been able to enhance the quality of their 
services to better meet the needs of children and families in the 
community.
    We want to thank Congress for investing an additional $135 million 
in fiscal year 2016 to support additional EHS-CCP grants. We appreciate 
your strong support of these partnerships, which are serving as 
learning laboratories to leverage Federal-, State-, program-, and 
community-level change for the future of high-quality infant and 
toddler care. The first year of implementation was marked with 
tremendous growth and learning as we work toward a seamless system that 
aligns Head Start and child care.
    An important part of this alignment between Head Start and CCDF is 
the recent transformation of our training and technical assistance 
network. We have taken the technical assistance systems from Head Start 
and child care and combined them to form the Early Childhood National 
Centers for Training and Technical Assistance. This unified approach to 
technical assistance delivery brings together the knowledge and skills 
from Head Start, child care, and our health partners within HHS to 
greatly strengthen our ability to promote excellence through high-
quality, practical resources and approaches. We are working to align 
Head Start Performance Standards and CCDF rules, to the extent 
possible, as we prepare both final rules.
    Finally, we recently held the Infant Toddler Strategies Institute, 
which was a national meeting for our State and territory partners to 
focus on the early years of a child's life and how States may wish to 
invest their infant and toddler set-aside to develop innovative early 
childhood policies and systems that support families and that optimize 
infant-toddler development.
    As we continue to work with States, territories, and tribes to 
implement reauthorization, we are fully committed to providing strong 
oversight of the programs to ensure States implement the law as 
Congress intended. This oversight includes a more detailed CCDF State 
Plan, revised reporting forms, and providing targeted technical 
assistance. Additional monitoring at the Federal level, including 
onsite visits and reviews of progress, is needed to confirm that 
crucial health and safety requirements like comprehensive background 
checks and annual monitoring and inspection visits are completed.
    Thank you for your leadership on this critical issue and for 
inviting me to testify today. We look forward to continuing our work 
together as we implement the changes included in CCDBG reauthorization. 
I would be happy to answer any questions that you may have.

    Senator Burr. Thank you, Ms. Smith. We will turn to 
questions at this time.
    Ms. Smith, over the past few years, HHS's Office of the 
Inspector General released several reports that have 
highlighted lax oversight by States over their child care 
centers, leaving children exposed to dangers such as toxic 
chemicals, loose electrical wiring, open access to pools, high 
provider-to-child ratios, and many other basic requirements 
that were already set by States, but apparently weren't being 
followed by providers or being enforced by the States 
themselves.
    I also can't help but notice that some of these States are 
the same that are claiming more money is needed from the 
Federal Government to meet the 2014 Act's provisions. Because 
inattention to oversight in some States has long predated the 
changes we made on the Federal level, what do you plan to do to 
ensure that States are making sure that children are not 
exposed to these dangers and that Federal dollars aren't used 
to support hostile environments?
    Ms. Smith. I appreciate that question, and we share your 
concern on the health and safety. I think, obviously, health is 
our middle name at the Department of Health and Human Services, 
and we're very concerned about what the Inspector General's 
report showed. Those reports have been over a series of several 
decades. Actually, they started back in 1990 with the first 
report and have continued.
    We're taking this very seriously. We understand--and it was 
one of the reasons that we put our foot down with the training 
on providers. They just need to be better trained so that they 
understand some of these things, because there is that aspect 
when they're not trained and they don't understand. That's one 
of the things.
    We're very concerned about the monitoring on the States, 
and we are aggressively looking at our plan for how we're going 
to monitor States for compliance with their plans and what 
they've submitted to us as we move forward with this.
    There are a number of things that we're doing. But I can 
assure you that we take health and safety as absolutely the 
baseline of what we need to be paying attention to.
    Senator Burr. In the proposed rule that HHS released late 
last year, you explore the issue of requiring a lower co-
payment for families at no more than 7 percent of a family's 
income. I've heard from many providers in North Carolina that 
this will become untenable and potentially lead to a withdrawal 
from the subsidy market, potentially hurting the low-income 
families that, in fact, we're intending to help with this 
policy.
    Can you tell us the background of this proposal and whether 
HHS intends to provide States with more flexibility so these 
unwanted shifts actually won't happen?
    Ms. Smith. Yes. When we put that in there, our goal was to 
try and get the States to do what's right in terms of the 
reimbursement rates, because as the States continue to keep the 
reimbursement rates low and the providers need a certain amount 
of money to operate on, the gap has continued to increase. 
We've been concerned that there's a certain amount of what I 
would call allowing behavior in here of allowing the States to 
continue to keep rates low and parents make up the difference.
    We heard in the comments loud and clear from people that 
this is a major concern, and without significant increases in 
resources that the States would be in a hard position and many 
providers may not be able to continue to accept children. We 
are carefully considering what we learned from our public 
comment process, and we will make adjustments to that as we 
move forward into the final rule.
    Senator Burr. We look forward to you sharing those 
adjustments with us prior to anything official.
    With that, I'd recognize Senator Alexander.
    Senator Murray. I go by seniority, but--Senator Franken.
    Senator Franken. We can go by seniority. Would you like to 
go, Senator Murray?
    Senator Murray. If you don't mind, I'll jump in. But I 
apologize for being late. Do you mind?
    Senator Franken. I mind, but I'm saying go ahead.
    [Laughter.]
    Senator Franken. No, no.
    Senator Murray. But he's also mindful. Thank you so much.
    Senator Burr. Let me decide this. Senator Murray, go right 
ahead.
    [Laughter.]

                  Opening Statement of Senator Murray

    Senator Murray. Thank you. I just have a couple of 
questions.
    First of all, thank you so much for being here today.
    Thank you for having this hearing. I think it's really 
important.
    In my home State of Washington, we are currently facing a 
homelessness crisis, and, sadly, some of the people that are 
impacted most, of course, are children. We have over 30,000 
children under age six, or one in every 17 children are 
experiencing homelessness today.
    I'm really glad that our CDBG reauthorization bill takes 
some important steps toward promoting access to child care for 
our homeless children. I want to commend you, because under 
your leadership, HHS has really worked hard to address the 
needs of homeless children on a number of fronts.
    But I wanted to ask you, specifically, what are some of the 
unique barriers that our homeless children face when it comes 
to accessing child care?
    Ms. Smith. I think there are a couple of things that we 
know. We appreciate your interest in this issue, and we have 
taken this very seriously. We've done a number of things around 
providing resources, trying to clarify language in what we're 
trying to do, and get States flexibility to meet the needs of 
these families.
    Some of the challenges that the families face include 
things like transportation, getting to and from child care. I 
visited a child care program for homeless children here in the 
District area and saw families with very small children coming 
in from buses and public transportation--which is a very hard 
thing to do--but very committed to getting their children to 
these programs.
    I think we can do more in thinking about transportation for 
these families and how we might get the services, and then also 
think about more services in shelters where we have a lot of 
young children. We've done that. We've worked on tools for 
homeless shelters to use to provide child care onsite to help 
families. But we have more that we can do.
    I think another challenge we have seen that is very serious 
with families with young children are the social and emotional 
impact of what being homeless has on children. We are seriously 
looking at this issue in terms of how we can provide more 
technical assistance to people on the social-emotional 
development and challenges of children through an agreement and 
work we're doing with SAMHSA, and we have included homelessness 
in the work that we're doing there.
    I think there are challenges of children themselves and 
challenges of transportation for the parents. I think the other 
things we're working on and getting over, like immunizations--I 
know you were concerned about that. I think that's coming 
along.
    Senator Murray. Some of the barriers are just finding these 
people. I mean, they're in motel rooms to streets to--how do 
you get over that and find these kids?
    Ms. Smith. That is a challenge, and we know that, and we've 
been working with our colleagues at HUD on this issue. We are 
currently working on a joint policy statement with HUD to try 
to figure out and to do more outreach into programs operated by 
HUD. We'll be looking forward to getting something out later on 
this year on that.
    A joint policy statement for us has been extremely helpful 
in getting people to pay attention to the issues. We've done 
that in a number of other areas and have seen good results. 
We're working on that and you can expect to see it yet this 
year.
    Senator Murray. OK. We know that affordable and high-
quality child care is really an important part of a worker's or 
a family's ability to increase their wages, especially for low-
income parents. One of the provisions I was very proud of in 
this law was making sure that parents don't lose access to 
child care benefits because of instability in their work 
schedule, education, or training status.
    We had a similar policy in my State, and I wanted to ask 
you: What are some of the preliminary benefits you've seen as a 
result of that policy change for parents and their children?
    Ms. Smith. As I said earlier, this is one of the biggest 
challenges States face--the 12-month eligibility. But I have 
been out doing site visits and met with families around this 
country, and I will tell you that one of the first things that 
they talk about in terms of changes is the fact that they now 
can rely on their subsidy for a year.
    Senator Murray. Right.
    Ms. Smith. That makes all the difference in their ability 
to think about training, education, and fixing some of the 
other challenges that they have in their lives. I've been 
hearing that from families firsthand across this country, and 
it was an important thing. It is a challenging thing.
    Senator Murray. OK. Great. Thank you. Thank you very much.
    Senator Burr. Chairman Alexander.

                 Opening Statement of Senator Alexander

    The Chairman. Thanks, Mr. Chairman.
    Ms. Smith, thank you for your leadership on this. I was the 
United States Education Secretary when this law was passed 25 
years ago, and there was a lot of pride in it because it 
represented an important compromise. It was new Federal dollars 
to help working families and children, but it gave parents 
choices of which provider to use.
    Am I correct that two major goals of the Act were from the 
beginning to allow each State maximum flexibility in developing 
child care programs and to promote parental choice to empower 
working parents to make their own decisions regarding the child 
care services?
    Ms. Smith. Yes.
    The Chairman. Am I correct that the law does not require 
States to use grants or contracts?
    Ms. Smith. That's correct.
    The Chairman. But they may if they wish.
    Ms. Smith. Right.
    The Chairman. Am I correct that in 2014, in the new law, I 
believe Senator Scott offered an amendment. Just to make that 
clear, it says,

          ``Nothing in this law shall be construed in a manner 
        to favor or promote the use of grants and contracts for 
        the receipt of child care services or disfavor or 
        discourage the use of such certificates.'' Am I correct 
        about that?

    Ms. Smith. Yes.
    Senator Scott. Yes.
    The Chairman. I assume Senator Scott may ask about this. 
I'm puzzled by the proposed rule that would require State 
agencies to use at least some grants or contracts to pay for 
child care services. The way I understand it, there's one pool 
of Federal dollars, and a State may use it for vouchers for 
working parents to choose a center for their child, or it may 
use it for contracts. But if you require a State to use it for 
contracts, that diminishes the amount of money necessarily that 
may be available for vouchers.
    Why doesn't the proposed rule squarely contradict the Scott 
Amendment, which we just adopted in 2014 to stop an attempt to 
do this before in 2013? Why doesn't it violate the law as it 
has existed from the day it was started?
    The whole purpose of the law was to make these sort of Pell 
grants for early childhood education. It would give working 
parents a choice of providers, and they might be public, they 
might be private, and they could even be sponsored by religious 
institutions, and that has worked very well.
    Please explain to me why it doesn't violate the law to 
propose a rule that would say a State must use some of the 
money for contracts, since that money would necessarily 
diminish the amount of money, in my view, that's available for 
certificates or vouchers.
    Ms. Smith. I want to first say, sir, that we completely 
agree with the goal of CCDBG to allow maximum choice for 
parents. When we wrote the NPRM, our concern was that in many 
low-income neighborhoods, there is no child care, and it is 
very difficult for providers to get up and running without some 
assurance of funds in order to operate a program. Our goal was 
really to increase parent choice by ensuring that many 
neighborhoods had child care.
    We have carefully thought about your comments. We 
appreciate the letter that you and Chairman Kline wrote, and 
we're very serious about this. We want to make sure that--
parent choice. I was a parent and I'm a grandparent, and one of 
the things that I would tell you--I ran a child care center and 
my own daughter was in a family child care home because that 
was the best environment for her. We truly understand parent 
choice.
    The Chairman. But, Ms. Smith, I respect that, and I respect 
you. But the law says you cannot make a State favor contracts 
over certificates. If you require a State to use contracts, it 
takes money away from certificates. That clearly violates not 
only Senator Scott's amendment, which was adopted in 2014, but 
it violates the whole original agreement in 1991 or 1992, 
because this was a breakthrough, really. It was a concession by 
those who were cautious about this.
    In exchange for the dollars, these were basically vouchers 
for working parents, in the same way that we give vouchers to 
college students, which has been maybe the most successful 
social program we've ever had. The concern you express about 
something not being available is something a State could figure 
out.
    I was once a Governor. If there's a problem in the use or 
the administering of my child care program, if there's nothing 
available, then that's something that a State can deal with. 
But I would respectfully urge you to follow the law on this, 
and as well intentioned as your motive might be, taking money 
away from vouchers to require States to use contracts violates 
the law as recently enacted as 2014.
    Thank you, Mr. Chairman.
    Senator Burr. Senator Franken.

                      Statement of Senator Franken

    Senator Franken. Thank you, Mr. Chairman.
    I'm very proud that we passed this law, the CCDBG 
reauthorization, in 2014--but very, very good things in this. 
In your testimony, though, you say we serve 15 percent, just 15 
percent, of the families that qualify. As the chairman said, 
this gives low-income families that get the benefit from this 
the assurance that their children will be in safe settings. But 
I believe that we need to make sure that all low-income 
families who qualify for this get the benefit, and that's why 
I'm the co-sponsor of Senator Casey's bill to fund it.
    One thing I am proud of is the piece put in for Indian 
country, for American Indians. They experience exceptionally 
high unemployment levels compared to the rest of the Nation. 
According to the latest figures from the Bureau of Labor 
Statistics, Native Americans continue to have unemployment 
rates nearly double that of the general population, and, 
additionally, American Indian children experience some of the 
poorest educational outcomes in America. These are exactly the 
sort of challenges that CCDBG is designed to address.
    That's why Senator Murkowski and I worked together during 
the reauthorization to lift the ceiling on tribal child care 
funding. Our provisions enable more funds to flow to tribes but 
without reducing the amounts that go to States. I was very 
pleased that we were able to incorporate that into the law.
    Can you talk about the impact that this additional funding 
has had on Native American children?
    Ms. Smith. Yes, sir, and we appreciated that change in the 
law very much, because tribal funding was and had been flat for 
so long. After you lifted that cap on the tribal set-aside, we 
have increased the amount of money going to tribes over the 
last 2 years as we've gotten new money in the budget. I think 
the total amount is almost $30 million, a 28-point-something 
increase in tribal funding.
    What we're encouraging tribes to do with that funding right 
now is to be sure to factor in the new requirements of the law 
and make sure that the provisions, especially around health and 
safety and training and those things, are paid for as they 
begin to move forward, and then after that, to increase the 
access to child care for tribal children. But because the money 
has been low for a long time, we are seriously encouraging them 
to look at implementing the law and using the funds to address 
the issues that they need to around quality.
    Senator Franken. Senator Murray brought up children that 
are homeless. We know that children who have adverse childhood 
experiences are more susceptible to emotional difficulties, and 
you talked about social-emotional development when speaking to 
her questions. One of the things I'm proud of is that in the 
Every Student Succeeds Act, I put in a mental health piece.
    We know that for kids who are homeless, kids that witness 
drug addiction, kids that witness domestic violence, this 
trauma leads to higher emotional developmental difficulties. 
Can you speak to what we can do to meet unmet mental health 
needs for kids before they enter elementary school?
    Ms. Smith. We are looking at this issue very closely 
because we have looked at the data on early childhood expulsion 
from preschools and child care programs, which is alarming, to 
say the least, that we put a child on a pathway to failure at 3 
or 4. We've been taking this into consideration. We have, as I 
said earlier, worked with our colleagues at SAMHSA, and we've 
established a national technical assistance center specifically 
designed to look at social-emotional development and mental 
health in the birth to five population.
    To your point on the tribal issues, two of the experts that 
we're hiring for that TA center will be tribal experts, because 
we know that the tribal community has challenges around social-
emotional issues, especially related to drugs and alcohol 
addiction problems. About 3 months ago, we convened a national 
panel of experts at HHS to look at the issues of social-
emotional development in tribal communities, especially in the 
children under age five, and we'll probably be putting a policy 
statement out or some further guidance on this.
    One thing that we have found very alarming is the number of 
drug addicted babies born, not only in our tribal populations 
but across this country, and how do we begin to prepare child 
care and Head Start program people to work with these children 
as they come into their programs. We're taking a serious look 
at that. SAMHSA has been very supportive in this, and we think 
that we've just scratched the surface on what we need to do.
    Senator Franken. Thank you for that answer.
    Thank you, Mr. Chairman. But certainly the trauma that 
we're talking about that's associated with adverse childhood 
experiences are not confined to Indian country, and this is an 
issue that we need to address, I believe, at the earliest 
possible point in a child's life.
    Thank you, Mr. Chairman.
    Senator Burr. Senator Isakson.

                      Statement of Senator Isakson

    Senator Isakson. Ms. Smith, thank you for being here. Are 
the health and safety requirements background checks and 
monitoring carried out by the States?
    Ms. Smith. Yes, they are.
    Senator Isakson. We're going to hear on the second panel 
from Ms. Le'Vaughn Westbrook. She was a resident of my State. 
She lost her two-and-a-half-month-old first son in a daycare 
setting where there was found to have been no background check 
done, where the monitoring of children in the facility was 
inadequate, and, in fact, there may have been actually some 
other violations as well.
    What do you do to ensure that the States are doing the 
correct health and safety requirement oversight, the correct 
monitoring, and the correct background checks on employees?
    Ms. Smith. As I said, these are some of the challenges that 
we are working with the States on, especially in the background 
clearance issues and the child abuse registry checks, which we 
know are going to be challenging between the States. We are 
working, and we have several things that we're considering 
doing, including work on a clearinghouse that might help States 
share information, because sharing this information is very 
difficult and sensitive, too. We are working very hard on that, 
on the background checks.
    On the monitoring, we are closely tracking their 
monitoring. As I said, 39 States are already in compliance with 
this. They are making progress on it. We are following up.
    One of the things we did when States came in and asked for 
waivers is that we did not give them a waiver for more than a 
year, because we want to make sure that we're tracking their 
progress in implementing the requirements of the law, 
especially around health and safety and monitoring. We will be 
tracking those over the next year as they work on implementing 
this. But we are very seriously watching this.
    Senator Isakson. What are the consequences to a State if a 
State is found not to be doing the proper monitoring, the 
proper background checks, or the proper health and safety 
training?
    Ms. Smith. We have the ability to give penalties to the 
States on this, and that would come in the form of a penalty 
with their funding.
    Senator Isakson. Thank you very much, Mr. Chairman.
    Senator Burr. Senator Casey.

                       Statement of Senator Casey

    Senator Casey. Thank you, Mr. Chairman. I appreciate having 
this hearing, and I want to, first of all, in addition to 
having an opportunity to have a hearing like this, which is an 
oversight hearing which is important for us to do, I want to 
thank Deputy Assistant Secretary Smith for her work and her 
leadership.
    We're grateful that you're here.
    We had a number of reasons to be positive about the 
reauthorization. Just the fact that it had not happened in so 
many years was reason alone to be optimistic and to be 
positive. But some of the basic features of that legislation--
the 12-month eligibility provision, which was a major focus and 
priority of mine, so that States are now required to provide 
for a 12-month eligibility period so that families don't lose 
access to care if someone in the family has a change in their 
working conditions.
    Of course, the health and safety provisions were critical--
and Senator Isakson talked about that and others have as well--
and the necessity of training as part of that, both pre-service 
training and ongoing training in at least 10 specified health 
and safety topics--among the many things we can be positive 
about.
    We still face this major challenge of resources, and it's 
one that I think folks in the advocacy community, and folks at 
the local and State level, and the Democrats and Republicans 
here in Washington are concerned about. We need to get more 
support for more resources. It's as simple as that.
    We know that less than one in 10 eligible children 
nationwide under the age of 4--it's not all children who 
receive child care--but under the age of 4, only 10 percent 
eligible are receiving child care assistance. In Pennsylvania, 
even when we have robust State investment, the number in 
Pennsylvania is just 15 percent. We have a real problem with 
very young children who are eligible not getting the services. 
As much as we can be positive about the bipartisan nature of 
this legislation and the good work on oversight that we're 
doing, we still have a major resource problem.
    We know that--and this is according to Child Care Aware--in 
more than half the country--it's hard to comprehend this--in 
half the country, a year of child care costs more than a year 
of college tuition at a public school. That's how grave the 
challenge is with regard to a resource deficit and the major 
challenge that these families have.
    We also know the median wage for child care workers is 
$9.30 an hour. We're literally paying these workers, in whom we 
place so much of our confidence, in whom we entrust our 
children to--they're making less than parking lot attendants in 
the United States of America. We have a major challenge there.
    I guess the first thing I'd ask is about the funding gap 
and what you think we should do about it and what you hope we 
would do about it.
    Ms. Smith. I do think there is a serious gap in funding in 
this country. As I said in my opening remarks, the average 
value of a subsidy voucher right now is $4,800, which, if you 
look at the national averages for an infant, that's about half 
of the national averages. In many cases, in our bigger cities, 
it's much more expensive, as we've talked about.
    We do have a gap, and we are going to, as a country, have 
to figure out how we're going to close that gap at some point. 
Low-income families simply cannot afford what it costs to 
access high-quality child care in this country. There is a gap. 
That's why we put in our budget proposal this year, our budget 
request, the $82 billion over 10 years. That would close that 
gap.
    I want to add one thing here which I think is very 
important in this conversation. One of the things that we have 
learned--and thank you to this body and the House for 
supporting our early Head Start child care partnerships, 
because the investment there is demonstrating that when we 
invest in high-quality infant-toddler child care and raise the 
rates that we're paying to those providers, we are getting high 
quality.
    It's amazing what's going on around the country through the 
partnerships where the Head Start programs are working in 
partnership with child care providers serving infants and 
toddlers and paying them to do the same level of work that we 
expect in Head Start. It shows and it demonstrates that with 
the resources, we can get there in infant-toddler care in this 
country. We're investing $635 million in that right now, and 
that investment probably is the most important investment that 
we are making in terms of demonstrating how to do this.
    That gap, which is what we're talking about here, and the 
$82 billion--and thank you for introducing the legislation, 
because that would close that gap for roughly all children 
under the age of 4 at 200 percent of poverty or below. That 
would be a huge investment in our future in this country.
    Senator Casey. I appreciate you working with us on that 
legislation and also focusing on both access as well as 
quality. Thanks very much.
    Thanks, Mr. Chairman.
    Senator Burr. Senator Scott.

                       Statement of Senator Scott

    Senator Scott. Thank you, Mr. Chairman.
    Thank you, Ms. Smith, for being here this morning.
    Senator Alexander, thank you for bringing up the point on 
my amendment that I thought was pretty clear. Sometimes when we 
pass laws in this country, the laws are ambiguous, hard to 
understand, not necessarily clear. In an attempt to make sure 
that our law was crystal clear, I added an amendment that 
provided such direction. The amendment very clearly states the 
parental rights to use child care certificates is now embedded 
in part of the law.

          ``Nothing in this subchapter shall be construed or 
        applied in any manner that would favor or promote the 
        use of grants and contracts over the use of child care 
        certificates, or that would disfavor or discourage the 
        use of such certificates for the purchase of child care 
        services, including those services provided by private 
        or nonprofit entities such as faith-based providers.''

In your estimation, isn't that clear?
    Ms. Smith. That is clear, and I do want to say that we're 
very----
    Senator Scott. Ms. Smith, before you go on, as long as 
we're dealing with something that is completely clear, then for 
the NPR to require States to use grants would be inconsistent 
with the current law. This is not a place that lacks clarity. 
This is one of the few instances in law where, actually, the 
law is completely clear.
    So my question is: Why would HHS violate the existing law 
by promulgating an NPR that requires not just my State of South 
Carolina that has opted to use exclusively the certificate 
process--38 States use the same process. You're saying to 38 
States that they now must violate the law and include grants. 
How is that not inconsistent with the law?
    Ms. Smith. I think we have heard you loud and clear on this 
issue, and we are considering the input that you've given to 
us.
    Senator Scott. Ms. Smith, I don't know that I gave you 
input. We gave you specific clear direction. This is not an 
option. It would be different if we said, ``It is your choice. 
Please pick one. We prefer that you use one.'' We clearly 
stated in the laws of our country--in other words, in order to 
do something other than what the law says, you will have to 
violate the law, and the NPR violates the law.
    Ms. Smith. Let me just say that earlier in the NPRM and in 
current regs and everything that we've put out consistently 
over this program, we have required certificates to be offered 
to every family. We're not really saying that families won't 
have the option to have a certificate. As I said earlier, we 
hear you. We will take this back, and we are considering all 
these as we do a final rule.
    Our goal is not to undermine parent choice and/or to do 
away with the option for a family to have a certificate. It is 
clear in the NPRM that all families must be offered that. We 
will take steps as we need to clarify this and respond to your 
concern here, sir.
    Senator Scott. Not to belabor the point, but when one says 
they're not going to belabor the point, they're going to 
belabor the point. Your NPR requires States to use grants. If 
that is also clear, that your NPR requires States to use 
grants, then it is clear that your NPR would violate the law. 
Anything other than, ``Yes, we will follow the law,'' seems to 
be inconsistent with following the law.
    I hope that, somehow, the clarity in the law will be 
followed by those governed by the law and not promulgate a rule 
that seems to say that the bureaucrats are in a better position 
to create laws than the elected representatives of the 
Americans in our country. I don't know how else to be clear on 
such an important conversation for parents who are looking for 
a clear path to creating a better life than to make sure that 
those same parents who are smart, engaged in the process of 
taking care of their kids--that those parents have the 
flexibility to make the choices that are best for them and not 
have those of us in Washington come down and say, ``Here's what 
we think is best for you.''
    My time is up.
    Senator Burr. I thank the Senator from South Carolina. In 
concluding our first panel, I'll just direct to Ms. Smith one 
last question. Will the final rule eliminate the requirement to 
have grants?
    Ms. Smith. It would be improper of me to say what the final 
rule will look like because it's still in the process of going 
through coordination. All I can say on this one is what I have 
said, that we have taken very seriously your comments, 
concerns, and questions, and I think that you will see changes 
on that, without saying what they are, because they're still in 
the process.
    We do not want to upset the issue of certificates or parent 
choice in any way. We're very committed to that.
    Senator Burr. Let me say, if I can--and not to restate what 
Senators Alexander and Scott have said--just the mere fact that 
you put this in the proposed rule shows a disregard for the 
letter of the law. Congress was very specific through Senator 
Scott's amendment, and it's disturbing. It would be disturbing 
anywhere that might happen in a proposed rule. I would ask you 
to take this under considerable advisement, so when that final 
rule is proposed, that it conforms with exactly what the law 
says.
    With that, we want to thank you for your testimony today, 
and you are excused, Ms. Smith.
    I would call on the second panel.
    I'd like to welcome our second panel, and I'm going to go 
slightly out of order because of Senators' schedules. I'm going 
to turn to Senator Isakson for the introduction of Le'Vaughn 
Johnson Westbrook.
    Senator Isakson.
    Senator Isakson. Thank you very much, Mr. Chairman. It's 
really a pleasure for me to introduce Le'Vaughn Westbrook. Ms. 
Westbrook has served as an advocate at the State and Federal 
level for quality child care since 2009. She proposed 
comprehensive background check legislation in the State of 
Georgia, which was adopted by our legislature. She has been 
praised by the Atlanta Constitution and published on WSB 
television in Atlanta for her effort to improve child care in 
our State.
    Ms. Westbrook holds a bachelor of social work from the 
University of Michigan and a master of social work from 
Michigan State University. She worked within the child welfare 
field and served abused and neglected children throughout her 
career. Ms. Westbrook currently resides in Falls Church, VA--
we're sorry we lost her in Georgia, but we're happy she's 
closer to Washington--with her husband and two children and is 
a licensed clinical social worker who continues her work with 
children in psychiatric clinics.
    We welcome you today, Ms. Westbrook.
    Senator Burr. Thank you, Senator Isakson.
    I'd also like to welcome Sheila Hoyle, a North Carolinian. 
Sheila has dedicated the past 44 years of her life to bettering 
early learning and child care in North Carolina. Since 1987, 
Sheila served as the executive director of the Southwestern 
Child Development Commission in North Carolina. In her role, 
she oversees 12 development centers in the southwestern part of 
North Carolina. All 12 of these providers received the highest 
ratings under North Carolina's quality rating system.
    Sheila along with others in the resource and referral 
community in North Carolina were instrumental in providing on-
the-ground expertise to me and my staff in offering the CCDBG 
Act of 2014. I am delighted to welcome her today. She is a 
graduate of Western Carolina University, where she received a 
B.A. degree in social work and her master's in public 
administration.
    Sheila, I am told you are accompanied this morning by your 
lovely 90-year-old mother.
    We welcome you, ma'am.
    Also, I'd be remiss if I didn't recognize Celia Sims, who 
used to be on my staff and active on this committee and who was 
really instrumental in much of the work we're here to do 
oversight on today that is reflected in the 2014 Act.
    Celia, welcome and congratulations.
    In addition to our two announced panelists, I'd like to 
introduce Myra Jones-Taylor. Welcome. Senator Murphy intended 
to be here. I think he's been delayed.
    Dr. Myra Jones-Taylor is the Commissioner of the 
Connecticut Office of Early Childhood. Dr. Jones-Taylor 
previously served as an assistant professor, faculty fellow at 
the McSilver Institute for Poverty Policy and Research at the 
Silver School of Social Work at New York University. She 
received her doctorate in American studies and anthropology 
from Yale University, where she also received two master's 
degrees, one in American studies and the other in African 
American studies. Dr. Jones-Taylor lives in New Haven, 
Connecticut, with her husband and two children.
    We certainly do welcome you here today.
    I was hoping that my partner in this would be back. Her 
legs aren't quite as long as mine----
    [Laughter.]
    Senator Burr [continuing]. Ms. Williams, it may be taking 
her a while.
    Margaret Williams has served as the executive director of 
Maryland Family Network in Baltimore since 1991. Prior to that, 
she was the executive director of the Friends of the Family 
organization. She is a graduate of Connecticut University with 
a degree in economics.
    Ms. Williams, we welcome you, and I'm sure that my partner 
will be back very quickly.
    Now, I'm going to turn to Ms. Hoyle and recognize all of 
you for up to 5 minutes, and we'll start that way and go 
straight across.
    Welcome, Sheila.

  STATEMENT OF SHEILA HOYLE, EXECUTIVE DIRECTOR, SOUTHWESTERN 
           CHILD DEVELOPMENT COMMISSION, WEBSTER, NC

    Ms. Hoyle. Thank you. Good morning. I want to thank 
Chairman Alexander, Ranking Member Murray, for inviting me 
today, and especially I want to thank Senator Burr, Senator 
Mikulski for their leadership on the Child Development Block 
Grant reauthorization. I so appreciate their efforts and 
dedication to making sure that children are safe in child care 
and that we have more children who are in quality arrangements.
    Last year in North Carolina, the North Carolina Child Care 
Coalition honored Senator Burr for the work that he did on the 
reauthorization. It really is a pleasure for me to get to come 
to Washington and say that again to you here in this venue. The 
same with Senator Mikulski. The teamwork that the two of you 
did has just been remarkable and certainly is what brought us 
here today.
    As you've already said about me, I've worked in the early 
childhood field for the past 44 years, all of that in North 
Carolina. I've been the executive director of Southwestern for 
28 years, and my agency is a private nonprofit agency created 
in 1972. We do local work, we do regional work, and we do work 
all across the State of North Carolina.
    Our goal is to bring access for low-income children to 
better quality child care. We do that by helping families find 
child care. We administer child care subsidies, and we provide 
training and technical assistance to the child care workforce. 
We sponsor the Child Care and Adult Feeding Program. We also 
operate 12 child care centers, because in North Carolina, 
sometimes our shortage is a shortage of quality spaces for 
children to have care.
    I want to begin by calling the new law historic. Congress 
has called for a new vision for child care, one that recognizes 
that child care is a work support for parents, but also that it 
is an important setting for the healthy development of young 
children. I feel fortunate to live in North Carolina because 
for a long time, North Carolina has been regarded as a leader 
in early childhood education. We have a strong service delivery 
system. That doesn't mean it's perfect. It doesn't mean that 
we've found the way to do everything right. But we do have in 
place already most of the basic requirements that are called 
for in the new law.
    I do understand that some States will have a greater 
challenge than others in meeting the new requirements. But when 
it comes to protecting children, Congress took the right step. 
There are many important changes in the law that will assist 
young families, and I want to comment about three specific 
parts of the law.
    I want to talk first about the minimum health and safety 
requirements and background checks, because I believe that 
these are the very core of protecting our young children. I 
know that for some States, this compliance will have a cost. 
But as the director of an agency whose mission is to promote 
safety and child development, these are the right policies. 
There should be accountability for the manner in which public 
funds are spent. Children should be placed in a setting that 
promotes their healthy development and their safety while their 
parents are working.
    The second point that I'd like to comment on is the 12-
month eligibility and the graduated phase-out provisions. This 
is good policy. This is good for young families. Families need 
stability with child care. The graduated phase-out program will 
help us to end the cliff effect, and the cliff effect, of 
course, is when families reach a certain point in income, they 
just drop off of the subsidy eligibility program.
    The new law will give us a way to transition these families 
and work with these families so that children have continuity 
of care and families have a chance to transform and transition 
into a new kind of stability. There is a cost of doing this. 
But it is a cost, and it is the difference of serving families 
or serving families well.
    The third piece of the new law that I want to talk about 
and support is the quality set-aside. I believe that the 
quality set-aside helps us to strengthen the infrastructure on 
which we provide good early childhood development in every 
community. I often think about this as the roadmap that builds 
the economy, that builds jobs. Child care doesn't just happen. 
It has to be built. Like any system in our Nation that is 
built, we have to have a structure. We have to have a 
foundation. We have to have infrastructure to make that happen.
    Quality is the foundation for this, and we do these things 
by developing a workforce. We know that in the early childhood 
environment, the teacher is the most valuable part of equipment 
in that classroom.
    The CCDBG Act of 2014 is the right policy at the right 
time. We've had 18 years to review State policy. We've looked 
at the neuroscience research. We understand now much more about 
brain development and what happens to very young children. We 
have evaluated high-quality programs so that we can identify 
their characteristics. These are some tough choices for many of 
our States. But it is past time that we offer accountability 
for the children and families and how we assist them.
    Sufficient resources to fund implementation is critical. 
However, our policies are right, and I look forward in North 
Carolina to continue working with the new implementation of 
this law, and children and families in our Nation will be 
served better by this law.
    Thank you.
    [The prepared statement of Ms. Hoyle follows:]

                   Prepared Statement of Sheila Hoyle

    Good morning. I want to thank Chairman Alexander and Ranking Member 
Murray for setting aside time on the committee agenda to hold this 
hearing today. In addition, I particularly want to thank Senator Burr 
and Senator Mikulski for their leadership spearheading the Child Care 
and Development Block Grant through reauthorization. I know it wasn't 
easy. Anything that takes 18 years isn't. But, I so appreciate your 
efforts, your willingness to put partisan politics aside, and your 
dedication to making sure that children are safe in child care and that 
more children are in high quality care.
    Last year, the North Carolina Child Care Coalition recognized 
Senator Burr for all of his efforts. I am proud to be from North 
Carolina and proud of the leadership on child care that Senator Burr 
has shown. Not just talking the talk as we say, but actually doing the 
walk. Senator Mikulski, I want to commend your dedication as well. We 
know without the partnership between the two of you, we would not be 
here today.
    I have been in the child care field for 44 years. I have been the 
executive director of the Southwestern Child Development Commission for 
28 years. My organization, a private, nonprofit agency, was created 
back in 1972, and is the only regional early childhood organization 
created through the Appalachian Regional Commission that still exists 
today. Our operating budget is about $30 million, which includes about 
$20 million in subsidy funding to assist nearly 4,500 children every 
month access quality child care.
    At the local, regional and State level, the Southwestern Child 
Development Commission works to increase access to high quality child 
care. We do that by:

    <bullet> helping families find child care, by helping them 
understand what to look for and what to ask,
    <bullet> administering subsidies to low-income families throughout 
9 counties,
    <bullet> providing training and technical assistance to child care 
providers to help them become licensed, participate in North Carolina's 
quality rating system, or otherwise strengthen the quality of care,
    <bullet> sponsoring the Child and Adult Care Food Program (also 
known as CACFP) so that providers (both centers and child care homes) 
can offer and be reimbursed for nutritious meals and snacks, and,
    <bullet> operating 12 child care programs because quite frankly, in 
rural North Carolina there is a supply shortage of care.

    Beyond the 13 counties in which we assist families, the 
Southwestern Child Development Commission is one of three agencies that 
together represent a council (which includes the Child Care Services 
Association in Raleigh and Child Care Resources Inc. in Charlotte) that 
oversees child care resource and referral activities throughout the 
State's 14 regions. Data for the most recent 5 months \1\ shows that 
statewide, Child Care Resource & Referral Agencies have:
---------------------------------------------------------------------------
    \1\ Fiscal year 2016 Five Month Report, July 1, 2015-November 30, 
2015, North Carolina Child Care Resource & Referral Council, Child Care 
Resource & Referral Core Services.

    <bullet> Assisted 13,516 child care providers with training, 
technical assistance or other professional development services,
    <bullet> Offered 179 training sessions on a wide array of topics 
from emergency preparedness to North Carolina's Early Learning 
Guidelines--NC Foundations,
    <bullet> Offered trainings throughout all 14 CCR&R regions on 
inclusion and working with children with special needs,
    <bullet> Offered 94 trainings related to childhood obesity and 
encouraging healthy meals and physical activities and 20 workshops on 
family child care home pre-licensing,
    <bullet> Provided 4,252 preschool classrooms with onsite technical 
assistance visits,
    <bullet> Provided child care referrals to families on behalf of 
8,148 preschool-age children (some regions report web-enabled referrals 
at year end while others do not--therefore, the actual number of 
referrals is higher than reflected),
    <bullet> Provided child care referrals to families on behalf of 
2,239 school-age children (some regions report web-enabled referrals at 
year end while others do not--therefore, the actual number of referrals 
is higher than reflected),
    <bullet> Assisted families of 588 children with special needs with 
child care referrals,
    <bullet> Assisted 307 non-English speaking families with child care 
referrals, and.
    <bullet> All 14 regions are working to partner with local homeless 
shelters and community organizations to assist homeless families with 
children to access high quality child care.

    I am proud to be here today because I view the 2014 Child Care 
Reauthorization as historic. I am old enough and have been in the early 
childhood field long enough to fully appreciate how far Congress has 
come over the decades. I saw up close the need for child care 
assistance back in the 1970s and 1980s as more women were entering the 
workforce. I fought for enactment of the Child Care and Development 
Block Grant Act back in 1990. In 1996, as part of welfare reform, I 
fought to make sure that in consolidating the various child care 
funding streams, that assistance would be available for low-income 
working families--not just families on welfare. Then for 18 years after 
that, I worked to support reauthorization to promote the safety and 
healthy development of children.
    Between 2010 and 2014, I was on the Public Policy Committee at the 
National Association of Child Care Resource and Referral Agencies, or 
NACCRRA, currently doing business as Child Care Aware of America. 
During that time, we issued annual reports that reviewed State child 
care laws, selected 15 different health and safety measures, and scored 
and ranked the States. Since there were no minimum protections for 
children under CCDBG at the time, State laws varied widely. Therefore, 
every year, Janet Singerman, the executive director of Child Care 
Resources Inc., in Charlotte and I met with our Members of Congress and 
staff about those reports and urged reauthorization. We supported the 
2014 CCDBG Act because much of it reflects the basic recommendations 
from our reports.
    Today's hearing is about the implementation of the new law and the 
perspectives of stakeholders. I am fortunate to live in North Carolina 
where we have long had a strong child care system. That doesn't mean 
perfect, but it does mean that we had many of the basic requirements 
called for in the new law already in place.
    I understand that some States may have a greater challenge than 
others in meeting some of the new requirements. But, when it comes to 
protecting children, I believe Congress took the right approach. 
Protect children. Require accountability for public spending. Make sure 
that when families receive assistance, children have access to high 
quality care and some oversight to ensure that the rules are followed. 
It's common sense.
    We have had decades of research about brain development during the 
earliest years. We have had evaluations of early learning programs over 
the years so that we know high quality programs make a difference, 
particularly for the school readiness of low-income children. We also 
know from newspaper reports across the country over the years that bad 
things can happen without protections for children or oversight to 
ensure compliance or to promote quality improvement.
    From a stakeholder's perspective, I see the new law as an 
opportunity for a new vision. It's taken several decades, but we can 
get this right. Child care continues to be a work support for parents. 
Absolutely. However, given the hours that children spend every week in 
child care, it is equally important to pay attention to the 
developmental needs of the child. That's what the new law is about--the 
combination to support parents and children.
    Background Checks: North Carolina, as Senator Burr knows, already 
had a strong fingerprint-based background check system. So far this 
year, the NC Division of Child Development and Early Education has 
processed 25,487 criminal background checks. Of those, 469 individuals 
have been disqualified. The fact that 469 individuals who should not be 
in the business of providing child care have been screened out, is a 
good protection for children. I know not all States have a fingerprint-
based background check system, but with livescan and digital devices 
today, it is possible, efficient, and can be done at a modest cost. 
It's time for States to figure out how to put that type of system in 
place.
    North Carolina will need to figure out how to work with other 
States to check their child abuse registries for those who have not 
lived in the State for the past 5 years. We'll have to figure out how 
to work with other States to check criminal histories and the sex 
offender registry. I have confidence that this is not rocket science 
and we will figure it out. It's the right thing to do to protect 
children.
    Minimum Training. According to the National Center on Early 
Childhood Quality Assurance, more than three-quarters of States require 
staff working in child care centers to complete some type of 
orientation training.\2\ The number of annual training hours required 
for staff working in centers ranges from 3 to 30.\3\ Twenty-eight 
States that license family child care homes require providers to 
complete some type of orientation training.\4\ The number of annual 
training hours required for family child care home providers varies 
from 4 to 24.\5\
---------------------------------------------------------------------------
    \2\ Research Brief #1: Trends in Child Care Licensing Regulations 
and Policies for 2014. National Center on Early Childhood Quality 
Assurance (November 2015). https://childcareta.acf.hhs.gov/sites/
default/files/public/center_licensing_trends_brief_2014.pdf.
    \3\ Ibid.
    \4\ Research Brief #2: Trends in Family Child Care Home Licensing 
Regulations and Policies for 2014. National Center on Early Childhood 
Quality Assurance (November 2015). https://childcareta.acf.hhs.gov/
sites/default/files/public/315_1511_fcch_licensing_trends_brief_
2014_final_508_0.pdf.
    \5\ Ibid.
---------------------------------------------------------------------------
    I support the minimum training requirements in the new law. There 
isn't an hourly requirement, but the requirement that there be an 
orientation training and that annual training should be progressive and 
related to the social, emotional, physical, and cognitive development 
of children is the right approach. It's not necessarily about the 
hours, but it is about the content. We know that the safety of the 
children and the quality of the program are directly related to the 
training and education of the staff. While some States may have a 
challenge in meeting the training requirements, I believe they are 
critical, at a minimum, for quality care. More would be required for 
high quality care.
    Inspections. According to the National Center on Early Childhood 
Quality Assurance, all but six States require inspections for child 
care centers at least once a year.\6\ Not all States require licensing 
for family child care homes, but of those that do (43 States), only 11 
States do not require annual inspections of homes.\7\
---------------------------------------------------------------------------
    \6\ Research Brief #1: Trends in Child Care Licensing Regulations 
and Policies for 2014. National Center on Early Childhood Quality 
Assurance (November 2015). https://childcareta.acf.hhs.gov/sites/
default/files/public/center_licensing_trends_brief_2014.pdf.
    \7\ Research Brief #2: Trends in Family Child Care Home Licensing 
Regulations and Policies for 2014. National Center on Early Childhood 
Quality Assurance (November 2015). https://childcareta.acf.hhs.gov/
sites/default/files/public/315_1511_fcch_licensing_trends_brief_
2014_final_508_0.pdf.
---------------------------------------------------------------------------
    North Carolina already requires annual inspections. The proposed 
regulations by the U.S. Department of Health and Human Services asked 
for comment about whether this requirement should apply only to those 
providers that care for children on subsidy or whether the requirement 
should be applied to the broader universe of licensed care (plus 
unlicensed providers who care for children on subsidy). I am part of a 
Child Care Resource & Referral Consortium that submitted comments on 
the proposed regulations in February. With regard to inspections, our 
comments included,

    ``Universe Subject to Annual Inspections: Annual inspections should 
apply to all licensed providers and unlicensed providers who receive 
subsidy (excluding relatives unless States choose to inspect them). If 
the inspection requirement is not broadly applied, it will create a 
two-tiered system which will have the effect of restricting parent 
choice. Also, if the inspection requirement is not systemic, it could 
have the effect of delaying subsidy availability to families as they 
wait for inspections to occur in order to receive their subsidy. In 
order for parents to have maximum choice among all providers, 
inspections should be annual for all licensed providers and those who 
are not licensed who care for children receiving a CCDF subsidy.''

    As a subsidy administrator, I want to promote efficiency. I want to 
make sure that families can select child care and have their subsidy to 
use as soon as possible--not wait until an inspector has gone out to 
the property, which depending on the State and the caseload could 
seriously delay the receipt of subsidy. At a minimum, all licensed care 
should have an annual inspection. That way, parents would have maximum 
choice. In North Carolina, Child Care Resource & Referral Agencies 
sometimes work with child care programs that have been found to have 
licensing violations. We help them to correct those problems. For 
States that don't inspect, it doesn't mean that there aren't potential 
dangers for children, it just means that children are left to chance. 
We can do better than that.
    To me, the real opportunity on inspections is that maybe there is a 
way to do them more efficiently and cost-effectively. As an operator of 
12 programs in North Carolina, my programs receive several inspections 
every year--not just from child care licensing. With the new 
requirement under CCDBG, it could be an opportunity to convene the 
individuals from the various agencies that conduct inspections and 
figure out if there is a better way to conduct them. Rather than by 
funding stream, maybe there is a core set of safety requirements that 
could be shared by all, maybe there could be some cross-training, some 
sharing of data and coordination. I think there is likely room for 
improvement with regard to inspections in most States and the new CCDBG 
law is a good start (i.e., inspectors need to have training, basic 
competency, and a reasonable caseload).

       12 Month Eligibility and Graduated Phase-Out of Assistance

    To me, the new law is an opportunity for a new vision. Although 
North Carolina does many things right, there is still more we can do 
better.
    We have a statewide tiered quality rating system where licensing is 
embedded at the lowest level, which means all programs are rated. If 
providers want to receive subsidy funds, they have to have at least a 3 
star rating. Nearly three-quarters (73 percent) of children on subsidy 
are in 4 or 5 star care. On average, about 70,000 children throughout 
the State each month are assisted with a child care subsidy so that 
their parents can work, go to school, or participate in job 
training.\8\
---------------------------------------------------------------------------
    \8\ North Carolina Department of Health and Human Services, 
Division of Child Development and Early Education, March 2016 CCDF 
Expenditure Report.
---------------------------------------------------------------------------
    At the same time, the waiting list statewide includes about 20,330 
children. Because Work First (or TANF families) are given priority, the 
waiting list is comprised of low-income working families who are not 
receiving Work First assistance. They are low-income families with 
children and the wait for assistance can be 2 years or longer.
    My agency is in a rural community. We don't have a waiting list. 
However, throughout North Carolina, 66 of our 100 counties do have a 
waiting list. For example, in Mecklenburg County, in the greater 
Charlotte area, 6,500 children receive assistance and nearly as many 
(5,275 children) are on the waiting list.
    North Carolina currently has 12 month eligibility. However, until 
enactment of the CCDBG Act of 2014, some counties required 
recertification quarterly and some every 6 months. Therefore, although 
we have 12 month eligibility on paper, frequent recertification means 
that families do not actually receive assistance for 12 months. The 
recertification process leads to a churn in the caseload at a much 
earlier point in time (i.e., one family is terminated and another 
receives assistance). Sometimes that is because families move and they 
don't receive the paperwork. Sometimes that is because families do not 
understand the paperwork or they don't have it together to bring in the 
documentation that they need. Sometimes a modest increase in income can 
cause a family to lose assistance basically overnight.
    Going to 12-month eligibility, similar to Head Start eligibility, 
without periodic recertification during the year, is better for the 
child. It promotes continuity of care and stability for families. Very 
rarely are families over-income. They are still working poor. However, 
as current families receive child care assistance longer, without 
additional resources, new families can't receive assistance. For 
counties with a waiting list, this is a challenge. I support 12-month 
eligibility. I am hopeful that additional Federal dollars can be 
provided so that the churning of families is reduced. It just doesn't 
serve children well, which is at the heart of the new law.
    The new requirement for graduated phase-out is related. Currently, 
when families exceed the income limit, nearly immediately, they lose 
assistance. North Carolina is in the process of allowing a 90-day 
graduated phase-out for families exceeding the State set income limits. 
That sounds like a short period of time. However, we will have that 90-
day transition for families because of the new law. Ninety days is 
better than immediate termination. Graduated phase-out will have a 
cost, however, I think it is the right policy for families.
    There are no easy choices. In North Carolina, there are 458,136 
children under age 6 with working parents. These children need to be 
somewhere while their parents work. Child care is expensive. In 2015, 
the average annual cost of center-based care for an infant was $9,254 
and the average annual cost of center-based preschool-age care was 
$7,919. Many families, particularly those with more than one child, 
struggle with the cost of child care. Low-income families struggle the 
most.
    The poverty rate for families with children under age 5 in North 
Carolina is 20.4 percent. In my 13 county service area, the poverty 
rate for families with children under age 5 exceeds the State average 
in 10 counties. In Swain County, the poverty rate for families with 
children under age 5 is 41.3 percent--more than double the State 
average.
    It's worse for single mothers. In 8 counties in our service area, 
the poverty rate for single mothers raising children under age 5 
exceeds the State average of 49.4 percent. In two counties, Swain and 
Clay, about two-thirds of these mothers with young children are living 
in poverty.
    Twelve-month eligibility and a graduated phase-out can help these 
families, particularly the children whose trajectory we can change with 
access to high quality care.
    Market Rate Survey. Because the counties my agency serves in 
southwestern North Carolina have such high poverty, it is difficult for 
high quality programs to operate. Families can't afford the cost of 
high quality care and therefore, the economics based on private pay 
families doesn't work. I was thrilled to see the option in the new law 
for States to use an alternative cost methodology to set subsidy rates. 
A market rate survey measures only what the market currently bears--and 
in my counties, those rates are low. It's a measurement related to what 
parents currently pay but not what quality care would cost per slot. 
These are two very different measures. I want to thank the committee 
for including this option and I am hopeful that we might be able to use 
an alternative cost modeling approach in at least some pilot 
communities.
    Quality Set-Aside. I want to thank you for increasing the quality 
set-aside. Theoretically, we could serve many more children if we 
didn't invest in activities to improve the quality of care, however, we 
would not be serving children well. The quality set-aside is really 
about building the infrastructure, the system that supports quality 
care. I often think about it as the roadmap that supports jobs and 
economic development. Parents of young children need child care in 
order to work. Children need a safe place to be and a setting that 
supports their healthy development. Quality child care doesn't just 
happen. It is built. It is built primarily through professional 
development of the workforce, which strengthens the quality of care 
that families can access. Investments in quality related activities 
help to ensure that the infrastructure within a community can support 
working families.
    In North Carolina, there are so many innovative examples of the use 
of quality dollars. Training, technical assistance, our tiered quality 
rating system, our Infant Toddler Quality Enhancement Project, the 
T.E.A.C.H. program that in fiscal year 2015 enabled 2,563 early 
childhood teachers, directors, and family child care home providers in 
98 of North Carolina's counties to further their education,\9\ and the 
Child Care WAGE$ Project that provided salary supplements for 66 Pre-K 
teachers and 257 assistant teachers in 238 child care programs in 51 
counties who all work in 4 and 5 star centers.\10\
---------------------------------------------------------------------------
    \9\ T.E.A.C.H. Early Childhood Annual Report, July 1, 2014-June 30, 
2015, Child Care Services Association. http://
www.childcareservices.org/wp-content/uploads/2013/11/TEACHAnnual
Report14_15_FINAL.pdf.
    \10\ Child Care WAGE$ Project, statewide Final Report, fiscal year 
2015, Child Care Services Association. http://
www.childcareservices.org/wagesapps/statewideFinalFY15_Full.pdf.
---------------------------------------------------------------------------

                               Conclusion

    The CCDBG Act of 2014 is the right policy at the right time. We 
have had 18 years to review State policy and practice, the neuroscience 
research about children's brain development during their earliest 
years, and evaluations of high quality programs. Meeting basic health 
and safety protections for children in child care should have been 
State policy over the years. In some States it was. In some States it 
was not. Children should be safe in child care regardless of the State 
in which they live. Knowing the long hours that many children are in 
child care, it is essential that we look at the developmental needs of 
children as well as their safety. There are some tough choices that 
many States may have to make. Sufficient resources to fund 
implementation are essential. I would like to serve more families. I 
would like to help strengthen the workforce so that high quality care 
can be available in every community. At a minimum, we need to ensure 
that the children in families who do receive assistance are safe and in 
a setting that promotes their healthy development. I fully support the 
new law and I am looking forward to working within North Carolina to 
help make implementation successful.

    Senator Burr. Thank you, Ms. Hoyle.
    Ms. Westbrook.

STATEMENT OF LE'VAUGHN JOHNSON WESTBROOK, PARENT, FALLS CHURCH, 
                               VA

    Ms. Westbrook. Good morning. I want to thank Chairman 
Alexander, Senator Mikulski, who's not here right now, and 
Senator Burr for inviting me to testify today. I also want to 
thank the other members of the committee for listening to my 
story.
    My name is Le'Vaughn Westbrook, and I am a wife and mother 
of three beautiful boys. My firstborn, Quale Jelani, would have 
been 8 years old this July 2d. I'm a licensed clinical master 
social worker and work as an emergency psychiatric clinician 
for a hospital in Fairfax, VA.
    I'm here today to share Quale's story and his tragic death. 
It's the heartbreak of my life and a cautionary tale about the 
consequences of an inadequate child care system. In September 
2008, I was a single mother returning to work after maternity 
leave, living in Georgia. As a first-time parent with limited 
resources, I did everything I knew at the time to find a 
quality child care setting for my two and a half month old baby 
son, Quale. Although I qualified for child care assistance at 
the time, I didn't have the required recent pay stubs, as I had 
been on maternity leave, and, therefore, was unable to receive 
benefits, and it limited what I could afford.
    I visited the Georgia Department of Early Care and 
Learning's website, also known as DECAL, to find affordable 
licensed child care. I assumed a child care license meant I was 
putting my son in a safe, high-quality setting. I ultimately 
chose a family child care program that was licensed, close to 
home, and that fit my work schedule, via the State website.
    On September 25, 2008, during my son's second day of child 
care, I received a call from the next door neighbor that my son 
was unresponsive and not breathing. The provider was not 
present in the daycare at the time. When I arrived at Quale's 
child care, EMS told me that CPR was performed on my son for 25 
minutes, and Quale had been dead for a while. Because the child 
care program was considered a crime scene, I was not able to 
see nor hold my child. I questioned how this could have 
happened.
    After spending many hours researching Georgia's child care 
regulations, my concerns about inadequate child care licensing 
requirements were confirmed. I contacted DECAL, and an 
investigation was launched. I discovered that not only had the 
State not conducted a comprehensive background check on the 
provider, but they were not made aware of my son's death by the 
provider, the provider was still caring for children at the 
time the investigation was initiated, and the provider had a 
child protective services history.
    Furthermore, the State had cited this licensed provider for 
various violations, including a lack of first aid training, no 
CPR certification, and inadequate supervision of the children 
in her care. If I and the State had known this information when 
I was conducting my child care search, she would not have been 
licensed. I never would have placed Quale in the provider's 
care, and he would still be alive today.
    Since my son's death, I have worked tirelessly advocating 
at the State and Federal level for legislation that requires 
comprehensive background checks before issuing a license to any 
child care provider. Thanks to the reauthorization of CCDBG in 
2014, championed by the hard work of this committee, there are 
new and stronger health and safety measures for child care.
    I am so very pleased, and I must say I am so pleased that 
the new law mandates comprehensive background checks for 
providers and requires training to include safety, first aid, 
and CPR for all child care providers. These measures are 
critical and will prevent the heartbreak that I and so many 
other parents have faced.
    However, millions of families like mine still struggle to 
find affordable quality child care. I now live in northern 
Virginia, one of the most expensive places in this country to 
raise a family. I earn a decent salary, so I don't qualify for 
child care assistance. Yet quality child care is still not 
affordable. The cost of putting my infant son in a quality 
setting is $2,000 a month.
    My husband and I established a budget and we decided that 
he would stay at home and care for our son. It's wonderful that 
we can do this, but it comes at a significant price. My husband 
is putting his career on hold, and living on one income is a 
major strain on the family budget. I would prefer having the 
choice of a quality child care for my son as soon as possible 
with exceptionally trained, responsive, and caring providers 
that can partner with me in preparing my child for school so 
that my husband can return back to the workforce.
    In summary, though tragedy has forced me to become an 
expert on child care licensing, and I know what questions to 
ask providers, many parents do not have this knowledge. They 
are like me with my first child. They don't know where to go to 
find information about what a license does and does not mean.
    More has to be done to support parents like me. It's 
important to have affordable quality options so parents can 
have a peace of mind while they work or further their 
education. The equation is simple. Quality child care 
ultimately equals a strong, stable workforce.
    Also, more has to be done to support child care providers, 
both through increased compensation and training. They are the 
ones working tirelessly to help shape young minds and build 
loving hearts.
    I wanted to share Quale's story with Congress, not to dwell 
on all the laws that could have been in place to protect him at 
the time, but to inspire future action that will enable each 
and every family in your districts and across America to have 
access to safe, healthy, and affordable child care.
    Thank you so much.
    [The prepared statement of Ms. Westbrook follows:]

           Prepared Statement of Le`Vaughn Johnson Westbrook

    Good morning. I want to thank Chairman Alexander, Senator Mikulski, 
and Senator Burr for inviting me to testify today. I also want to thank 
the other members of the committee for listening to my story.
    My name is Le`Vaughn Westbrook and I am a wife and a mother of 
three beautiful children, Dre who is 1\1/2\, Matai who is 6, and my 
firstborn, Quale Jelani, who would have been 8 years old on July 2d.
    I am a Licensed Clinical Master Social Worker and work as an 
emergency psychiatric clinician for a hospital in Fairfax, VA.
    I'm here today to share Quale Jelani's story and how I lost him. 
It's the heartbreak of my life, and a cautionary tale about the 
consequences of an inadequate child care system.
    In September 2008, I was a single mother returning to work after 
maternity leave, living in Georgia. As a first-time parent with limited 
resources, I did everything I knew at the time to find a quality child 
care setting for my 2\1/2\ month baby boy, Quale. Although I qualified 
for child care assistance, I didn't have the required recent pay stubs 
as I had been on maternity leave, and therefore was unable to receive 
benefits and it limited what I could afford. I visited the Georgia 
Department of Early Care and Learning's website to find affordable, 
licensed child care. I assumed a child care license meant I was putting 
my son in a safe, high quality setting. I ultimately chose a family 
child care program that was licensed, close to home, and that fit my 
work schedule.
    On September 25th, 2008, during my son's second day of child care, 
I received a call from a neighbor of the child care that almost made my 
heart stop. My son was unresponsive--not breathing. When I arrived at 
Quale's child care, they told me that the Emergency team had 
unsuccessfully performed CPR on my son for 25 minutes--Quale died. 
Because the child care program was considered a crime scene, I was not 
able to see my child or hold him. Three days later, at the funeral 
home, I was finally able to see him again.
    I questioned how this could have happened. After spending many late 
nights on my computer doing research about Georgia's child care 
regulations, my concerns about inadequate child care licensing 
requirements were confirmed. I contacted Georgia Early Care and 
Learning State Department and an investigation was launched. I 
discovered that not only had the State not conducted a comprehensive 
background check on the provider, the provider was potentially on the 
child abuse neglect registry. Furthermore, the State had cited this 
licensed provider for various violations, including a lack of first aid 
training, no CPR certificate, and ``inadequate supervision'' of the 
children in her care. If I'd known this information when I was 
conducting my child care search, I never would have placed Quale in 
this provider's care and I wouldn't be here today.
    Since my son's death I have worked tirelessly advocating (at the 
State and Federal level) for legislation that requires comprehensive 
background checks before issuing a license to any child care provider.
    Thanks to the reauthorization of CCDBG in 2014, championed by the 
hard work of this committee, there are new and stronger health and 
safety measures for child care. I am so pleased that the new law 
mandates comprehensive background checks for providers and requires 
training to include safety, first aid and CPR for all child care 
providers. These measures are critical and will prevent the heartbreak 
that I and so many other parents have faced.
    However, millions of families, like mine, still struggle to find 
and afford quality child care. I now live in Northern Virginia, one of 
the most expensive places in this country to raise a family. I earn a 
good salary so I don't qualify for child care assistance yet quality 
child care is still not affordable; the cost of putting my 2-year-old 
son in a quality setting is $2,000 a month! My husband and I did the 
math, and we decided he would stay at home and care for our son. It's 
wonderful that we can do this, but it comes at a significant price. My 
husband is putting his career on hold and our living with one income is 
a major strain on the family budget. I would prefer having the choice 
of quality child care for my son in the fall, quality child care with 
exceptionally trained, responsive and caring providers that can partner 
with me in preparing my child for school.
    In summary, though tragedy has forced me to become an expert on 
child care licensing and I know what questions to ask of providers, 
many parents don't have that knowledge. They are like me with my first 
child--they don't know where to go to find information about what a 
license does--and doesn't--mean.
    More has to be done to support parents like me. It's important to 
have affordable, quality options so parents can have peace of mind 
while they work or go to school. The equation is simple--quality child 
care ultimately equals a strong, stable workforce. Also, more has to be 
done to support child care providers both through increased 
compensation and training--they are the ones working tirelessly to 
shape young minds and build loving hearts.
    I wanted to share Quale's story with Congress, not to dwell on all 
the laws that could have been in place to protect him, but to inspire 
future action that will enable each and every family in your districts 
and across America to have access to safe, healthy, and affordable 
child care.

    Senator Burr. Ms. Westbrook, thank you for that story.
    Ms. Williams.

 STATEMENT OF MARGARET WILLIAMS, EXECUTIVE DIRECTOR, MARYLAND 
                 FAMILY NETWORK, BALTIMORE, MD

    Ms. Williams. Thank you very much, Senator Burr.
    Senator Alexander, distinguished members of this committee, 
I am really honored to be here, and I'm especially happy to be 
able to say thank you in person to Senator Burr and, before the 
hearing began, to Senator Mikulski again for the CCDBG Act of 
2014, a very important step forward, setting the bar high, even 
for a State like Maryland that has a reputation of doing a 
pretty good job with child care.
    Maryland Family Network has been working since 1945 to 
ensure that families with very young children, birth to 5, 
birth to kindergarten, have the resources they need to succeed. 
As everybody in this room probably knows, it's impossible to 
overstate the importance of those early years, birth to 5, that 
builds the foundation for all the rest of what comes next for 
people.
    As a parent, a grandparent, an employer, I think the 
resources parents need, among them, chief, is child care. I 
know that the way we keep parents earning and children learning 
is quality, safe, affordable child care. Yet, as we've heard 
numbers of people in this room say already today, high-quality 
child care is out of reach of many Americans. Just in Maryland 
itself, between 2010 and 2014, we had at least 13 children die 
in unregulated care, care that parents chose because that was 
their last resort.
    Government can't prevent all these tragedies. Government 
can't even help, necessarily, providers or parents themselves 
to make good choices at all times. But government, we hope, 
will use taxpayer resources to promote our best thinking and 
our best actions and to do it with accountability.
    There are four provisions of the 2014 Act that I want to 
call out, in particular, and as one of your State level 
stakeholders talk to you a little bit about our implementation 
in Maryland of these provisions. First, the background checks, 
which I think are terrifically important. For the first time 
ever, regulated and most license exempt providers who receive 
child care subsidies will be required to have background 
checks.
    We started out on this course in 2013, and when we did, we 
started to investigate what was our history with those who were 
doing background and those who weren't. We found 80 on the 
Maryland sex offender list who were child care providers, 
family and center-based, who were on the sex offender list, 
resulting in people losing not only their subsidy but also 
their license to provide child care.
    We still have a little ways to go. We do not do these 
checks every 5 years, and we don't check the comprehensive 
backgrounds in other States where providers might have been. 
But we're on the way to get there by September 30 of 2017, and 
we think it's important to do so.
    Second is our inspections, regular inspections, which we 
have been doing in Maryland, and we think that they've saved 
lives.
    Third is the quality set-aside. Child care is not just 
about health and safety. Good child care is essential. It's not 
just enough to have health and safety standards. Quality child 
care is deeply embedded in the wonderful 2014 Act, and it does 
allow States to decide what is needed for quality for them, 
what constitutes quality.
    For us in Maryland, we're looking forward to strengthening 
our child care resource network, which, in the interest of full 
disclosure, Maryland Family Network manages on behalf of the 
State of Maryland. Child care resource centers leverage other 
funds, non-State and non-Federal funds, and address the issues 
they see right on the ground and do a wonderful job.
    But they could be seeing more child care providers and they 
could be doing a better job, a more comprehensive job, with the 
providers that they are providing training and technical 
assistance to with more resources. This law ramps up the set-
aside for quality from 4 percent to 9 percent, and that's a 
terrific achievement.
    Finally, you've heard about the 12-month determination. 
This is important for two big reasons. One is for the family 
economic stability, and the other one is because continuity of 
care for little ones is so critical. This is a huge, huge step 
forward, and I think most States have to move up into this.
    This will be the most challenging for Maryland. I think our 
government set-aside is about $4.3 million this year to address 
the expansion. That doesn't look like it'll be nearly enough, 
based on what one of our universities projected. We hope no 
compromises will have to be made that end up hurting the very 
children we're trying to help here.
    But I want to, in conclusion, just say thank you so much, 
Senators Mikulski and Burr, for this really remarkable high bar 
you've set in a bipartisan exemplary way for all the States.
    Thank you.
    [The prepared statement of Ms. Williams follows:]

                Prepared Statement of Margaret Williams

    Senator Mikulski, Senator Burr, and distinguished committee 
members, good morning. My name is Margaret Williams, and I am executive 
director of Maryland Family Network (MFN). It is an honor to be here 
today to offer a State-level stakeholder's perspective on the Child 
Care and Development Block Grant (CCDBG) Act of 2014, for which all of 
us concerned with child care and early education owe tremendous 
gratitude to the co-chairs of this hearing. Personally, I consider it a 
high privilege to testify before Senator Mikulski, who has represented 
me and all Marylanders with such great distinction for many, many 
years.
    MFN has worked since 1945 to improve the availability and quality 
of child care and other supports for children and families in Maryland. 
We have been active in State and Federal debates on child care policy 
and are strongly committed to ensuring that low-and moderate-income 
working families--and indeed, all families--have the supports they need 
to care for their children and to be economically self-sufficient.
    Chief among these supports is access to high-quality, affordable 
child care, which keeps children learning and parents earning. I 
believe it is impossible to overstate the importance of safe, healthy, 
and nurturing child care from the time of birth until a child enters 
school. High-quality early education sets the foundation for a child's 
success in school and in life. As a parent, a grandparent, and an 
employer, I also know that safe and reliable child care is essential to 
maintaining a productive workforce. Distinguished economists and other 
scholars have repeatedly documented the fact that investments in high-
quality child care pay enormous dividends, both to the families 
involved and to society as a whole.
    Yet, for many Americans and Marylanders, high-quality, affordable 
child care lies out of reach. In some cases, parents entrust their 
children to care providers who fail to meet even the most basic health 
and safety standards, with tragic consequences. Evidence is sadly very 
close at hand. In Virginia, over the course of a decade, 43 children 
died in unregulated child care programs, as the Washington Post 
reported 2 years ago. In Maryland, between 2010 and 2014, at least 13 
children died in unregulated care, as did two more early this year even 
as our State legislature debated a bill to strengthen the inspection 
process and improve parent and provider education about the benefits of 
licensed child care.
    Government surely cannot prevent every tragedy, nor can it ensure 
that every parent and every child care provider make perfect decisions 
all the time. But government can--and, I submit, should--strive to 
ensure that its actions motivate good behavior and that taxpayer 
dollars are spent according to standards and with accountability. State 
spending on child care subsidies for low-income families--buttressed to 
a large degree by Federal block grant dollars--provides a prime 
example, and that's one of the important reasons I applaud the CCDBG 
Act of 2014.
    For the first time, providers will need to undergo comprehensive 
background checks in order to be eligible to receive CCDBG-funded 
subsidy payments. This new provision applies both to regulated and 
license-exempt providers (with only limited exceptions for situations 
in which all the children are related to the caregiver). In Maryland, 
we saw the need to check the backgrounds of license-exempt providers 
receiving subsidy dollars several years ago. In addition, we discovered 
that even licensed providers were not routinely cross-checked against 
the Maryland Sex Offender Registry. Our research had an immediate 
impact: 80 Sex Offender Registry ``hits'' were recorded, and in six 
identified cases, circumstances dictated that child care, not just 
subsidy, be terminated. Legislation enacted in Maryland in 2013 in many 
ways anticipated the new CCDBG background check provisions. Similarly, 
Maryland has for many years conducted the types of child care provider 
inspections that the CCDBG Act of 2014 now requires as condition of 
receiving Federal subsidy funding. We are convinced that these 
provisions will significantly enhance the health and safety of children 
in care around the country.
    There is much more to child care, of course, than basic health and 
safety considerations. Care of poor quality can be extremely 
detrimental to child development. That is why I find it particularly 
praiseworthy that a commitment to high-quality care is deeply embedded 
in the CCDBG Act of 2014. States were previously required to set aside 
4 percent of their block grant funds for quality improvement. Under the 
new Act, that set-aside requirement will more than double, gradually 
rising to 9 percent.
    Wisely, the CCDBG Act of 2014 does not prescribe what quality-
improvement activities the States must undertake. Different States have 
different needs and priorities, and quality can be improved through 
multiple means. In Maryland, by way of example, we hope that the 
increased quality set-aside will fund an expansion of services provided 
by our network of regional Child Care Resource Centers (which, in the 
interest of full disclosure, MFN manages on behalf of the State). This 
priority reflects our belief that the single most important factor in 
high-quality child care is the quality of the child care workforce. 
Child Care Resource Centers provide critical training and technical 
assistance that helps providers not only meet but surpass licensing 
baselines to become the best professionals that they can be. They 
leverage resources from and for the communities they serve. They do an 
excellent job for the providers they assist, but they could reach so 
many more providers, and do more for them, if their resources weren't 
so constrained. We look forward to learning how our sister States plan 
to deploy their quality set-aside dollars, and we'll eagerly steal the 
ideas that fit best for Maryland.
    Low-income parents who rely on child care subsidy also have much to 
be thankful for in the CCDBG Act of 2014. One of the Act's key 
provisions mandates that families retain subsidy eligibility for 12 
months before redetermination, regardless of temporary changes in 
employment or income. The 12-month eligibility period supports two 
notable goals: family economic stability; and continuity of care, which 
is a cornerstone of optimal child development.
    I heartily applaud this ``family friendly'' provision of the CCDBG 
Act of 2014, and point out that it comes with a considerable price tag. 
In Maryland, approximately 75 percent of families' redetermination 
periods are shorter than 12 months, in many cases much shorter. The 
added cost to Maryland of implementing the 12-month eligibility 
provision could be significant. The absence of a significant increase 
in the Federal CCDBG appropriation may force Maryland to make difficult 
choices, perhaps with unintended consequences and negative outcomes 
among the very population--very young children and their families--whom 
we want to help with CCDBG legislation.
    Other States are similarly grappling with the fiscal implications 
of the CCDBG Act of 2014, in some cases for different reasons. Some 
States must beef up their inspection processes, for example. On their 
behalf as well as Maryland's, I urge you to give these fiscal concerns 
your utmost consideration as budget deliberations continue.
    I am grateful for your time, your attention, and your outstanding 
leadership on the CCDBG Act of 2014. I'd be happy to answer any 
questions.
    Senator Burr. Ms. Williams, thank you for your testimony and for 
your comments.
    Dr. Jones-Taylor.

     STATEMENT OF MYRA JONES-TAYLOR, Ph.D., COMMISSIONER, 
      CONNECTICUT OFFICE OF EARLY CHILDHOOD, HARTFORD, CT

    Ms. Jones-Taylor. Good morning, Chairman Burr--I'm calling 
you chairman today since Chairman Alexander left--and Ranking 
Member Senator Mikulski, Connecticut's senator, Chris Murphy, 
who is not here right now, and all distinguished members of the 
Senate Health, Education, Labor, and Pensions Committee. It is 
my great pleasure to be with you this morning.
    I am Myra Jones-Taylor, Commissioner of the Connecticut 
Office of Early Childhood. As a cabinet level State agency 
reporting directly to Governor Dannel Malloy, the OEC is the 
lead agency for early care and education, quality improvement, 
child care licensing, home visiting, and early intervention. I 
am honored to be given the opportunity to testify before this 
committee concerning the Federal reauthorization of CCDBG and 
its impact on Connecticut's child care program, which we call 
Care4Kids.
    I want to commend Congress for greatly improving CCDBG when 
it reauthorized the law in 2014. These changes bring new and 
much needed focus on quality and continuity of care for our 
children enrolled in our Care4Kids program. Connecticut 
children receiving a child care subsidy will now receive higher 
quality and more stable care while ensuring a parent can 
maintain employment.
    Prior to these sweeping changes, Connecticut's Care4Kids 
program had numerous reporting requirements that made it very 
difficult for parents to comply. As recent as this past year, 
there were many instances of a parent immediately losing the 
child care subsidy because of a change in her income or other 
subtle reasons. For example, if a parent received a promotion 
at work, which is a good thing, and the parent's income 
increased to 51 percent of the State median income, which is 
just over the current eligibility threshold, the child care 
subsidy would be immediately terminated.
    There have been instances when a parent took maternity 
leave and reported this change 1 day late and immediately lost 
the child care subsidy for her preschool age child. These 
abrupt benefit cliffs create a significant hardship for 
families struggling to pay their bills and put food on the 
table. They also fly in the face of all that we know about 
early childhood development and what is good for children.
    Under the new CCDBG rules, these arbitrary reporting 
requirements will be significantly reduced, and I am incredibly 
grateful. I would like to offer just some very positive 
examples of how families are currently benefiting from the law 
that we have implemented in Connecticut.
    Recently, one mother's work schedule changed. Under the new 
12-month redetermination policy, the mother's work schedule 
does not need to match up exactly to the hours of child care 
within this 12-month period. Therefore, the child can remain in 
the child care center and avoid losing the bond with the 
teacher and disrupting the child's routine as a result of the 
parent's unpredictable work schedule.
    Recently, a single mother called into our agency to report 
her last day of employment. We happily informed her that now, 
under the new law, her child care subsidy will continue for 3 
months to provide her time to seek a new job. She said to us,

          ``In the past, I was only given until the end of the 
        month, the following month, to find a new job. But with 
        this 90-day job search, it gives me more time to try 
        and get a job I actually want and not just take the 
        first job because it allows me to stay eligible.''

    These policy shifts are good for children, they're good for 
parents, and they're good for providers. However, the challenge 
for Connecticut and many other States is that these changes 
significantly increase the annual cost of care per child. This 
fiscal year, the annual cost of Connecticut's direct child care 
subsidy was $113 million, approximately $53 million coming from 
the Federal Government and $60 million coming from State funds.
    The new CCDBG policy changes are projected to increase the 
cost of our Care4Kids program by approximately $33 million in 
the coming fiscal year. Without sufficient additional Federal 
funds to cover these costs, Connecticut has no choice but to 
serve fewer families. To address this fiscal shortfall, 
Connecticut is taking painful steps to ensure that the number 
of children served is sustainable and families most in need 
receive the child care subsidy.
    Therefore, beginning July 1st, in a couple of weeks, 
eligibility for working parents applying for the program will 
change from 50 percent to 30 percent of the State median 
income. Currently, there are approximately 4,400 families, 
which translates to about 6,100 children, who will ultimately 
be denied access to the child care subsidy program upon 
redetermination because of this change in eligibility.
    This income eligibility threshold change will allow the 
program to remain sustainable--we're living within our means--
while keeping the program open to new applicants year round. 
Nevertheless, the difficult choice we have necessarily had to 
make creates a tremendous hardship on our working families, 
many who will be at risk of losing their jobs.
    I want to be very clear that I am not here today to 
encourage Congress to scale back on these policy changes. I 
cannot tell you how happy we are, and you heard from others 
this morning. We do not want to take a step back toward the 
days when CCDBG policies created a disincentive to earn a 
higher wage or when subtle changes in a parent's work schedule 
resulted in the loss of a subsidy and the end of a strong bond 
between a child and a caregiver. I sit before you today to urge 
Congress to allocate sufficient additional Federal funding to 
States to implement these policies and to ensure that all 
eligible families benefit from the positive changes in the law.
    I am grateful for this opportunity and happy to answer any 
questions you may have of me. Thank you.
    [The prepared statement of Ms. Jones-Taylor follows:]

             Prepared Statement of Myra Jones-Taylor, Ph.D.

    Good morning, Chairman Burr, Senator Mikulski, Connecticut's 
Senator Chris Murphy and distinguished members of the Senate Health, 
Education, Labor, and Pensions Committee. I am Myra Jones-Taylor, 
Commissioner of the Connecticut Office of Early Childhood.
    The Office of Early Childhood was created through Executive Order 
No. 35, effective June 24, 2013, and statutorily established in the 
2014 legislative session, effective July 1, 2014. As a cabinet-level 
State agency reporting directly to Governor Dannel Malloy, the OEC is 
the lead agency for early care and education, workforce development, 
program quality and improvement, child care licensing, family support 
and early intervention. Our mission is to support all young children in 
their development by ensuring that early childhood policy, funding and 
services strengthen the critical role families, providers, educators 
and communities play in a child's life.
    I am honored to be given the opportunity to testify before this 
committee concerning the Federal re-authorization of the Child Care 
Development Block Grant Act (CCDBG) and its impact on Connecticut's 
child care subsidy program, known as Care4Kids.
    I want to commend Congress for greatly improving the CCDBG program 
when it reauthorized the law in 2014. These changes bring new, and much 
needed, focus on quality and continuity of care for children enrolled 
in our Care4Kids program. Connecticut children receiving a child care 
subsidy will now receive higher quality and more stable care while 
ensuring a parent can maintain employment.
    Prior to these sweeping policy changes, Connecticut's Care4Kids 
program had numerous reporting requirements that made it very difficult 
for parents to comply. As recent as this past year, there were many 
instances of a parent immediately losing the child care subsidy because 
of a change in their income or other relatively insignificant 
circumstances. For example, if a parent received a promotion at work 
and the parent's income increased to 51 percent of the State Median 
Income--just over the current eligibility threshold--the child care 
subsidy would be terminated immediately. There have been instances when 
a parent took maternity leave and reported this change 1 day late and 
immediately lost the child care subsidy for her preschool-aged child. 
As another example, if a parent's work hours shifted from first to 
third shift, the child care subsidy for day-time center-based care 
would be terminated immediately because the work hours did not match 
the hours for the child care subsidy. These abrupt benefit cliffs 
created a significant hardship for families struggling to pay their 
bills and put food on the table. They also fly in the face of all that 
we know about early childhood development.
    Under the new Federal CCDBG rules, these arbitrary reporting 
requirements will be significantly reduced. I would like to offer some 
very positive examples of how families are benefiting from the new 
policy changes that Connecticut has implemented under this Federal 
reauthorization:

    <bullet> One mother's work schedule changed. Under the new 12-month 
redetermination policy, the mother's work schedule does not need to 
match the hours of child care within the 12-month period. Therefore, 
the child can remain in the child care center and avoid losing the bond 
with the teacher and disrupting the child's routine, unaffected by the 
unpredictable work hours that dictate the lives of so many of our low-
income working families.
    <bullet> A single mother called in to report her last day of 
employment. We informed her that, now under the new law, her child care 
subsidy will continue for 3 months to provide her time to seek a new 
job. She said,

          ``In the past, I was only given until the end of the 
        following month to find a new job but with the 90-day job 
        search, it gives me more time to try and get a job I actually 
        want and not just take any job just to continue to be 
        eligible.''

    <bullet> Under the new Federal rules, the child care subsidy was 
reinstated for a single mother whose income increased and was modestly 
over the eligibility threshold. She stated that if the child care 
subsidy had not been reinstated, she would not have been able to go to 
work due to the high cost of child care. She said, ``I am very 
appreciative of Care4Kids.''

    The sweeping policy shifts under CCDBG reauthorization are welcome 
changes. The focus on quality, continuity of care, and basic health and 
safety are long overdue. These policies are good for children, parents 
and providers; however, the challenge for Connecticut and many other 
States is that these changes significantly increase the annual cost of 
care per child. In fiscal year 2016, the annual cost of Connecticut's 
direct child care subsidy was $113 million--approximately $53 million 
in Federal funds and $60 million in State funds. The new CCDBG policy 
changes are projected to increase the cost of our Care4Kids program by 
approximately $33 million in fiscal year 2017. Without sufficient 
additional Federal funds to cover these costs, Connecticut has no 
choice but to serve fewer families.
    To address this fiscal shortfall, Connecticut is taking painful 
steps to ensure that the number of children served is sustainable and 
families most in need receive the child care subsidy. Therefore, 
beginning July 1, 2016, eligibility for working parents applying for 
the program will change from 50 percent to 30 percent of the State 
Median Income. For a family of three, this means that eligibility will 
be reduced from an annual household income of $44,601 to $26,760.
    Currently, there are 4,448 families enrolled with incomes between 
31 percent and 49 percent of the State Median Income, which translates 
to 6,158 children ultimately denied access to the child care subsidy.
    This income eligibility threshold change will allow the program to 
remain sustainable, while keeping the program open to new applicants 
year round. Nevertheless, the difficult choice we have necessarily had 
to make creates a tremendous hardship on our working families, many who 
will be at risk of losing their jobs.
    I want to be clear that I am not here today to encourage Congress 
to scale back on these policy changes. We do not want to take a step 
backward toward the days when CCDBG policies created a disincentive to 
earn a higher wage, or when subtle changes in a parent's work schedule 
resulted in the loss of a subsidy and the end of a strong bond between 
a child and a caregiver. I sit before you today to urge Congress to 
allocate sufficient additional Federal funding to States to implement 
these important policy changes and ensure that all eligible families 
benefit from the positive changes in the law.
    I thank you for your time and attention to this critical policy. I 
am happy to answer any questions you may have of me.

    Senator Burr. Dr. Jones-Taylor, thank you for your 
testimony.
    We'll move to questions for this panel.
    Ms. Westbrook, let me just say as a father and now a recent 
grandfather, that I'm impacted significantly by your story, and 
my heart aches for the loss you've gone through. But the 
ability to hear your story reassures me that what Barbara and I 
started to do now 5 years ago is, in fact, the right thing, and 
that no matter what the hardship is that we might present to a 
State, though they may see it as a hardship, I see it as a 
responsibility.
    I know I'll have a granddaughter soon that will be in 
daycare. Right now, she's in her grandmother's care, which 
might be just as scary because she hasn't done this for 30-
something years, but this week is her week. I just want to 
thank you. It's tough to tell a story like that, but it's 
important for us to understand where we were, where we are 
today, but, more importantly, where we're trying to get to, and 
I'm grateful to you for that.
    Ms. Hoyle, thank you for coming up from North Carolina. 
Thank you for the expertise and the advice that you gave us as 
we crafted this legislation. In your testimony, you referred to 
many implementation timelines as being the right policy. I'm 
wondering if you can expand upon the view and share with us how 
States can implement CCDBG's new requirements in a way that 
doesn't unduly disrupt the number of children served.
    Ms. Hoyle. Each State will have a different plan, and part 
of the whole process is working through that State plan. I know 
in North Carolina, we were very, very careful to have provider 
input. We had forums around our State, and we collected input 
from parents, from community providers--and I'm sure most 
States in the Nation did this--as we read the Federal 
objectives clearly.
    Then we had to lay out a plan for how we were going to get 
there. There are some issues that are policy changes. There's 
some issues that have a financial impact on them. I think as we 
all care about serving children well, serving children better, 
we try to balance what it costs us and what it does in terms of 
improving the quality.
    Some of the requirements--it's not new knowledge. It's not 
like people who are in early childhood would say, ``Oh, gosh. I 
didn't know about that. I never thought of criminal records 
checks.'' I think the early childhood community has known for a 
long time that many of the things that are required in the new 
legislation, that they should be doing these things.
    Senator Burr. Thank you for that.
    Ms. Williams, you mentioned in your testimony that once you 
began checking the sex offender registry, you found you had 80 
registered sex offenders who were working in child care. As you 
probably know, only 18 States actually check the sex offender 
registry prior to offering employment to child care workers.
    Can you share with the committee why that search was so 
enlightening to you and why, more importantly, you found it so 
important?
    Ms. Williams. Parents and nonparents alike--all of us had 
parents, so we know about being children--are concerned about 
sex offenders. We want to know that.
    Our background checks were not specific enough about what 
was required. We, as advocates, assumed that that was something 
being checked on background checks and found that it wasn't 
systematically happening. It was spotty. We were shocked at the 
number of so-called hits in the system that we found. Having 
this spelled out clearly and calling them comprehensive 
background checks--I think Ms. Westbrook refers to this, too--
is really important to us. Would that we had done this sooner, 
but we're on it now.
    Senator Burr. Let me say if God gave us grandchildren 
first, we'd have never had kids.
    [Laughter.]
    Senator Burr. For those that haven't experienced that yet, 
you'll understand exactly what I mean when I say that.
    Dr. Jones-Taylor, Connecticut claims it's going to have a 
hard time coming into compliance with the law's new 
requirements and last week apparently notified parents, as you 
said, that the income thresholds would essentially be cut in 
half for low-income families eligible for subsidies, leaving 
about 4,500 low-income families without child care assistance, 
or 25 percent of the State's child care subsidy recipients.
    The reason, according to press reports, is that the State 
cannot afford to carry out the health and safety requirements 
under CCDBG. The State also applied for a waiver under the law 
from all 10 of CCDBG's health and safety requirements. Am I 
correct on that?
    Ms. Jones-Taylor. Yes, sir.
    Senator Burr. Since the law's passage, Congress, at her 
insistence, has provided nearly a $100 million increase in 
CCDBG funds in fiscal year 2015 and nearly a $300 million 
increase in fiscal year 2016. Staff has checked, and it appears 
that no other education related program has received a similar 
percentage increase in its funding.
    Why has the State had to take such a drastic measure just 
to come into compliance with what I think are basic measures 
that Congress passed?
    Ms. Jones-Taylor. Thank you, sir, for your question. This 
will probably be no surprise. Sometimes the press gets it 
wrong, so that press report is actually incorrect. The question 
that we have, the challenge in terms of affording the program, 
is around the 12-month redetermination with limited reporting, 
the 3-month job search, and the graduated phase-out.
    The health and safety checks we are able to maintain. We 
asked for an extension for the orientation, and we're fine with 
not getting that. We did not ask for an extension for 
background checks or anything else. We feel that we are 
confident that we will manage that. We desperately want to. We 
believe in this wholeheartedly. The press--that was incorrect. 
It's really about the challenge of having higher quality 
programs, more stable programs for children, and not having 
enough money to fund those opportunities.
    I will say this. When the agency was created, we had many 
dings from the Inspector General on our licensing, and it was 
my great pleasure to request an additional 17 licensing staff 
inspectors to come into our agency so that we would get to 
annual inspections, which we have done. We're very proud of 
that effort.
    It's really around affording the 12 and three 
determination, the 3-month job search and the graduated phase-
out. I've spoken with many colleagues around the Nation, and 
they are also facing the same challenge. I've been saying that 
Connecticut is the canary in the coal mine, and that we have 
actually gone forward, because we so believe in this new law 
that we are actually implementing ahead of the game.
    But the challenges that we are actually seeing with the 
cost is when many other States are hoping for the waivers to 
give them a pass, maybe, or buy them some more time perhaps, 
which is understandable, we are actually implementing and doing 
the projections. We understand what they're about to go 
through.
    Senator Burr. I've abused my time. But prior to the law's 
passage, there were two other areas that you didn't come up to 
where the standard was. One was the inspections reports were 
not online for parents to review, and the second was that you 
didn't use the sex offender registry program. Can I assume that 
now you do have that information online and that the sex 
offender registry is something that you use?
    Ms. Jones-Taylor. Thank you for your question. We will be 
in compliance with the law. We are implementing this as we 
speak. When we were created, we were an agency that was created 
from different agencies that didn't necessarily see early care 
and education and early childhood issues as the most important 
part of their day and their mandate.
    When it came to this agency, where young children are the 
end-all, be-all for us, we started looking and saying, ``Wow. 
We had no idea''--I certainly had no idea that the sex offender 
was not part of our background checks. We are working to 
implement that. We're working with our State police. Many of 
the other policies that have come into us that we inherited, we 
are swiftly addressing.
    I will say this. It is going to be a significant 
undertaking. We currently do an average of 2,000 background 
checks per month in Connecticut. In order to meet the CCDBG--
which, again, we will, and we firmly believe this is good--we 
will be doing 44,000--44,500 new fingerprints will have to be 
done of all of our providers across the State. Again, this is 
good, but our State police are saying, ``We don't have the 
capacity for that.'' We really have to get to a statewide 
enterprise solution for this, and many other States face this 
challenge.
    Senator Burr. Thank you.
    Ms. Jones-Taylor. Thank you, sir.
    Senator Burr. Senator Mikulski.
    Senator Mikulski. Thank you again.
    Mr. Chairman, thank you for having this hearing so that we 
can see how the bill is being implemented and what are some of 
the challenges.
    First I want to thank all of the witnesses. I'm sorry that 
I wasn't here to hear the testimony, although, Ms. Westbrook, 
I've read your very poignant testimony. I'd like to express my 
sympathy to what happened to you. The advocacy to which you've 
devoted your life is really impressive.
    I want to go to Margaret for a minute. Margaret Williams, I 
know, was introduced, but we're really proud of her. When I was 
working on this legislation with Senator Burr, Ms. Williams 
helped me organize my roundtables around the State to actually 
meet with parents who needed child care, the people who were 
providing child care, the issues of capacity and so on. The 
Family Network and what it does, from the family support 
centers to the child care resource centers and the counseling 
to parents themselves to pick safe, reliable daycare is 
impressive. So three cheers.
    Ms. Williams, one of the issues that we raised as we were 
working on the bill was that not only for the child--the very 
eligibility sometimes meant a child was in child care, and then 
the parent got a raise or something else like that, miniscule, 
so one was to look out for the continuity of place and space 
for the child.
    But then you also introduced me to the problem of child 
care provider turnover, that even though they might be in, for 
example, Kiddie Care of Ashburton, and that's their place, and 
they've been there 18 months, that there's child care turnover. 
Is that a real problem that we need to be looking at?
    Ms. Williams. Turnover in the child care provider 
community?
    Senator Mikulski. Yes.
    Ms. Williams. That's a serious problem. It's a serious 
problem in most States, I think we have difficulty with infant-
toddler care, keeping infant-toddler care providers in 
business, because it's the most expensive kind of care. 
Especially, in Maryland, what we're finding is the care 
providers who are taking infants often take older children as 
well, and older children increasingly are eligible for pre-K in 
the school systems. The children that are sort of cross 
subsidizing the infants and toddlers are now going to public 
school, and it's just really almost cost prohibitive to offer 
only care for birth to 3-year-olds. We're losing providers that 
way.
    This is mostly anecdotal, but we're getting this from our 
12 child care resource centers, that the child care standards 
that we're ramping up and up and up for quality--providers who 
are older, who have been in the business a long time, rather 
than keep moving up the scale decide to go out of business. And 
we're having trouble, because of salaries, getting providers 
coming in at the early stages of their careers providing care.
    Senator Mikulski. So this is an issue.
    Ms. Williams. This is an issue.
    Senator Mikulski. In other words, to have the right staff, 
because, again, we want to do this background check. Senator 
Burr has led that, and we've supported that. Look at just 
checking the sex registry in Maryland--80 hits. That's bone 
chilling. That's bone chilling. What is the average salary of a 
child care provider in Maryland?
    Ms. Williams. I think it's about $17 an hour now for a lead 
teacher.
    Senator Mikulski. What does that come out to annually?
    Ms. Williams. Oh, my gosh. I can't do that in my head.
    Senator Mikulski. It's about $30,000.
    Ms. Williams. OK. I was going to say----
    Senator Mikulski. What is it, Warren? You're----
    [Laughter.]
    Senator Mikulski. We'll come back to it. Could I ask what 
is the waiting list in Maryland for child care?
    Ms. Williams. We have 4,000 children on the waiting list 
for the subsidy, the child care subsidy.
    Senator Mikulski. That's pretty significant.
    Ms. Williams. It is significant, and these are families who 
are a family of three at or below a $30,000 income. That's 
who's on the waiting list.
    Senator Mikulski. Even if we could provide more money--
well, there is an enormous need. Am I accurate in saying that 
in your States, Connecticut, North Carolina--is there a waiting 
list?
    What is your waiting list, Ms. Hoyle?
    Ms. Hoyle. North Carolina currently has a waiting list of 
about 20,000 children.
    Ms. Jones-Taylor. Connecticut currently does not have a 
waiting list, actually. We have eligibility at 50 percent of 
the State median income. We completely serve our TANF 
population and those families who have transitioned off of TANF 
and are still eligible. We do not have a wait list, so this 
will be a big change for us.
    Senator Mikulski. Do you have the number, Senator Warren? 
I'll come back. I have another question, though, for Dr. Jones-
Taylor.
    Dr. Taylor, when you spoke with Senator Burr about the 
challenges of the 12-month recertification--should we keep 
that, or is it something about the way we set it up that makes 
it more expensive?
    Ms. Jones-Taylor. Please keep it.
    Senator Mikulski. I don't want to give it up.
    Ms. Jones-Taylor. OK. Good.
    Senator Mikulski. But you have to ask the question. We 
believe one of the reasons this has been a success is we 
believe in candor and putting it all on the table, no matter 
what the answer is. So keep the 12-month eligibility as we now 
have it.
    Ms. Jones-Taylor. Yes, please.
    Senator Mikulski. What makes it so expensive?
    Ms. Jones-Taylor. If I can explain, one way to think about 
it is imagine you have one slot. Think about each of these--we 
call them certificates in Connecticut. Each of these 
certificates is one slot. When you have a family who is in a 
program and has to report all those different reporting 
requirements that I explained, and they fall off, within the 
course of a year, you can have three children in that slot 
because of the churn, the churn we all know so well that we 
speak about in this field.
    When you get to 12-month redetermination or eligibility 
with very little reporting, that one slot is for one baby, and 
that's great. That's great continuity of care.
    But what that means is you're serving fewer children 
because you now are serving that child for a longer amount of 
time, and there isn't that churn. This is good. For children--
we know so much about attachment. We don't want to have to take 
a child who has formed a strong bond with a caregiver and 
separate them. That's traumatic for a young child. For a 
parent, not knowing if they can rely on their child care 
subsidy from 1 day to the next--that's incredibly traumatic for 
economic reasons.
    Senator Mikulski. Dr. Taylor, that's exactly why Senator 
Burr and I wanted this.
    Ms. Jones-Taylor. Right.
    Senator Mikulski. When we did this bill, we wanted it to 
focus on the needs of the child, not the needs of a bureaucracy 
and not the needs of the budget. Both of those have to be taken 
into consideration. The needs of the bureaucracy to meet the 
requirement we need to know about, because then that's where 
the expense comes in. But it was really about the need of the 
child to have continuity of care and continuity of the 
caregiver. Isn't that really it?
    Ms. Jones-Taylor. Right, and that's it. That was my third 
piece. For providers, it's very hard for them to make ends meet 
when they have a child who's going to lose a subsidy overnight. 
That's income for those providers, for centers and family child 
care providers.
    Having that predictability is good across the board. The 
challenge is that it costs more money. I'm talking to 
colleagues and hearing $300 million, $190 million, in 
additional costs to implement this. What we say in the field is 
often that we don't want to pit quality against access. But 
what we are doing, essentially, is highlighting quality and 
we're limiting access.
    Senator Mikulski. To summarize, No. 1, many States have 
waiting lists, so there's an enormous demand. No. 2, we have a 
capacity problem. No. 3, we do have a resource problem, because 
if we want to have quality and provide continuity, it costs 
money no matter how tight you make it. Is that kind of it in a 
nutshell?
    Ms. Jones-Taylor. Yes.
    Senator Mikulski. I know that others have questions, so 
thank you.
    Senator Burr. Senator Warren.

                      Statement of Senator Warren

    Senator Warren. Thank you, Mr. Chairman, and thank you and 
Ranking Member Mikulski for the work that you've done in this 
area. I also want to say a very special thank you to Senator 
Mikulski for a lifetime of work advocating on behalf of our 
children. You have changed this world.
    Thank you all for being here today.
    Thank you, Ms. Westbrook. I know that it has to be really 
hard to tell that story. But it makes a difference when you 
tell it, thank you very much for being here. Thank you.
    Child care and early childhood education is one of the 
areas where we really know that Federal investment pays off. 
Extensive research now demonstrates that, depending on the 
specific program, for every dollar we spend on early learning, 
we get back as much as $3, $6, $8 in economic benefits down the 
road, and a lot of those benefits come in the form of higher 
earnings for children once they grow up. For example, I found 
one study that noted that high-quality affordable child care 
measurably increased participants' annual earnings as adults.
    Dr. Jones-Taylor, I am sure you spent a lot of time 
thinking about the investments that make a difference in 
children's lives. Can you just briefly walk us through what the 
evidence shows about how investments in child care, 
specifically, pay off down the road for children and for our 
economy?
    Ms. Jones-Taylor. Yes. Thank you for your question, 
Senator. We often speak about the high rate of return on 
investment for investing in early childhood programs. I want to 
stress that it's high-quality. It's not just anything, right? 
It has to be high-quality, which this law makes a huge step in 
that right direction, so thank you.
    We know some estimates--James Heckman has said it's $16 for 
every $1 invested on the child side. One thing that we really 
should think about is in terms of the family economic side and 
the community side.
    The Connecticut Center on Economic Analysis recently did an 
analysis of a program in New Haven, CT, called All Our Kin and 
what it's doing for investing in family child care providers 
and the economic impact it's having on families, the parents, 
and the providers. They found that in the city of New Haven, 
there was a $9.4 million increase, a macro economic increase, 
and then a $17 million a year tax increase when you invest in 
child care programs and have them stay open, stay stable, and 
have quality. The CCDBG is certainly about children. But the 
economic impact cannot be underestimated.
    Senator Warren. Thank you. This is about as close as we're 
ever likely to get on a no-brainer when it comes to Federal 
investments. We know what to do. We just need to put up the 
money to do it, and, today, that's just not happening.
    The Child Care and Development Fund, which is where the 
funding provided by the Child Care Development Block Grant ends 
up, is the primary source of Federal funding dedicated to help 
low-income families afford child care. But national figures 
show that five out of six children who are eligible for help 
and who need that help aren't getting it because the Federal 
Government knows how to help but won't spend the money to do 
it. Five out of six children who could see their life chances 
improved are simply being left behind.
    Dr. Jones-Taylor, does Connecticut have enough funding 
right now to be able to serve all the eligible families in your 
State? I think you said they did. Is that right?
    Ms. Jones-Taylor. We set our eligibility at 50 percent, so 
right now, we are living within our means. If we went to the 85 
percent of CCDBG, we do not have enough funds. When this 
happens, when we implement this, we will be moving in the 
opposite direction for sure, and so many other States will be 
as well. Those numbers, five out of six, will probably look 
worse.
    Senator Warren. Five out of six--there may actually be more 
children who are left behind. When Speaker Paul Ryan comes out 
with a poverty proposal, is he working to get help to the five 
out of six children who are eligible and who need it but who 
are not getting that money right now? No. He is focusing on how 
to take money away from the one child who is getting help. He 
uses words like streamline early childhood education or reduce 
redundancy. These are code words for cutting the money that 
children receive.
    Republicans would rather keep the tax breaks and the 
special loopholes open for the billionaires and for the giant 
corporations than pay for proven programs for our children. But 
let's all recognize what they're doing. The Ryan agenda is a 
recipe for creating more poverty, not less.
    Thank you, Mr. Chair.
    Senator Burr. Thank you, Senator, for that editorial. I 
want to thank all of you for being here. When Barbara and I 
look back over our work on this, we think it was long and hard. 
When I look at what you guys have gone through for a lifetime, 
I understand what commitment, passion, and responsibility 
really is.
    I remember when she and I got to where we publicly went out 
and talked about what we were going to do, and we mentioned 
that we're going to require everybody to do background checks, 
boy, you would have thought we set a threshold that was higher 
than anybody thought they could reach. But Maryland and North 
Carolina already did it, and I want to say to both of you that 
it's the fact that our States were progressive and ahead of the 
game. They knew what they needed to do to meet the safety 
issue. It's not to take anything away from others.
    You were our inspiration, because we didn't have a lot of 
fans, Barbara, if you remember, that said, ``Yes, this needs to 
be done. Go do it.'' Everybody told us why it couldn't be done, 
and the fact is it should have always been in place. As we see 
additional areas, I hope we're going to go there, whether we do 
it in Federal statute or whether we do it--because you, as 
providers, as organizations that focus on this day in and day 
out, identify it and see it as the right thing.
    Ms. Westbrook, I hope that no parent has to come in and 
tell a story like your personal story again.
    This hearing is going to come to an end. The record will be 
open for 10 days for comments and questions.
    I want to thank all of you for being here today. This 
hearing is now adjourned.

                          ADDITIONAL MATERIAL

   Response by Linda K. Smith to Questions of Senator Enzi, Senator 
     Murkowski, Senator Scott, Senator Sanders, and Senator Bennet

                              senator enzi
    Question. Ms. Smith, I had an amendment adopted 98-0 during the 
passage of the CCDBG that required a review of Federal early learning 
and care programs, a plan for the elimination of duplicative and 
overlapping programs as identified by the Government Accountability 
Office, recommendations to the Congress for the streamlining of such 
programs, and a detailed report recommending the elimination of 
duplication, overlap, and fragmentation among all Federal early 
learning and care programs.
    Can you please give us a detailed update on that review, plan, and 
report? What steps have you, in coordination with the other Federal 
agencies as required by the CCDBG law, taken to eliminate duplication, 
overlap, and fragmentation among all Federal early learning and care 
programs?
    Answer. The Administration takes this reporting requirement very 
seriously. In cooperation with our colleagues at the Department of 
Education and other agencies, we completed a thorough review of 
programs and are in the final stages of preparing the report which we 
expect to deliver to you very soon.
    What we have found is that not only are there few programs with a 
primary mission to support children's readiness for school, but these 
early learning programs are severely underfunded, leaving substantial 
numbers of eligible children unable to benefit from them, and leaving 
many early child care and education programs without the level of 
resources needed to provide and sustain high-quality services.
    We also know that some early childhood programs are specialized or 
directed for a specific purpose. These programs are essential to 
ensuring we have a system that meets families' unique needs and that 
does not fall into a one-size fits all approach. For example, some 
families need a full work day or year, or evening and weekend child 
care, in addition to the time their child spends in Head Start or 
preschool, and some children will need early intervention services 
provided under IDEA in addition to access to federally subsidized child 
care while their parents work or are in job training.
    We are working to promote cross-program alignment at the Federal, 
State and local levels, including through:

    <bullet> Early Head Start-Child Care Partnership (EHS-CCP): Early 
Head Start-Child Care Partnership grants align the Early Head Start and 
child care programs, our two largest early learning programs, and 
provide more of our Nation's children and families with high quality 
early learning experiences that will set them up for success in school 
and beyond.
    <bullet> Technical Assistance: We transformed our technical 
assistance to align efforts across Head Start and child care, eliminate 
any duplication, and ensure that both programs receive the high-quality 
technical assistance they need to deliver the best services to children 
and families.
    <bullet> The State Advisory Councils for Early Care and Education 
(SAC): The Administration for Children and Families continues to 
encourage collaboration and coordination with State Advisory Councils 
to develop high-quality, comprehensive systems of early childhood 
development and care and increase alignment between the various sectors 
within each State that provide services to young children.
    <bullet> Intra-and Interagency Partnerships: We have brought 
together several operating divisions within HHS, including National 
Institutes of Health, Centers for Disease Control and Prevention, 
Health Resources Services Administration, Substance Abuse and Mental 
Health Services Administration, and others to better coordinate and 
align our services. In addition, we have worked with other Federal 
agencies, including the Departments of Education, Defense, Agriculture, 
and Housing and Urban Development, on initiatives that help align our 
messages and services.
                           senator murkowski
    Question 1. What guidance or technical assistance would the 
Administration on Children and Families provide to State and resource 
and referral agencies and to tribes in States whose budget crises makes 
increased State investment unrealistic on how to comply with CCDBG Act 
amendments while maintaining participation rates?
    Answer 1. Reauthorization made critically important changes that 
will increase the health and safety of children in child care, and 
build access to higher quality care for children in low-income 
families. However, many States are faced with tough decisions as they 
move forward with implementing the new requirements in reauthorization. 
Unfortunately, we have heard from States that they are at least 
exploring these tradeoffs within their current budgets, rather than 
considering any increases at this time. This includes reducing income 
eligibility, creating or expanding waiting lists, or reducing payment 
rates to providers. Certain requirements for equal access and taking 
quality into account when setting payment rates may limit States from 
reducing already low payment rates. Very few States currently meet the 
benchmark of payment at the 75th percentile of a recent market rate 
survey of provider prices. Therefore, we are expecting States to do 
other things to limit the size of caseload unless there are additional 
resources provided.
    To support States as they move forward with implementation, we 
requested $200 million in additional discretionary funding in the 
President's Budget Proposal for fiscal year 2017. This is in addition 
to the $326 million increase Congress provided in fiscal year 2016. 
Most of these funds would go directly to the States to implement 
reauthorization, with a small amount going to pilots to support State 
innovation. We also requested $3.7 billion in new mandatory funding in 
2017 alone as part of the larger proposal to invest a total of $82 
billion in additional mandatory funding over the next 10 years to 
ensure access to high quality care for children under age four living 
in families under 200 percent of the Federal poverty level.

    Question 2. Do you anticipate any changes to the NPRM that will 
impact the current timeline of CCDBG implementation?
    Answer 2. We do not anticipate any changes to the NPRM that will 
significantly impact the current timeline of CCDBG implementation. We 
expect States, territories, and Tribal Lead Agencies to be in full 
compliance no later than the statutory deadlines based on their 
reasonable interpretation of the requirements in the Act. Once a final 
rule is issued, any State, territory, or tribe that does not fully meet 
the requirements of the Act, as interpreted by the regulations, will 
need to revise its policies and procedures to come into compliance 
within a timeframe that will be identified in the final rule. Our goal 
is for full implementation before the start of the next CCDF plan 
period, October 1, 2018.

    Question 3. In Alaska, there is great appreciation for the amount 
of technical assistance they have received via e-mail about webinars 
and other outreach. In fact, it is difficult to keep up with all the 
activities and offers that are being sent out or to take advantage of 
these opportunities. Given Alaska's severe economic downturn and deep 
cuts in State funding, folks in Alaska who are working to implement the 
new law are working with extremely limited staff and financial 
resources. Some have noted that they would prefer that the money ACF is 
dedicating to technical assistance be re-directed to States to support 
direct services. Have you heard this suggestion previously, and would 
you consider it?
    Answer 3. The reauthorized CCDBG Act included many new requirements 
for States, and we think training and technical assistance are crucial 
to ensuring the law is implemented fully. We appreciate that Congress 
recognized the importance of technical assistance and increased the 
amount HHS may set-aside to support the States, territories, and 
tribes.
    Since the passage of the new law, the technical assistance 
specialists across the country have worked with States, territories, 
and tribes as they move toward full implementation of provisions around 
subsidy administration, improving access to high-quality care, and 
strengthening child care health and safety requirements. Because the 
context in every State is different, we have developed a system in 
which the individual needs of each State are identified and addressed.
    We understand concerns about limited resources, which is why we 
have consistently requested additional funding for CCDF through the 
President's Budget Requests. However, as only one-half of 1 percent of 
the CCDF appropriation goes to technical assistance, redistributing 
that amount across States for direct services would fund very few child 
care slots while significantly decreasing the support that States, 
territories, and tribes need to implement the law.

    Question 4. Regarding Head Start, which was not the subject of the 
hearing but was referenced in your testimony.
          ``Many Head Start directors are concerned that the new 
        monitoring system will result in the reviewers--who will have 
        varying levels of experience and knowledge and conduct the 
        reviews alone--will be unable to benefit from different 
        perspectives and experience levels that informed observers 
        operating under the former team approach.''

    Because the monitoring process has high stakes implications, how 
will the Administration on Children and Families respond to this 
concern?
    Answer 4. While the make-up of the reviews looks different, the 
training and expertise of the reviewers has not changed. All reviewers 
are supervised and assisted by virtual team leaders known as content 
area leads. The content area leads provide guidance to review team 
members, add perspective to review content and are subject matter 
experts in the areas being reviewed. Both reviewers and grantees have 
access to the content area leads before, during and after the onsite 
review.
    Additionally, onsite team members are responsible for collecting 
the evidence and details of the review; this information is processed 
and analyzed by teams of expert staff who make the final decisions 
about monitoring outcomes and findings. The Office of Head Start (OHS) 
designed the Aligned Monitoring System to support the OHS transition 
from indefinite grants to a 5-year grant cycle. This approach ensures 
that monitoring continues to measure the quality and accountability of 
Head Start programs across the country and provides grantees with 
opportunities for continuous improvement. The Aligned Monitoring System 
gives OHS a multi-year perspective on grantee performance with a focus 
on high quality and compliance.

    Question 5. Head Start directors have communicated to me that the 
Designated Renewal System (DRS) has fundamentally changed the culture 
of the Head Start community that used to value collaboration. Because 
DRS results can result in a grantee having to re-compete for their 
grant, far fewer grantees are willing to share best practices and 
innovative approaches with other grantees against whom they may be 
required to compete in the future. How will the Administration on 
Children and Families respond to this concern?
    Answer 5. Competition is common among social service programs and 
not generally seen as a threat to collaboration. When Congress required 
ACF to transition all Head Start grants to 5-year grants and develop 
DRS, Head Start was unusual among Federal grant programs because 
competition was not regularly required. OHS and its partners have many 
strong collaborative efforts that have continued and expanded in recent 
years. Head Start grantees collaborate and share information through 
the national and regional Training and Technical Assistance systems 
which brings grantees together for regional trainings or issue specific 
trainings. Head Start State Collaboration Directors and the State and 
regional Head Start associations also foster grantee information 
sharing and collaboration. In addition, informal networks of grantee 
staff, for example the health managers network, share information and 
best practices. We continue to explore how OHS communications and 
technical assistance systems can foster collaboration. I also think it 
is important to note that even when grantees are identified for re-
competition, many of the previous grant-holders make sufficient 
improvement to re-gain the grant. We believe that the DRS has been a 
driver for quality that has benefited existing grantees.
    It is also worth noting that ACF set aside $635 million to fund the 
Early Head Start-Child Care Partnerships program which brings together 
the strengths of Early Head Start programs and child care providers for 
sustained and collaborative partnerships--this program supports a 
culture of collaboration through various means including networking, 
coaching, and peer-to-peer learning.
    In fiscal year 2015, ACF awarded $500 million under this grant and 
ACF recently posted Funding Opportunity Announcements that total $135 
million to support additional partnerships and expansion of Early Head 
Start.

    Question 6. Tribal Head Start directors have communicated their 
concerns that the CLASS observation tool is not culturally appropriate 
in all communities. What is the Administration on Children and Families 
doing to ensure that this problem is resolved?
    Answer 6. Initially, there were concerns about the CLASS being used 
for American Indian and Alaska Native (AI/AN) programs. However, we 
have worked closely with these grantees, and they now have some of the 
highest CLASS scores across the country. Cultural and linguistic 
relevance is a high priority for the Office of Head Start including in 
the administration of CLASS. CLASS reviewers must meet with the tribe 
to learn and collect information about the tribe. OHS has implemented a 
language preservation program for American Indian Alaska Native 
programs. In addition, as part of the AI/AN FACES study, CLASS 
reviewers were trained within AI/AN Head Start classrooms to support 
their understanding when conducting CLASS observation in AI/AN 
classrooms. The AI/AN Regional Office--Region XI--has worked closely 
with the monitoring division to ensure reviews are appropriate for AI/
AN grantees. Videos specifically about CLASS and AI/AN programs are on 
the Early Childhood Learning and Knowledge Center portal. There are 
efforts to include reviewers familiar with the communication styles of 
tribes as well as the languages. If a tribal language is the primary 
language of instruction, then a CLASS review is postponed until a 
reviewer is found that is fluent in the tribal language. We understand 
that reviewers that do not fully understand the primary language spoken 
in the classroom cannot understand the teacher-child interactions.

    Question 7. By what methodology does the Administration on Children 
and Families distribute funds to address necessary Head Start facility 
maintenance and renovation?
    Answer 7. The maintenance, repair, and renovation of facilities is 
a challenge for the Head Start and Early Head Start program. We have 
been taking steps to address this challenge including a review of all 
facilities and working closely with programs in facility renovation and 
disposition requests, but we expect a portion of facilities are at or 
nearing an age of 40 years which may need completely new construction. 
Head Start funding does not include amounts separately identified for 
facilities repairs and renovation. Any dedicated funding for facilities 
would need to be appropriated.
    Minor repairs and renovations may be included in the grantee's 
annual operating budget, and grantees holding title to facilities used 
for the Head Start program whose cost were not borne by or donated by 
the Federal Government may charge depreciation against their annual 
award, in accordance with 45 CFR  75.436. Because depreciation is a 
non-cash expenditure, grantees may use funds charged as depreciation 
for minor renovations and repairs.
    A grantee who wants to engage in a more extensive facilities 
project, such as purchase, construction or major renovation of a 
facility, must submit a separate application for one time funds. 
Funding for emergency facilities activities that are necessary for a 
facility to be operational has the highest priority, followed by 
activities needed to address serious health and safety issues, then 
general purchase, construction, renovations, and repairs.
                             senator scott
    Question 1. Will the Department agree to follow the statutory 
language and not favor or promote the use of grants and contracts over 
the use of child care certificates, or that would disfavor or 
discourage the use of such certificates for the purchase of child care 
services, including those services provided by private or nonprofit 
entities, such as faith-based providers, in any final rule on CCDBG 
issued by the Department of Health and Human Services?
    Answer 1. As part of the ongoing final rule process, we have 
carefully reviewed and considered your comments and the comments and 
concerns we received from Chairman Alexander and Chairman Kline. We 
want to assure you and the public that we continue to be fully 
committed to supporting parental choice and ensuring that all families 
have access to high-quality child care options in their communities. To 
clarify, the proposed rule would not have allowed States to favor 
grants or contracts over certificates because States would still have 
to provide parents with a certificate if that was the parents' 
preference.

    Question 2. Ms. Smith, in the hearing, you stated that the 
department took our concerns ``very seriously'' when writing the CCDBG 
regulations related to grants and contracts. Can you expand on that, 
and provide my office with the process by which the Department came to 
its interpretation to require States to incorporate grants and 
contracts into their funding methods?
    Answer 2. We have taken your comments and concerns very seriously 
as we continue to work on the final rule. Our goal with the proposal in 
the NPRM was never to undermine parental choice or go against the Act. 
Instead, we were building on the previously existing requirement that 
parents be offered a certificate or a grant, which was not changed in 
reauthorization, as well as the new requirement that States develop and 
implement strategies, which might include grants and contracts, to 
build the supply and quality of care for underserved groups. We believe 
a system that includes certificates, grants or contracts, and private-
pay families is the most sustainable option for the CCDF program and 
for child care providers.

    Question 3. You also stated that the NPRM still requires that 
parents are given the option of using certificates for childcare. 
However, since the NPRM also requires States to use grants and 
contracts, hasn't the pool of funds that could otherwise be used for 
certificates, and therefore parental options, essentially shrunk?
    Answer 3. The NPRM continues to require that parents receive the 
option to choose a certificate for child care, and this requirement 
would not change regardless of the proposed requirement for the use of 
some grants or contracts. Parental choice is a very important part of 
CCDBG, and our proposed requirement that States use some grants or 
contracts for direct services was not meant to limit that choice. 
Rather, we were trying to find a way to create additional high-quality 
child care options for parents. Child care supply in many low-income 
and rural communities is often low, particularly the supply of high-
quality care. We know that certain child care recipients struggle to 
find access to high-quality care, including families care for infants 
and toddlers, school-age children, children with disabilities, and 
families with non-traditional work schedules. Creating a high-quality 
child care program requires sustained investments, which is hard to do 
with a low subsidy payment that may end without much notice because a 
parent switches providers or loses their subsidy. Caring for certain 
children, such as infants and toddlers, is generally more expensive to 
provide, especially when it is higher quality. These limited options 
restrict a parent's ability to choose higher quality child care 
providers that are not willing to accept the child care subsidy. Using 
grants and contracts in combination with certificates can play a role 
in building the supply and availability of child care, particularly 
high quality care, for underserved populations and areas.

    Question 4. The funding payment method in 38 States, including 
South Carolina, is entirely certificate-based. How would States like 
mine, whose funding methods are 100 percent certificate based, comply 
with HHS's regulatory language?
    Answer 4. As proposed in the NPRM, States have the flexibility to 
determine how to use grants and contracts, in addition to certificates, 
based on an assessment of shortages in the supply of high-quality child 
care. We did not propose to require a certain number of contracts or 
contracted slots. Instead, States could use the supply data to contract 
for just a few slots at a variety of child care providers that are 
providing higher quality care in certain underserved communities.
    Alternatively, States could choose to contract for a specific 
group, such as high quality infant and toddler slots. While State child 
care programs are likely to continue to rely primarily on direct 
vouchers to families to purchase care from willing providers, grants 
and contracts are a useful important tool for addressing shortages of 
high quality care available to low-income families.

    Question 5. My amendment also ensures that the statute should not 
be construed or applied in any manner that would disfavor or discourage 
the use of vouchers or certificates for the purchase of child care 
services, including those services provided by private or nonprofit 
entities, such as faith-based providers. Since the NPRM requires the 
use of contracts and grants, which it also says may not be used for any 
religious purposes, doesn't it take away funds that parents may 
otherwise be able to use toward child care services at faith-based 
providers.
    Answer 5. The proposal in the NPRM was not intended to limit a 
parent's ability to choose a faith-based provider for child care 
services. In many States, faith-based organizations play a key role in 
the delivery of child care services, and we fully support their 
continued participation in the CCDF program. As proposed in the NPRM, 
every family receiving a CCDF subsidy must still be offered the option 
of receiving a voucher, which they could use at a faith-based provider 
if that was their preference.
                            senator sanders
    Question 1. I would like to thank the distinguished witnesses on 
both panels for their testimony. Your expertise and real life 
experience is of vital importance to this committee's work.
    In 2014, I supported the long overdue reauthorization of the Child 
Care Development Block Grant (CCDBG). This law made a number of key 
advances to better support children and families, including 12-month 
eligibility, strengthened health and safety requirements, improved 
consumer information, increased funding set-aside for quality, raised 
authorized spending levels, and more. These are good steps forward, but 
we simply must do more to ensure that all children have access to high-
quality child care that their parents can afford.
    Our Nation needs a revolution in child care and early learning. It 
should be a guarantee that our Nation provides a high-quality continuum 
of care and learning from infancy to Kindergarten entry and beyond.
    Today, in America, that is simply not the case. Forty percent of 
all families lack a regular child care arrangement. Our main Federal 
investments in child care for low-income families only reach about 15 
percent of eligible children. Yet the need continues to grow. 
Currently, out of all age groups, young children are most likely to be 
poor, with young Black, Latino, and Native children experiencing the 
highest rates of poverty.
    The picture is not much better for working and middle class 
families either. The Department of Health and Human Service's 
Administration of Children and Families recommends that families spend 
no more than 7 percent of their income on child care. Yet, in my home 
State of Vermont, middle-income families without access to subsidies 
spend between 28 and 40 percent of their income on child care. It is 
equally unacceptable that our main investment in child care punishes 
mothers and fathers, when they advance in their careers by phasing out 
their eligibility for support needed to pay their child care bill. Lack 
of adequate access to high-quality child care is very detrimental to 
the lifetime earning potential of all parents, but particularly 
mothers, and households led by women. This is a very real concern in 
Vermont, where over 70 percent of women, with children under the age of 
six, work outside of the home.
    For children, the importance of access to high-quality, safe, 
healthy, and nurturing child care cannot be underestimated. The 
research on the brain's growth before the age of five confirms this and 
the later school and workforce outcomes of children that had high-
quality care and early learning provide ample evidence of its benefit.
    I believe we need to dramatically increase Federal funding for 
child care and early learning programs like those provided through 
CCDBG. I'd like to ask the entire panel, what would a dramatic increase 
in Federal funding for programs like CCDBG mean for your communities? 
What would it mean for State waiting lists for care or State determined 
decisions on income eligibility? How would strong funding for programs 
like CCDBG improve workforce support for all families and in particular 
working mothers? What would robust Federal funding that supported a 
strong continuum of care from infancy to Kindergarten entry mean for 
our children, our schools, and our future workforce?
    Answer 1. Currently, Federal and State funding for child care 
assistance falls well short of the need, and millions of low-income 
families struggle to find quality care they can afford in their 
communities. Of more than 14 million children who are federally 
eligible for child care subsidies (i.e., with incomes under 85 percent 
of State Median Income), only approximately 15 percent receive them. 
Access to CCDF-funded child care assistance fell to an all-time low in 
fiscal year 2014 due to funding constraints, with an average of only 
1.4 million children served each month, and many States have waiting 
lists for assistance as a result of funding shortfalls. In addition, 
CCDF funding levels have not kept pace with the rising cost of child 
care and the value of the child care subsidy has decreased in real 
dollars by about 20 percent since 2003.
    The Administration strongly supports an increase in Federal funding 
for child care and early learning programs. The President's most recent 
budget request includes $82 billion in additional mandatory funding 
over 10 years to ensure that all low- and moderate-income working 
families (under 200 percent of the Federal Poverty Level) with children 
under age four have access to child care assistance that can help them 
afford high-quality care. This investment would maintain access for 1.5 
million children as States implement the changes included in the CCDBG 
reauthorization, while providing access for an additional 1.15 million 
children by 2026. These increased investments will not only ensure that 
more low-income children are in higher-quality child care settings; 
they will also help support child care providers to hire, train, and 
retain highly skilled child care workers through a higher subsidy that 
covers the cost of high-quality care.
    Workforce conditions, including low wages, can greatly influence 
the level of stress child care teachers are under, directly impacting 
their interactions with children and their ability to support 
children's optimal development. Additionally, the proposal would 
provide more than $9 billion in new quality improvement funding over 10 
years, targeted to activities we know will improve quality--including 
investments on the workforce. For instance, using about 50 percent of 
these quality dollars in this area could support 2 years of educational 
support toward a degree or credential for more than 225,000 early 
childhood professionals over 10 years.
    We have also proposed an increase of $200 million in discretionary 
CCDF funding to help States implement new CCDBG requirements and to 
develop and implement innovative ways of providing high-quality care 
for rural families and families needing care during non-traditional 
hours. These proposed investments ensure that families do not lose 
their subsidies over time, while also expanding access to high-quality 
care for additional families with young children to build a strong 
foundation for early learning and development.
    In addition, the Administration strongly supports partnering with 
States to provide publicly funded preschool for 4-year olds from low- 
and moderate-income families. The President's Preschool for All budget 
proposal would provide high-quality preschool services to children with 
families at or below 200 percent of poverty. The President's early 
learning initiative seeks to build a continuum of high-quality early 
childhood programs through additional resources that increase the 
number of Head Start children attending a full school day and school 
year program; maintain Head Start enrollment through a full cost-of-
living adjustment for all Head Start grantees, including Early Head 
Start-Child Care Partnership grantees; expand access to preschool; and 
expand access to voluntary evidence-based home visiting programs.

    Question 2. The low pay for child care and early learning workers 
is well documented and a national disgrace that effects a workforce 
that is nearly universally female.
    This month, the U.S. Department of Health and Human Services (HHS) 
and the Department of Education released a report documenting the 
embarrassingly low compensation for child care workers. In every State 
in the Nation the median annual earnings for child care workers qualify 
them for SNAP benefits. Shockingly, those caring for children at the 
most vulnerable stage of their lives--from birth to age three--earn the 
least, $10.40 an hour on average. This unfair compensation exists 
regardless of qualifications. Early learning teachers and care givers 
with a bachelor's degree earn about $14.70 per an hour, over $12 less 
an hour than the average earnings overall of those with a bachelor's 
degree. HHS' report also shows that low compensation and lack of 
professional development can fuel staff turnover. This is certainly the 
case in Vermont where teacher turnover is 50 percent due to low wages 
and benefits. Evidence shows that child care centers with low turnover 
and fair compensation results in better outcomes for kids.
    Ms. Smith, can you speak to the necessity of paying child care and 
early learning workers a fair wage? What does a fair wage mean for 
their families and their own well-being? Why are well compensated and 
highly trained child care givers and early learning teachers important 
for a child's development? How would dramatically increasing funding 
for CCDBG help increase worker compensation? What else can the Federal 
Government do to increase compensation for this crucial workforce?
    Answer 2. We fully agree that compensation of the early childhood 
workforce needs to be turned around, and we were happy to release, with 
the Department of Education, the report High-Quality Early Learning 
Settings Depend on a High-Quality Workforce: Low Compensation 
Undermines Quality, along with State profiles that illustrate the 
inadequate wages for early childhood workers earlier this year. That 
report shows that the compensation of our early educators is completely 
disproportionate to the importance of the service they provide. It 
showed that child care workers earned, on average, $20,320 a year, over 
$8,000 less than Head Start and preschool teachers and less than half 
of what kindergarten teachers earn.
    Workforce conditions, including low wages, can greatly influence 
the level of stress child care teachers are under, directly impacting 
their interactions with children and their ability to support 
children's optimal development. Instead of the worst paid, these 
educators should be some of the best paid professionals given the 
important work they do in setting the trajectory for children's success 
in school and life alongside their parents.
    Both the reauthorized Child Care and Development Block Grant Act 
and the proposed Child Care and Development Fund (CCDF) rule address 
compensation and financial incentives as an allowable quality activity. 
The rule also encourages financial incentives as part of the training 
and professional development requirements--States have already been 
creative in using CCDF funding to support higher compensation for the 
child care workforce, including scholarships and retention rewards for 
those with more education. But we know that these efforts alone will 
not solve the compensation problem.
    We think the statutory requirement for States to consider the cost 
of quality in setting payment rates will help support compensation 
increases that are necessary to increase the quality of a program. 
Quality depends in large part on the director, teachers, and staff. A 
payment rate that represents quality has to address a fair wage for our 
child care workforce.
    To fund the high quality care children need, which includes 
increased compensation and professional development for child care 
workers without limiting access to the program or raising fees for 
parents, we must increase funding for the program. For the past 2 
years, the Administration has proposed a significant increase in CCDF 
funding to provide all children under age 4 in low-income families with 
high quality child care. The Administration's proposal includes 
investments in the child care workforce that can help improve 
compensation by increasing the subsidy providers receive. Higher child 
care subsidy payments mean higher payments to child care providers, 
which in turn enable providers to pay their workers better. A stronger 
subsidy has the potential to both broaden the set of child care options 
that families can access, improve the working conditions and wages of 
the early care and education workforce, and in turn, improve the 
quality of care provided. Child care employers often struggle to retain 
well-qualified child care workers. With an increased average annual 
subsidy, they could improve wages to reduce turnover and improve the 
continuity of caregiver relationships with children.
    As a result, the funding request takes into account the need to 
significantly raise the compensation of child care providers, which is 
particularly low for the infant and toddler workforce that is providing 
children with the critical foundation for future health, development, 
and learning.

    Question 3. I have been hearing from early educators and care 
givers in Vermont and from people across the country that our 
communities are experiencing a dramatic increase in the number of 
children exposed to multiple adverse experiences and that they do not 
feel adequately equipped with the resources, training, and support to 
accommodate this crisis.
    According to the national Adverse Childhood Experience Study, over 
half of those surveyed reported at least one form of childhood 
adversity. Shockingly, two in three children in our Nation--46 million 
children--are exposed to violence, crime, abuse, or psychological 
trauma. In Vermont, over 20 percent of children have had two or more 
adverse experiences, which include traumatic events like living in 
chronic poverty, living with someone with a substance abuse problem, 
experiencing community or family violence, and more. Even more alarming 
is the fact that our youngest citizens and their parents are at the 
forefront of this crisis. Since 2014, the Department for Children and 
Families in Vermont has seen a 33 percent increase of children in State 
custody with children under the age of 6 making up more than two-thirds 
of this increase. Further, similar to nationwide trends, over 40 
percent of children come from low-income families in my home State, 
with young children the most likely of any age group to be poor.
    Ms. Smith, given the need to provide high-quality care and early 
learning to all children, and the increased rate of children with 
adverse experiences, what is the Department of Health and Human 
Services (HHS) doing across all of its early childhood programs--from 
CCDBG to home visiting--to ensure that providers are delivering trauma-
informed services? Similarly, what resources or tools do you need from 
the Federal Government to ensure that HHS can respond to this need? 
Last, can you share promising practices that you have seen from States 
that enacted trauma-informed approaches to their early care and 
learning programs?
    Answer 3. The reauthorized CCDBG Act includes several requirements 
aimed at addressing children's social-emotional development and needs. 
For example, States are required to create a progression of 
professional development that incorporates social-emotional behavior 
intervention models, which may include positive behavior intervention 
and support models. As States consider how they spend the funds they 
reserve for quality activities, Congress made clear that training and 
support to promote social-emotional development is an allowable use of 
funds for child care workers who serve young children, including 
infants and toddlers. States are also required to provide consumer 
education information to parents, the general public, and, where 
applicable, providers about policies regarding the social-emotional and 
behavioral health of young children. In 2015, ACF issued an information 
memorandum detailing research and policy options related to children's 
social-emotional development.\1\
---------------------------------------------------------------------------
    \1\ CCDF-ACF-IM-2015-01, Issued September 8, 2015 http://
www.acf.hhs.gov/sites/default/files/occ/ccdf_acf_im_2015_01.pdf.
---------------------------------------------------------------------------
    As the Nation's laboratory, Head Start is also working to promote 
trauma informed practices, including having teachers and caregivers 
trained in trauma-informed care. One evidence-based trauma-informed 
care training program for staff serving young children is Head Start-
Trauma Smart (HS-TS), developed by the Crittenton Children's Center in 
Kansas City, MO. The HS-TS approach includes: training for parents and 
all Head Start program staff; individual trauma-focused intervention 
for children identified as needing individual support; classroom 
consultation available from HS-TS therapists for all teachers; and 
peer-based mentoring for both staff and parents. To date, the program 
has had significant success in supporting children with multiple 
adverse childhood experiences and reducing their externalizing and 
internalizing behaviors to normal levels before kindergarten entry. HS-
TS is currently being scaled across States.
    Supporting families that may be at-risk is a critical step in 
providing holistic, trauma-informed care. The Maternal, Infant, and 
Early Childhood Home Visiting (MIECHV) program gives pregnant women, 
expectant fathers, and parents and caregivers of children under the age 
of 5 necessary resources and skills to raise children who are 
physically, socially, and emotionally health and ready to learn. The 
MIECHV program is administered by the Health Resources and Services 
Administration (HRSA) in collaboration with ACF. By choosing to 
participate in the program, families receive help from health, social 
service, and child development professionals. Through regular, planned 
home visits, parents learn how to improve their family's health and 
provide better opportunities for their children. Home visits may 
include supporting preventive health and prenatal practices, helping 
parents understand child development milestones and behaviors, and 
promoting parents' use of praise and other positive parenting 
techniques.
    Other work being done through Head Start are ACF-funded evaluations 
of promising parenting interventions in Early Head Start settings, 
including home-based and center-based, to help support parenting and 
buffer children from the effects of toxic stress. Additionally, the 
National Center on Early Childhood Health and Wellness technical 
assistance center, jointly funded by the Office of Head Start and the 
Office of Child Care, works to promote children's mental health and 
social-emotional well-being via a number of projects including 
developing materials to help providers discover ways to identify and 
help children and families who have experienced trauma, and producing 
an evidence-based set of modules to outline the competencies needed to 
be an effective mental health consultant in early childhood settings.
    To further address these issues, HHS has established a National 
Center of Excellence for Infant and Early Childhood Mental Health 
Consultation (IECMHC). A partnership between ACF, the Substance Abuse 
and Mental Health Services Administration (SAMHSA), and HRSA, IECMHC is 
an intervention that builds the capacity of teachers, home visitors, 
and parents to address challenging behaviors and promote social-
emotional development. The model has shown positive impacts in:

    <bullet> improving children's social skills,
    <bullet> reducing challenging behaviors,
    <bullet> increasing family school collaboration,
    <bullet> improving child-adult relationships,
    <bullet> preventing preschool suspensions and expulsions, and
    <bullet> increasing classroom quality, and reducing teacher stress, 
burnout, and turnover.

    The National Center of Excellence provides state-of-the-art tools, 
training, and technical assistance to build strong, sustainable IECMHC 
systems in States and tribes. Home visiting professionals will have 
greater knowledge and skills for helping families who are dealing with 
health and mental health issues such as attachment disorders, trauma, 
and maternal depression.
    As a result of the work of the National Center of Excellence, more 
teachers will be able to call on mental health consultants to help them 
create positive and nurturing learning environments, to manage 
challenging situations, and to examine implicit biases that may lead to 
racial inequities.
                             senator bennet
    Question 1. The Child Care Development Block grant is one of 
several important Federal, State, and local funding streams providing 
access to early childhood care and education. While each of these 
investments is critical to families, multiple funding streams can add 
complexity to the system.
    How is the Department providing support for States and providers to 
create a seamless system of layering funds? What States are doing this 
well and how can other States learn from their examples? How can we 
ensure that our child care system is as simple as possible for the low-
income families who are trying to access it?
    Answer 1. Several new provisions included in the reauthorized CCDBG 
Act are helping to create a more user friendly child care system for 
low-income families. These provisions include:

    <bullet> Ensuring that re-determination processes will not unduly 
disrupt employment, education, or participation in job-training of 
parents;
    <bullet> Requesting that States, as a part of their plan, describe 
how they will coordinate and align Federal, State, and local funds to 
expand accessibility and continuity of care for children enrolled in 
early childhood programs;
    <bullet> Establishing a minimum 12 month eligibility 
redetermination period for CCDF families, regardless of changes in 
income or temporary changes in participation in work, training, or 
education activities;
    <bullet> Provides for a graduated phase-out of assistance for 
families whose income has increased at the time of re-determination, 
but remains below the Federal threshold; and,
    <bullet> Expanding the consumer information that States must 
provide to parents, including the requirement for families to be 
informed about other assistance programs for which the family might be 
eligible.

    We have also made investments in new models for providing more 
seamless care for infants and toddlers, most notably through the Early 
Head Start-Child Care Partnerships. These partnerships were created to 
increase the supply of high-quality early learning opportunities and 
better align the continuum of care and development leading to preschool 
for infants and toddlers living in low-income families. We appreciate 
Congress' strong support of these partnerships, which are serving as 
learning laboratories to leverage Federal-, State-, program-, and 
community-level change for the future of high-quality infant and 
toddler care. The first year of implementation was marked with 
tremendous growth and learning as we work toward a seamless system that 
aligns Head Start and child care.
    Finally, in 2015, ACF redesigned the early childhood technical 
assistance (TA) system to better integrate support across all early 
care and education programs. The new system fosters stronger 
collaboration among HHS programs, including Head Start and CCDF. This 
collaboration allows for a wider-reaching network of assistance and 
provides TA to identify innovations in child care administration and to 
bring the latest in research and best practices to State systems as 
well as teachers and early educators across early childhood and 
afterschool/summer learning settings.
    Our TA centers are working across early childhood programs to help 
States and providers find ways to address managing multiple funding 
streams. For example, the National Center on Child Care Subsidy 
Innovation and Accountability and the National Center on Early Head 
Start-Child Care Partnerships will be introducing a new ``Layering 
Tool'' that is designed to help programs develop budgets that support 
their child care partners and support effective implementation of the 
layering budget concept.
    Many States use a variety of funding sources to layer funds, 
increasing services to children by combining funding streams to 
seamlessly pay for different components of a child's care. These other 
sources include, but are not limited to, other early childhood programs 
such as pre-K, tax credits, and public private partnerships. The recent 
efforts made through the Early Head Start (EHS) Child Care Partnerships 
(CCP) provide strong examples of creating a seamless system of layering 
funds. Some State grantee examples include:

    <bullet> Alabama: Provides priority access to subsidy for children 
who are EHS eligible through a dual enrollment system. The State 
approved a continuity of care line item to assure that a child could 
participate even if the parent's subsidy eligibility status changed.
    <bullet> Georgia: Has a single point of entry for families who are 
subsidy and EHS eligible and uses contracted slots for EHS-CCPs to have 
a seamless system of layering funds from CCDF subsidy and EHS funds. 
The grant agreements provide consistent and predictable subsidy funding 
that, when added to the EHS-CCP funding, helps partners budget and 
provide comprehensive services, lower ratios and group sizes, qualified 
teachers, and broad-scale parent engagement.

    Question 2. In Colorado, shared-services models like the David and 
Laura Merage Foundation's Early Learning Ventures, help to create 
economies of scale and strong business practices. Such public-private 
partnerships can help support child care providers and increase access 
for families.
    How does the new law support public-private partnerships? How is 
the Department supporting States and local governments in the 
development and expansion of such partnerships?
    Answer 2. The reauthorized CCDBG Act includes a new provision that 
promotes public-private partnerships in State CCDF programs. It 
requires each CCDF Plan to demonstrate how the State encourages 
partnerships among State agencies, other public agencies, Indian tribes 
and tribal organizations, and private entities, including faith-based 
and community-based organizations, to leverage existing service 
delivery systems to increase the supply and quality of child care 
services, such as by implementing voluntary shared services alliance 
models. A separate provision in the Act requires each State's CCDF Plan 
to describe how the State will develop and implement strategies to 
strengthen the business practices of child care providers to expand the 
supply and improve the quality of child care.
    HHS added new questions to the State CCDF Plan template to reflect 
these new statutory provisions, and included both provisions in the 
Notice of Proposed Rulemaking (NPRM) published in December 2015 to 
propose updates to the CCDF regulations to reflect the reauthorized 
Act. Through its Early Childhood Training and Technical Assistance 
System, HHS has provided guidance to nearly all States and direct 
technical assistance to 12 States in developing and improving public-
private partnerships--including written profiles of successful public-
private partnerships and at a session called ``Using Public-Private 
Partnerships to Drive Early Childhood Policy, Financing, and Practice'' 
at the 2015 national meeting for State child care administrators. 
Materials from this session, including written profiles, were shared 
publicly after the meeting and are available on ACF's technical 
assistance website.
    ACF has also recently taken the technical assistance systems from 
OHS and OCC and combined them to form the Early Childhood National 
Centers for Training and Technical Assistance. This unified approach 
will allow us to provide support for public/private partnerships at 
both the State level and more locally as its technical assistance will 
now work with a broader range of local entities and stakeholders.

    Question 3. Under the new law, States are required to increase 
their investment in quality over the next few years. How is the 
Department supporting States to use their quality set aside dollars 
most productively? How are they helping States select activities that 
will actually increase quality?
    Answer 3. The statute's increased focus on improving the quality of 
child care and the early childhood workforce is an important step 
toward providing more low-income children with access to high-quality 
child care settings. In addition, the law requires methods of 
measurement of the success of quality investments going forward. The 
newly increased set-asides--phased in over a period of 5 years--will 
benefit children across the country regardless of whether they receive 
CCDF subsidy or not.
    Through the National Center on Early Childhood Quality Assurance, 
as well as other technical assistance partners funded by ACF, we are 
providing targeted technical assistance to help States spend their 
quality funds effectively, as well as help them think about appropriate 
ways to measure their quality investments. This targeted technical 
assistance includes small group peer-to-peer interactions, national 
webinars, and topical learning tables.
    We also recently announced the Impact Project to assist States as 
they develop and expand their capacity for planning, investing in, and 
implementing quality early childhood systems, policies, and practices. 
The focus for each State participating in the Impact Project is State-
directed, based on the State's particular context and vision and goals 
for the development of a strong early childhood system. As a result of 
the Impact Project, State early childhood systems leaders should be 
able to successfully strengthen systems building for effective high-
impact services that can improve outcomes for children and families.
    The creation of a permanent set-aside to increase the quality of 
care for infants and toddlers has given us more opportunities to work 
with States, territories, and tribes to make sure infants and toddlers 
have access to high quality child care. In May 2016, we held the Infant 
Toddler Strategies Institute, which was a national meeting for our 
State and territory partners to focus on the early years of a child's 
life and how States may wish to invest their infant and toddler set-
aside to develop innovative early childhood policies and systems that 
support families and that optimize infant-toddler development. We have 
also added dedicated infant and toddler specialists in each HHS 
regional office as part of our technical assistance network.

    Question 4. I've heard from families across Colorado who are 
concerned about the child care cliff effect. Parents are concerned that 
they will lose a subsidy if they accept a raise or take a new job. How 
does the new law help address this cliff? What more could States and 
the Federal Government do to mitigate the effects of the child care 
cliff?
    Answer 4. The law includes several important requirements that will 
protect families from the cliff effect. This includes:

    <bullet> Minimum 12 month eligibility: The law's minimum 12 month 
eligibility period will ensure that once a child is determined eligible 
for a child care subsidy, the family can rely on that benefit for at 
least a year. This would allow a family to accept a raise or change 
jobs with worrying about losing their child care assistance because as 
long as the family's income did not exceed the Federal income limit of 
85 percent of State Median Income during the eligibility period, they 
would retain their benefit. Low-income families can experience rapid 
and multiple changes within a short period of time and unemployment and 
job loss are very disruptive to families. Retention of eligibility 
during a temporary period of unemployment or extended leave due to 
illness, for example, can alleviate some of the stress on families and 
facilitate a smoother transition back into the workforce. Stable child 
care is critical to strengthening parents' ability to go to work, 
improve their prospects in the job market, and increase their earning 
potential.
    <bullet> Taking into Account Irregular Fluctuations in Earnings: 
The law also requires States to establish eligibility processes (for 
both initial eligibility and redetermination) that take into account 
irregular fluctuations in earnings. This will ensure that temporary 
increases in income do not affect eligibility or family copayments. 
This is particularly important for families who rely on work that is 
unpredictable or seasonal in nature, such as agriculture or 
construction work or work associated with tourism industries. These 
families may experience a temporary spike in income due to working 
increased hours (e.g., retail at the holidays, tourism in summer) over 
a short period, yet those earnings are not representative of the 
family's income over the course of a year.
    <bullet> Graduated Phase-out: The graduated phase-out provision in 
the law will also mitigate the negative impacts of the cliff effect by 
allowing families who come in at redetermination with incomes that 
exceed the initial eligibility income threshold to receive some period 
of continued assistance. Providing a graduated phase-out promotes 
continuity by allowing for wage growth, a tapered transition out of the 
child care subsidy program, and supports long-term financial stability 
to help families get to a point where they no longer need the subsidy. 
Sudden withdrawal of support can destabilize and undermine a family's 
pathway to financial stability.
    In addition to these policies, there are additional strategies for 
avoiding the cliff effect, many of which ACF has included in the NPRM. 
As you know, these are proposed at this point, and the final rule is 
expected to be published in late summer. Some proposals from the NPRM 
include:

    <bullet> Providing a definition of ``temporary change'' to further 
protect a family's eligibility in cases where they experience:

        <bullet> a time-limited absence for family or sick leave 
        (including parental leave);
        <bullet> any interruption for a seasonal worker who is not 
        working between regular industry seasons;
        <bullet> a student holiday or break; any reduction in work, 
        training, or education hours as long as the parent is still 
        doing one of those activities;
        <bullet> any cessation of job/education/training that is less 
        than 3 months; and
        <bullet> any change in residency within State/territory/tribe;
    <bullet> Prohibiting States from increasing parental co-pays during 
the eligibility period, which eliminates a possible negative impact of 
a family's income increase; and
    <bullet> Limiting what a State could require families to report 
during the eligibility period, thereby significantly reducing the 
burden on families. For example, the NPRM proposed to:
        <bullet> Limit change reporting requirements to items that 
        impact a family's eligibility (income and, at State option, 
        work, training, or education status) or those that enable the 
        lead agency to contact the family or pay providers; and
        <bullet> Ensure that change reporting does not require an 
        office visit and that the States offer a range of notification 
        options to accommodate the needs of working parents.

        Response by Sheila Hoyle to Questions of Senator Sanders

    Question 1. I would like to thank the distinguished witnesses on 
both panels for their testimony. Your expertise and real life 
experience is of vital importance to this committee's work.
    In 2014, I supported the long overdue reauthorization of the Child 
Care Development Block Grant (CCDBG). This law made a number of key 
advances to better support children and families, including 12-month 
eligibility, strengthened health and safety requirements, improved 
consumer information, increased funding set-aside for quality, raised 
authorized spending levels, and more. These are good steps forward, but 
we simply must do more to ensure that all children have access to high-
quality child care that their parents can afford.
    Our Nation needs a revolution in child care and early learning. It 
should be a guarantee that our Nation provides a high-quality continuum 
of care and learning from infancy to Kindergarten entry and beyond.
    Today, in America, that is simply not the case. Forty percent of 
all families lack a regular child care arrangement. Our main Federal 
investments in child care for low-income families only reach about 15 
percent of eligible children. Yet the need continues to grow. 
Currently, out of all age groups, young children are most likely to be 
poor, with young Black, Latino, and Native children experiencing the 
highest rates of poverty.
    The picture is not much better for working and middle class 
families either. The Department of Health and Human Service's 
Administration of Children and Families recommends that families spend 
no more than 7 percent of their income on child care. Yet, in my home 
State of Vermont, middle-income families without access to subsidies 
spend between 28 and 40 percent of their income on child care. It is 
equally unacceptable that our main investment in child care punishes 
mothers and fathers, when they advance in their careers by phasing out 
their eligibility for support needed to pay their child care bill. Lack 
of adequate access to high-quality child care is very detrimental to 
the lifetime earning potential of all parents, but particularly 
mothers, and households led by women. This is a very real concern in 
Vermont, where over 70 percent of women with children under the age of 
6 work outside of the home.
    For children, the importance of access to high-quality, safe, 
healthy, and nurturing child care cannot be underestimated. The 
research on the brain's growth before the age of 5 confirms this and 
the later school and workforce outcomes of children that had high-
quality care and early learning provide ample evidence of its benefit.
    I believe we need to dramatically increase Federal funding for 
child care and early learning programs like those provided through 
CCDBG. I'd like to ask the entire panel, what would a dramatic increase 
in Federal funding for programs like CCDBG mean for your communities? 
What would it mean for State waiting lists for care or State determined 
decisions on income eligibility? How would strong funding for programs 
like CCDBG improve workforce support for all families and in particular 
working mothers? What would robust Federal funding that supported a 
strong continuum of care from infancy to Kindergarten entry mean for 
our children, our schools, and our future workforce?
    Answer 1. Thank you for the opportunity to respond to additional 
questions as followup to the Senate HELP Committee hearing on June 15. 
In North Carolina, there are 458,136 children under age 6 with working 
parents. The poverty rate for families with children under age 5 in 
North Carolina is 20.4 percent. In my 13 county service area, the 
poverty rate for families with children under age 5 exceeds the State 
average in 10 counties. In Swain County, the poverty rate for families 
with children under age 5 is 41.3 percent--more than double the State 
average. For single mothers, poverty is far greater. In 8 counties in 
our service area, the poverty rate for single mothers raising children 
under age 5 exceeds the State average of 49.4 percent. In two counties, 
Swain and Clay, about two-thirds of these mothers with young children 
are living in poverty. Throughout North Carolina, there are about 
20,330 children on a waiting list for subsidy.
    If there were a ``dramatic'' increase in funding, the impact would 
depend upon the size of the dramatic increase. For example, depending 
upon the size of the increase, North Carolina could eliminate the 
waiting list. The State could increase eligibility to 85 percent of 
State median income and include a generous gradual phase-out. In 2015, 
the average annual cost of center-based care for an infant was $9,254 
and the average annual cost of center-based preschool-age care was 
$7,919. Many families, particularly those with more than one child, 
struggle with the cost of child care. Child care costs are difficult 
for low income families, but also are a challenge for all families 
except the very wealthy. If there were a dramatic increase in funding, 
depending upon the size of the increase, all families with children 
below 85 percent of State median income could have access to high 
quality care.
    What difference would that make? Decades of research shows that 
children who have access to high quality care are more likely to:

    <bullet> Enter school ready to succeed,
    <bullet> Perform at grade level, and
    <bullet> Graduate from high school college- or career-ready.

    Children who enter school ready to succeed are less likely to:

    <bullet> Be retained in grade,
    <bullet> Be referred to special education,
    <bullet> Drop out of high school, and
    <bullet> Spend time in a juvenile detention facility or prison.

    Studies have also shown that parents with high quality child care 
that is reliable are more likely to be focused on their job and less 
likely to miss work due to child care problems. We all have a vested 
interest in students graduating high school and increasing the college 
completion rate. A Georgetown University study, ``Help Wanted: 
Projections of Jobs and Education Requirements Through 2018,'' projects 
that by 2018, more than two-thirds of the 47 million projected job 
openings will require some level of postsecondary education or 
training.\1\ It is simply not possible to increase high school 
graduation rates and college completion rates without investing in the 
years when the brain is first developing--laying a foundation for all 
future emotional, social, physical, and cognitive development.
---------------------------------------------------------------------------
    \1\ Carnevale, A., Smith, N., and Strohl, J, Help Wanted: 
Projections of Jobs and Education Requirements Through 2018, Center on 
Education and the Workforce, Georgetown University, 2010. https://
cew.georgetown.edu/cew-reports/help-wanted/#report.
---------------------------------------------------------------------------
    Child care is a work support for parents, however, it is also an 
early learning setting for children--one that has a rate of return by 
helping to change a child's life trajectory. A dramatic increase in 
child care funding would enable more parents to work spurring local 
economies today and be an investment in the healthy development and 
school readiness of our children--the workforce of tomorrow. Our short- 
and long-term economy depends on both.

    Question 2. The low pay for child care and early learning workers 
is well documented and a national disgrace that effects a workforce 
that is nearly universally female.
    This month, the U.S. Department of Health and Human Services (HHS) 
and the Department of Education released a report documenting the 
embarrassingly low compensation for child care workers. In every State 
in the Nation the median annual earnings for child care workers qualify 
them for SNAP benefits. Shockingly, those caring for children at the 
most vulnerable stage of their lives--from birth to age 3--earn the 
least, $10.40 an hour on average. This unfair compensation exists 
regardless of qualifications. Early learning teachers and care givers 
with a bachelor's degree earn about $14.70 per hour, over $12 less an 
hour than the average earnings overall of those with a bachelor's 
degree. HHS' report also shows that low compensation and lack of 
professional development can fuel staff turnover. This is certainly the 
case in Vermont where teacher turnover is 50 percent due to low wages 
and benefits. Evidence shows that child care centers with low turnover 
and fair compensation results in better outcomes for kids.
    Ms. Hoyle, can you speak to the necessity of paying child care and 
early learning workers a fair wage? What does a fair wage mean for 
their families and their own well-being? Why are well compensated and 
highly trained child care givers and early learning teachers important 
for a child's development? How would dramatically increasing funding 
for CCDBG help increase worker compensation? What else can the Federal 
Government do to increase compensation for this crucial workforce?
    Answer 2. I, too, found the report by the U.S. Departments of 
Health and Human Services and Education shocking. In all States, median 
wages for child care workers would qualify a family of three for the 
Supplemental Nutrition Assistance Program (SNAP). Compensation for 
individuals with the same level of education across early learning 
settings varies greatly. The North Carolina Child Care Services 
Association has published a number of studies over the last decade 
about low wages within the child care field.\2\ While pay has increased 
modestly and turnover has declined slightly in our State, wages are 
still far too low and turnover is far too high.
---------------------------------------------------------------------------
    \2\ Child Care Services Association, child care workforce studies. 
http://www.childcareservices.org/research-reports/early childhood-
workforce-studies/.
---------------------------------------------------------------------------
    We have increased expectations for early educators based on what we 
know that children need. The Institute of Medicine and National 
Research Council report, Transforming the Workforce for Children Birth 
Through Age 8: A Unifying Foundation,\3\ is being held up as the 
standard for the field with an expectation that those working in early 
childhood should have a bachelor's degree. In North Carolina, we have 
seen tremendous growth in educational attainment so that now over 60 
percent of our teachers have at least an Associate degree in any field, 
and 38 percent have their degree in early childhood. But as you noted, 
compensation has not kept up with that progress. The national 
statistics of average hourly wage does reflect what we see in North 
Carolina as well. We hear from teachers all the time that they are 
unable to meet the basic necessities for their families--paying bills 
for rent and electricity, or meeting their own children's early 
childhood needs. This results in many of them having to turn to public 
assistance to support their families. Low wages also mean that the 
teachers are at risk themselves because their own well-being is 
compromised. It is a challenge to be an effective teacher when on a 
daily basis faced with the stress of financial insecurity. How can you 
be expected to care for others in the best way when your pay doesn't 
allow you to take care of yourself or your family? The IOM reports 
states that when parents and caregivers
---------------------------------------------------------------------------
    \3\ Institute of Medicine and National Research Council. 2015. 
``Transforming the workforce for children birth through age 8: A 
unifying foundation. ``Washington, DC: The National Academies Press. 
http://www.nap.edu/catalog/19401/transforming-the-workforce-for-
children-birth-through-age-8-a.

          ``are managing well, they can help children cope more 
        competently with the ordinary stresses that inevitably occur. 
        When caregivers are stressed, by contrast, they cannot provide 
        this buffering and are instead more often a source of stress 
---------------------------------------------------------------------------
        for children.''

    Solutions to this issue are complex. We cannot expect parents to 
have to pay increased rates to cover increased salaries as families are 
already typically paying higher than what is recommended at 7-10 
percent of their income for child care services. Additional Federal 
dollars that are targeted to increased subsidy reimbursement rates 
would provide child care owners with some funding, especially if those 
rates are based on the cost of care and not the rates that parents pay. 
However, there is no guarantee that those additional funds would be 
directed to teacher salaries, unless there is a requirement for child 
care providers to pay on a salary scale based on educational attainment 
and experience. That can still be a challenge for those programs that 
have a blend of private pay and subsidy pay families.
    Some States have set up compensation projects that provide direct 
supplements to teachers based on their education and their continuity 
in a child care program. Quality dollars from CCDBG have been used for 
these projects as well as State and local dollars. In North Carolina, 
we see a dramatic difference in turnover for those teachers who are 
able to participate in our salary supplement program: 14 percent 
average turnover for participants compared to far higher rates for the 
general child care workforce.
    The wage problem is far beyond the subsidy system (since families 
receiving a subsidy are only a small fraction of those using child 
care). The real problem is that parents can't afford the cost of the 
current system, let alone a system that would fairly compensate the 
early care and education workforce. A dramatic increase in CCDBG would 
help, but not resolve the problem since the compensation issue is far 
larger than subsidy rates and receipt. Child care programs are a 
business. The bottom line is that revenues (subsidy and parent tuition) 
need to cover operating expenses and operating a high quality program 
costs more than merely operating a child care program.
    You asked what else the Federal Government can do to increase 
compensation for the early learning workforce. I would urge that the 
Senate Finance Committee and House Ways and Means Committee hold 
hearings on the financing of our current child care system and what 
level of funding would be needed to support a system of high quality 
child care (which would include significantly increasing wages for 
child care providers and supports for the workforce to attain higher 
levels of education and credentials). It is unlikely that the 
appropriations process in Congress can ever appropriate enough funding 
to address the compensation challenges in the manner in which it should 
be addressed. There needs to be recognition that parents can't afford 
to pay more and as long as the system is dependent on parent fees, the 
workforce cannot be paid significantly higher wages. Back in the 1950s, 
when the Nation faced a crisis with interstate highway travel, the 
Federal Aid Highway System was born through a gas tax paid by consumers 
that would fund a highway trust fund to be allocated to the States to 
build roads and bridges.\4\ It is time to recognize that there needs to 
be a dedicated trust fund to support a child care system, which would 
be derived from some kind of modest fee across the general public 
(e.g., a modest property tax increase or sales tax increase or other 
funding base dedicated to an early learning fund). Without it, it is 
unlikely that sufficient funds will be available to sufficiently 
compensate the workforce and support a system of high quality child 
care. This is not just about subsidy rates for low income families, it 
is about underwriting the cost of a public good for all working 
families.
---------------------------------------------------------------------------
    \4\ Federal Aid Highway System, https://en.wikipedia.org/wiki/
Federal_Aid_Highway_Act_
of_1956.
---------------------------------------------------------------------------
    I encourage you to think broadly about an alternative source of 
funding to ensure that all families have access to high quality child 
care.

Response by Le'Vaughn Johnson Westbrook to Questions of Senator Sanders

    Question 1. I'd like to ask the entire panel, what would a dramatic 
increase in Federal funding for programs like CCDBG mean for your 
communities?
    Answer 1. Particularly for low income communities or cities that 
have a high rate of families living below the poverty line increase in 
Federal funding for programs in these types of areas is needed. For 
example, I lived in Flint, MI for 5 years and moved to Fairfax, VA last 
year. The difference in quality of life, income, and early childhood 
education programs is totally different. As we know, Flint is having a 
water crisis and these children will be impacted mentally and 
physically for the rest of their lives. It is imperative that Flint and 
similar communities receive more funding to be able to provide medical 
care, mental health and, educational/ special education programs in 
early Head Start and Head Start programs that these children would 
qualify for and attend because of the large amount of poverty in that 
area. Families lack transportation many times so they can't access high 
quality day care centers near Flint as most are in the suburban areas. 
Many times the early Head Start and Head Start programs are 
overcrowded.
    I have worked at Head Start providing behavioral services to 
children ages 3-5 and witnessed children in trailers on an abandoned 
school parking lot with the lights flickering on and off inside the 
trailer and in a confined space. These flickering lights for example 
were distracting children as the lights were dim and the poor teacher 
was doing the best that she could with what the State and Federal 
Government provided her in order to teach the most destitute in this 
community.
    You may ask, well other programs can open in the area that are of 
higher quality, right? The answer is NO. Many private owners will apply 
for grants but will not open in urban and poverty ridden areas due to 
crime and the desire to not want to cater to families of poverty as 
self pay families are more lucrative. Grantees also choose to go out of 
urban areas because many of the families that would be served have an 
array of issues that a daycare may not be able to provide, such as 
providing mental health services, hearing tests, dental care, diapers, 
formula, extra lunches to take home for dinner that children may 
otherwise not have because they do not have food or money, proper 
clothing, medication etc . . . this is why early Head Start and Head 
Start is so important and a necessity.

    Question 2. What would it mean for State waiting lists for care or 
State determined decisions on income eligibility? How would strong 
funding for programs like CCDBG improve workforce support for all 
families and in particular working mothers?
    Answer 2. As a middle class family, I do not qualify for subsidy at 
this time; daycare is still unaffordable and non-accessible due to 
waiting lists at facilities. However, there was a time when I was a 
single mother, I did qualify and I applied for child care assistance in 
Georgia and was told that I needed to provide several pay stubs before 
the State would issue a subsidy. This was difficult for me to do as I 
was returning to the workforce off of maternity leave, I did not have 
anyone to help care for my child so I could begin a new job and I could 
not afford $400 a week for infant care at a decent child care. I was 
ultimately forced to look for lower quality care at an in home day care 
which resulted in my child dying his second day in attendance.
    For families that are ready and willing to work, some of the 
stipulations can be an obstacle and families eventually must settle for 
low quality care. This cycle inevitably will force families deeper into 
poverty and will continue to rely on State assistance as they will not 
be able to find a job that pays enough to where they would be able to 
afford daycare without assistance. If a family makes a cent or $1 more 
than cutoff they are disqualified for assistance and they lose their 
slot and may lose their job as they do not have the income or facility 
to care for their child. The Federal Government and State would lose 
more money as this type of family would then need to apply for State 
emergency relief funding, TANF, and food stamps as the family cannot 
work. CCDBG is important to break this cycle so that families can be 
more sufficient and less reliant on State aid and contribute to the 
workforce.

    Question 3. What would robust Federal funding that supported a 
strong continuum of care from infancy to Kindergarten entry mean for 
our children, our schools, and our future workforce?
    Answer 3. The children will be receiving early social/emotional 
skills that would enable them to be able to learn in primary school so 
that they can obtain higher education and be competent in the 
workforce.

     Response by Margaret Williams to Questions of Senator Sanders

    Question 1. I would like to thank the distinguished witnesses on 
both panels for their testimony. Your expertise and real life 
experience is of vital importance to this committee's work.
    In 2014, I supported the long overdue reauthorization of the Child 
Care Development Block Grant (CCDBG). This law made a number of key 
advances to better support children and families, including 12-month 
eligibility, strengthened health and safety requirements, improved 
consumer information, increased funding set-aside for quality, raised 
authorized spending levels, and more. These are good steps forward, but 
we simply must do more to ensure that all children have access to high-
quality child care that their parents can afford.
    Our Nation needs a revolution in child care and early learning. It 
should be a guarantee that our Nation provides a high-quality continuum 
of care and learning from infancy to Kindergarten entry and beyond.
    Today, in America, that is simply not the case. Forty percent of 
all families lack a regular child care arrangement. Our main Federal 
investments in child care for low-income families only reach about 15 
percent of eligible children. Yet the need continues to grow. 
Currently, out of all age groups, young children are most likely to be 
poor, with young Black, Latino, and Native children experiencing the 
highest rates of poverty.
    The picture is not much better for working and middle class 
families either. The Department of Health and Human Service's 
Administration of Children and Families recommends that families spend 
no more than 7 percent of their income on child care. Yet, in my home 
State of Vermont, middle-income families without access to subsidies 
spend between 28 and 40 percent of their income on child care. It is 
equally unacceptable that our main investment in child care punishes 
mothers and fathers, when they advance in their careers by phasing out 
their eligibility for support needed to pay their child care bill. Lack 
of adequate access to high-quality child care is very detrimental to 
the lifetime earning potential of all parents, but particularly 
mothers, and households led by women. This is a very real concern in 
Vermont, where over 70 percent of women with children under the age of 
6 work outside of the home.
    For children, the importance of access to high-quality, safe, 
healthy, and nurturing child care cannot be underestimated. The 
research on the brain's growth before the age of 5 confirms this and 
the later school and workforce outcomes of children that had high-
quality care and early learning provide ample evidence of its benefit.
    I believe we need to dramatically increase Federal funding for 
child care and early learning programs like those provided through 
CCDBG. I'd like to ask the entire panel, what would a dramatic increase 
in Federal funding for programs like CCDBG mean for your communities? 
What would it mean for State waiting lists for care or State determined 
decisions on income eligibility? How would strong funding for programs 
like CCDBG improve workforce support for all families and in particular 
working mothers? What would robust Federal funding that supported a 
strong continuum of care from infancy to Kindergarten entry mean for 
our children, our schools, and our future workforce?
    Answer 1. Thank you, Senator Sanders. I could not agree more that 
``we need to dramatically increase Federal funding for child care and 
early learning programs like those provided through CCDBG.'' In 
Maryland, it is scarcely an overstatement to say that our Child Care 
Subsidy Program (CCSP) has been cash-starved to the brink of 
dysfunction.
    Severe funding shortfalls affecting CCSP since 2011 jeopardize not 
only our State's remarkable progress in early childhood education but 
also our ability to recover from the worst economic recession in 
decades. Child care poses an enormous expense for all families with 
young children--in all but one jurisdiction in our State, child care 
ranks second or third among leading household expenses. For low-income 
families seeking to re-enter or remain in the workforce, this situation 
is exacerbated. If ``Main Street'' economic recovery, in any 
sustainable form, hinges on employment, now is precisely the worst time 
to underfund CCSP.
    Beginning in 2011, Maryland implemented an enrollment freeze and 
established a wait list for CCSP applicants, with exceptions for 
applicants who are Temporary Cash Assistance (TCA) recipients and 
income-eligible families with children who have special needs. At its 
high-water mark, the CCSP wait list numbered more than 20,000 children.
    Thankfully, Maryland has attempted to address part of this 
deficiency with an increase in State general funds in past fiscal 
years. In combination with cost containment achieved through attrition 
and frozen enrollment, this funding has allowed the State to partially 
open CCSP to new participants at 8 of the 10 levels of income 
eligibility, but the enrollment freeze remains in place for significant 
numbers of the ``working poor.'' As of June 1, 2016, the wait list 
numbered 3,629 children (a figure I believe understates the actual 
need, in part because the State purged the wait list as it partially 
opened enrollment). Completely eliminating the enrollment freeze must 
remain our goal.
    The enrollment freeze is CCSP's most visible problem, but hardly 
the only one. Federal guidelines recommend that subsidy rates be pegged 
to the 75th percentile of the current market rate, ensuring that low-
income families have access to quality care. Maryland last met that 
guideline more than a decade ago. Current reimbursement rates fall at 
the 10th percentile, relegating families to the cheapest and, in many 
cases, the lowest quality care in their communities. Meanwhile, family 
eligibility remains fixed at a decade-old level (less than $30,000 
annual income for a family of three), and parent co-payments pose an 
enormous burden. For parents to earn and children to learn, overall 
CCSP funds must increase. I applaud Maryland for increasing the State 
contribution to CCSP, insufficient though that increase may be. I urge 
the members of this committee to do all within their power to 
significantly expand the Federal investment in child care and early 
education for working families and their children.

    Question 2. The low pay for child care and early learning workers 
is well documented and a national disgrace that effects a workforce 
that is nearly universally female.
    This month, the U.S. Department of Health and Human Services (HHS) 
and the Department of Education released a report documenting the 
embarrassingly low compensation for child care workers. In every State 
in the Nation the median annual earnings for child care workers qualify 
them for SNAP benefits. Shockingly, those caring for children at the 
most vulnerable stage of their lives--from birth to age 3--earn the 
least, $10.40 an hour on average. This unfair compensation exists 
regardless of qualifications. Early learning teachers and care givers 
with a bachelor's degree earn about $14.70 per an hour, over $12 less 
an hour than the average earnings overall of those with a bachelor's 
degree. HHS' report also shows that low compensation and lack of 
professional development can fuel staff turnover. This is certainly the 
case in Vermont where teacher turnover is 50 percent due to low wages 
and benefits. Evidence shows that child care centers with low turnover 
and fair compensation results in better outcomes for kids.
    Ms. Williams, can you speak to the necessity of paying child care 
and early learning workers a fair wage? What does a fair wage mean for 
their families and their own well-being? Why are well compensated and 
highly trained child care givers and early learning teachers important 
for a child's development? How would dramatically increasing funding 
for CCDBG help increase worker compensation? What else can the Federal 
Government do to increase compensation for this crucial workforce?
    Answer 2. Thank you for asking this excellent and important 
question, Senator Sanders. It may interest you to know that each year, 
in the process of setting policy priorities, my organization (Maryland 
Family Network, or MFN) surveys the most active and engaged early 
childhood education advocates in our State. Child care provider 
compensation almost always ranks among their top five priorities; it 
has ranked No. 1 in each of the past 3 years.
    It's easy to see why. Nationally, child care workers are among the 
lowest wage earners in the labor market. According to the Bureau of 
Labor Statistics, they're paid approximately $22,000 per year, on par 
with dry cleaning workers and parking lot attendants. This is primarily 
because child care salaries are limited by the tuition parents can 
afford to pay. Entry-level educational requirements are low in the 
child care field, but wages do not increase to the levels earned by 
educators in public schools as child care providers attain comparable 
degrees. And yet, many States and the Federal Government are 
increasingly demanding that providers meet high quality standards--in 
itself a good thing--while failing to address the economic 
disincentives and barriers that such low compensation imposes.
    MFN's Child Care Demographics 2016 report (available on-line at 
www.marylandfamilynetwork.org/resources/child-care-demographics) lists 
this average annual wage rate data for Maryland:

    <bullet> Child Care Center Director -- $38,985
    <bullet> Center Senior Staff/Teacher -- $26,641
    <bullet> Center Aide -- $17,035
    <bullet> Family Child Care Provider -- $36,206

    As you can see, there is an enormous discrepancy between what a 
child care provider earns for a 12-month year and the average salary of 
$65,477 earned by a full-time public school teacher for a 10-month 
year. The salary inequity appears even greater considering the fact 
that most child care employees also do not receive the benefits 
available to teachers, including health insurance, retirement benefits, 
paid sick leave, and other paid time off. Compensation for family child 
care providers may actually be much lower than we have previously 
reported. MFN has traditionally used a family child care provider's 
gross income from parent fees and subsidy payments as a proxy for 
income. A small survey of providers in 2014 found that providers whose 
average gross income was $26,705 had a net income after business 
expenses that equates more closely with wages of $15,962. Many 
providers, especially those who are heading households, are in fact 
subsisting at the poverty level.
    Low wages and lack of benefits for child care professionals are a 
critical problem that has forced many talented providers out of the 
field. Low compensation rates make it difficult to recruit and retain 
highly skilled child care workers, and the resulting lack of a highly 
skilled workforce limits the availability and quality of child care. 
Child care centers throughout the State have had difficulty recruiting 
and retaining qualified staff, and the number of regulated family child 
care providers has been in a steady decline since 1996.
    The quality of a child care program is directly related to the 
quality of its staff. Both nationally and in Maryland, the turnover 
rate of child care providers in centers hovers around 30 percent. (The 
figure you cite for Vermont is obviously even worse.) This turnover 
conflicts with the goal of providing continuity of care givers for 
young children, which has been shown to foster healthy development, and 
it frequently means that experienced center staff are replaced with 
novice staff, who may not have the training and education of their 
predecessors.
    Staff turnover can be reduced by providing scholarships for higher 
education and additional compensation to accompany educational 
attainment, a joint approach pioneered in North Carolina with the 
Teacher Education And Compensation Helps (T.E.A.C.H.) Early Childhood 
Project and WAGE$ Project. Other States have also demonstrated success 
with T.E.A.C.H., WAGE$, or local variations of these models.
    Maryland has attempted to address the compensation issue with 
annual bonuses for providers who participate in the Maryland Child Care 
Credential at Level 4+ and higher. Child care programs that participate 
in the Maryland EXCELS quality rating and improvement system are also 
eligible for tiered reimbursement from the Child Care Subsidy Program 
and awards from EXCELS once they reach the highest levels. There are 
also scholarships available to providers to attain higher education 
degrees. But as these programs encourage providers to meet requirements 
for teaching in public schools, and as the stark salary inequality 
between child care and public school teachers remains in place, it 
becomes increasingly difficult to retain teachers in the child care 
programs that cannot compensate them for the value of the work they do.
    The Federal Government could do a tremendous service to families, 
children, and the child care profession (not to mention employers and 
other taxpayers) by implementing a well-funded national option to 
replace the current patchwork of State professional development/wage 
supplement programs. With specific regard to CCDBG, I believe the 
Federal Government could make a tremendous impact in the lives of low-
income children and the poorly compensated child care providers who 
serve them by requiring--rather than simply recommending--that States 
set subsidy reimbursement at the 75th percentile of current market 
rates. Achieving this goal without disrupting the child care system in 
other ways (by precipitating parent co-payment increases, for example, 
or leading States to expand subsidy wait lists) will require a 
significant investment of new Federal funding. I submit that Americans 
deserve no less.

  Response by Myra Jones-Taylor, Ph.D. to Questions of Senator Sanders

                             State of Connecticut, 
                         Office of Early Childhood,
                                        Hartford, CT 06106,
                                                     July 19, 2016.

Committee on Health, Education, Labor, and Pensions,
Washington, DC.

Re: Responses from the Office of Early Childhood to Questions from the 
        Senate HELP Committee regarding the Federal Child Care and 
        Development Block Grant Act Reauthorization

    Below are response from the CT Office of Early Childhood regarding 
the Federal Child Care Development Block Grant Act Reauthorization and 
its impact on Connecticut's Care4Kids program. If you have any 
questions, please contact Maggie Adair, Director, Government Community 
Relations at 860-713-6413, or Maggie <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="347550555d467457401a535b421a">[email&#160;protected]</a>
                                 ______
                                 
    Question 1a. What would a dramatic increase in Federal funding for 
programs like CCDBG mean for your communities?
    Answer 1a. Connecticut has had to close all new enrollment for 
families with incomes less than 50 percent of the State Median Income 
(SMI). It would require an increase of $33 million for Connecticut to 
re-open those admissions and serve the approximately 4,000 eligible 
families that apply each year.

    Question 1b. What would it mean for State waiting lists for care or 
State determined decisions on income eligibility?
    Answer 1b. As stated above, it would allow 4,000 new families to 
become eligible each year who are going to be denied initial 
eligibility in fiscal year 2017. It would allow us to retain 
eligibility at less than 50 percent SMI.

    Question 1c. How would strong funding for programs like CCDBG 
improve workforce support for all families and in particular working 
mothers?
    Answer 1c. In Connecticut, those families who will be denied 
initial eligibility for a child care subsidy will have to make very 
hard choices. If there are two parents, one may have to stay home to 
take care of their children rather than being in the workforce. For a 
single parent, if there is an extremely low-cost (and potentially low 
quality) option (including illegal care) available, it may force them 
to use it. The child would not be in a setting that necessarily 
protects his or her health and safety and would probably be far from 
optimum in terms of support for early learning. Or a parent may be 
forced to leave employment, enroll in TANF, and fall further into 
poverty.

    Question 1d. What would robust Federal funding that supported a 
strong continuum of care from infancy to Kindergarten entry mean for 
our children, our schools, and our future workforce?
    Answer 1d. Our State struggles to offer child care subsidies that 
are a reasonable proportion of market rates for infants and toddlers. 
This has had a negative impact on high-quality child care providers' 
capacity to offer infant/toddler care. Therefore, many of the toddlers 
entering pre-k programs have been cared for in less than optimal 
quality settings. In our attempt to ensure access to high quality pre-k 
programs for all 3 and 4 year olds, the availability of the child care 
subsidy is considered one important funding stream that might allow the 
State to afford the true cost of a quality pre-k program. Robust 
Federal funding would allow our State to set reimbursements that not 
only would meet market rates but would allow CT to increase funding to 
support the high cost of providing high-quality care for all children 
birth--school age. In turn, the higher rate structure would support 
programs in recruiting and retaining a quality workforce.

    Question 2a. Can you speak to the necessity of paying child care 
and early learning workers a fair wage? What does a fair wage mean for 
their families and their own well-being?
    Answer 2a. In our current child care system child care workers are 
paid less then janitors and mail order clerks and most of these workers 
qualify for public benefits as highlighted in a recent U.S. Departments 
of Education and Health and Human Services report. These low wages make 
it impossible for the current workforce to support themselves and their 
families and many leave the field to pursue higher paying job 
opportunities. Paying a fair wage for the early care and education 
workforce would allow teachers to stay in the field and support their 
family.

    Question 2b. Why are well compensated and highly trained child care 
givers and early learning teachers important for a child's development?
    Answer 2b. As recommended in the recently released 2015 Institute 
of Medicine and National Research Council report, Transforming the 
Workforce for Children Birth Through Age 8: A Unifying Foundation, that 
all lead teachers of young children from infancy through third grade 
have at least a bachelor's degree.
    Specifically, research has shown that:

    <bullet> Classrooms in which teachers have at least a bachelor's 
degree are more likely to be of higher quality, including richer 
language environments, enhanced literacy environments and better 
teacher-child interactions and,
    <bullet> Teachers with at least a bachelor's degree are more likely 
to appropriately approach instruction--they are more sensitive, less 
punitive and more engaged.
    In order to recruit and retain highly trained teachers it is 
necessary to pay a fair living wage.

    Question 2c. How would dramatically increasing funding for CCDBG 
help increase worker compensation?
    Answer 2c. Substantial increases to CCDBG would allow States to 
raise subsidy reimbursement rates that would be help subsidize the high 
cost of providing quality care which include well compensated teachers.

    Question 2d. What else can the Federal Government do to increase 
compensation for this crucial workforce?
    Answer 2d. The Federal Government could assist States in additional 
funding for scholarship support for child care staff to complete degree 
programs and offer loan forgiveness opportunities.
    As a way of attracting and retaining a highly trained workforce the 
Federal Government could assist States in implementing bonus and 
incentive programs for degree/course work completion.

    [Whereupon, at 11:52 a.m., the hearing was adjourned.]

                              [all]

      
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
